<html>
<title> - HURRICANE KATRINA: ASSESSING THE PRESENT ENVIRONMENTAL STATUS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




     HURRICANE KATRINA: ASSESSING THE PRESENT ENVIRONMENTAL STATUS

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2005

                               __________

                           Serial No. 109-77

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2005        
24-251PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

        David Cavicke, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Environment and Hazardous Materials

                    PAUL E. GILLMOR, Ohio, Chairman

RALPH M. HALL, Texas                 HILDA L. SOLIS, California
NATHAN DEAL, Georgia                   Ranking Member
HEATHER WILSON, New Mexico           FRANK PALLONE, Jr., New Jersey
JOHN B. SHADEGG, Arizona             BART STUPAK, Michigan
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
CHARLES F. BASS, New Hampshire       LOIS CAPPS, California
JOSEPH R. PITTS, Pennsylvania        MIKE DOYLE, Pennsylvania
MARY BONO, California                TOM ALLEN, Maine
LEE TERRY, Nebraska                  JAN SCHAKOWSKY, Illinois
MIKE ROGERS, Michigan                JAY INSLEE, Washington
C.L. ``BUTCH'' OTTER, Idaho          GENE GREEN, Texas
SUE MYRICK North Carolina            CHARLES A. GONZALEZ, Texas
JOHN SULLIVAN, Oklahoma              TAMMMY BALDWIN, Wisconsin
TIM MURPHY, Pennsylvania             JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Falk, Henry, Director, National Center for Environmental 
      Health and Agency for Toxic Substances and Disease 
      Registry, Centers for Disease Control and Prevention, 
      Department of Health and Human Services....................    14
    Gautreaux, Karen K., Deputy Secretary, Louisiana Department 
      of Environmental Quality...................................    37
    Olson, Erik D., Senior Attorney, Natural Resources Defense 
      Council....................................................    86
    Peacock, Hon. Marcus C., Deputy Administrator, Environmental 
      Protection Agency..........................................     8
    Ragone, Stephen E., Director of Science and Technology, 
      accompanied by John H. Schnieders, Member, National Ground 
      Water Association..........................................    79
    Rutledge, William, Mayor, City of Pontotoc, on behalf of 
      National Rural Water Association...........................    73
    Verchick, Robert R.M., Gauthier-St. Martin Eminent Scholar, 
      Chair in Environmental Law, Loyola University, New Orleans.   105
    Woodley, John Paul, Jr., Assistant Secretary of the Army 
      Civil Works, Department of the Army........................    22
    Wright, Beverly, Executive Director, Xavier University of 
      Louisiana, Deep South Center for Environmental Justice.....    95

             Additional Material Submitted for the Record:

Falk, Henry:
    Written response to questions from Hon. Paul E. Gillmor......   196
    Written response to questions from Hon. John D. Dingell......   202
Gautreaux, Karen K.:
    Written response to questions from Hon. Paul E. Gillmor......   203
Peacock, Hon. Marcus C.:
    Written response to questions from Hon. Paul E. Gillmor......   210
    Written response to questions from Hon. John D. Dingell......   215
    Written response to questions from Hon. Tammy Baldwin........   220
Olson, Erik D.:
    Written response to questions from Hon. Paul E. Gillmor......   221
Ragone, Stephen E.:
    Written response to questions from Hon. Paul E. Gillmor......   231
Verchick, Robert R.M.:
    Written response to questions from Hon. Paul E. Gillmor......   235
Woodley, John Paul, Jr.:
    Written response to questions from Hon. Paul E. Gillmor......   239
    Written response to questions from Hon. John D. Dingell......   244

                                 (iii)



 
       HURRICANE KATRINA: ASSESSING THE PRESENT ENVIRONMENTAL STATUS

                              ----------                              


                      THURSDAY, SEPTEMBER 29, 2005

              House of Representatives,    
              Committee on Energy and Commerce,    
                            Subcommittee on Environment    
                                   and Hazardous Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:40 p.m., in 
room 2123 of the Rayburn House Office Building, Hon. Paul 
Gillmore (chairman) presiding.
    Members present: Representatives Gillmor, Hall, Deal, Bass, 
Murphy, Barton (ex officio), Solis, Wynn, Capps, Allen, and 
Green.
    Staff present: Mark Menezes, chief counsel for energy and 
environment; Tom Hassenboehler, majority counsel; Nandan 
Kenkeremath, majority counsel; Jerry Couri, policy coordinator; 
Peter Kielty, clerk; and Dick Frandsen, minority senior 
counsel.
    Mr. Gillmor. The committee will come to order, and I will 
recognize myself for the purpose of an opening statement.
    One month ago, Mother Nature forcefully and violently 
visited the Gulf Coast of our country in the form of Hurricane 
Katrina. This storm caused widespread flooding and significant 
property and infrastructure damage in Louisiana, Mississippi, 
and Alabama. In the process, the storm caused public health and 
environmental problems for the residents that live and work in 
that region.
    Katrina may well have been the largest single environmental 
disaster that our country has ever faced. We would like to 
learn the extent of the environmental damage, how long it will 
take to restore that environment, and even to what extent it is 
possible to do so. We are still close in time to the disaster, 
and at this stage, I do not expect that it will be possible to 
have complete answers to those questions.
    And also, as I made it clear when I called this hearing, I 
did not want to pull anyone out of the field who is 
participating in the cleanup or actively involved in these 
efforts, but as people began to wade back into the Gulf Coast 
to recover from this catastrophe, several reports have 
variously characterized the state of the environment in the 
areas damaged by Hurricane Katrina, and hopefully, this hearing 
can help to distinguish between the rumors and the facts 
concerning the status and the safety of the water and soil 
along the Gulf Coast, and what is being done currently to 
address the situation by public and private sources.
    In the past, our subcommittee has explored issues that have 
general importance to environmental protection. The matters 
that we examine today, I think, are clearly the most 
significant and urgent since our committee, in the wake of 
September 11, helped establish Federal anti-terrorism 
provisions for drinking water utilities in Title IV of the 
Public Health, Security, and Bio-Terrorism Preparedness and 
Response Act. That work, which became law 3 years ago, was 
bipartisan, and I believe that should serve to instruct all of 
us that Hurricane Katrina, like the terrorists piloting those 
planes, did not sort out their victims by political party.
    We are concerned about one thing, getting help to the 
people impacted by the storm, and this hearing isn't a forum 
for pointing fingers. I don't think it matters to the thousands 
of people who no longer call New Orleans or Bay St. Louis their 
home where blame lies. Now, I recognize a total understanding 
of what has happened in these communities, and all the needs to 
be met to remedy the environmental problems will take more 
time, and that is going to require significant future 
oversight.
    I want to thank our witnesses, who have taken time to be 
with us today. Each of your expert testimony is valuable to us 
in understanding the situation as it is now, not as how it may 
have been portrayed. And I especially want to thank our 
witnesses from Louisiana and Mississippi, who have made 
themselves available, whether in person or via the 
teleconference arrangement we have, to give firsthand accounts, 
and put a face on the real problems of people that are facing 
in this area. You not only have our thanks, but also, our best 
wishes, as you return to your work in reconstructing a vital 
part of our Nation.
    That concludes my opening statement, and I would like to 
yield 5 minutes to the gentlelady from California, Ms. Solis, 
for the purpose of an opening statement.
    Ms. Solis. Thank you, and good afternoon. Thank you, Mr. 
Chairman, Chairman Gillmor, for holding this very important 
hearing today on the environmental impact of Hurricane Katrina. 
I also want to thank the panelists that are here, and all the 
witnesses that will be speaking. I know this is an item that 
all of us are deeply, deeply concerned about. We know that 
Hurricane Katrina was one of the largest natural disasters 
faced by our country.
    The Department of Homeland Security Secretary Michael 
Chertoff recently commented: ``We are going to have to clean 
probably the greatest environmental mess we have ever seen in 
this country.'' It left in its wake a range of serious 
environmental problems, including flooded and contaminated 
drinking water and multiple oil spills, leaking underground 
storage tanks, flooded sewage treatment plants, flooded 
buildings, debris and contaminated sediment, and other sludge.
    Hurricane Katrina impacted, as we know, more than 1,000 
drinking water systems, and 172 sewage treatment plants, and at 
least 2.4 million people were without access to safe drinking 
water. Initial testing by EPA found elevated levels of E. coli 
bacteria and lead levels that exceeded public health standards. 
Based on the biological and the chemical water testing data, 
EPA and CDC recommended that the public and emergency 
responders avoid contact with the floodwaters and the sediment 
deposited by the flood.
    In all, though, Hurricane Katrina affected all populations, 
the hardest hit area was in low income and underrepresented 
communities. More than 100,000 in New Orleans, mostly poor 
blacks and Latino residents, were without cars and were 
stranded. Together with the elderly, disabled, and infirm, they 
were unable to evacuate themselves. They were the ones who 
lived in the greatest proximity to the major industrial 
facilities and toxic waste sites, who suffered most from the 
injustices of society's failure to consider the cumulative 
impacts of living and working conditions prior to Hurricane 
Katrina. These vulnerable communities are suffering 
tremendously in the wake of this natural disaster. Hurricane 
Katrina left hundreds of thousands of people without their 
livelihood and their homes, and in many cases, their dignity.
    I am concerned about the rush to waive health provisions, 
safety, environmental, and social protections. This would 
undercut longstanding health and environmental standards in the 
name of hurricane recovery. The city's poor and other cities 
that were affected will pay the price if we weaken those 
cleanup rules. Cleanup and rebuilding efforts must ensure that 
the burden of exposure to toxic releases does not fall solely 
on minority and underrepresented communities.
    All environmental justice and public health regulations 
should be met during testing, monitoring, cleanup, recovery, 
and reconstruction. Federal public health and environmental 
statutes provide many opportunities to address environmental 
risks and hazards in these communities. The crisis of this 
hurricane and other such disasters should not be used to 
weaken, waive, or roll back current Federal public health and 
environmental protections. Weakening, waiving, or rolling back 
Federal public health and environmental protections would 
further threaten the heavily damaged area of the Gulf Coast, 
negatively impacting the public health of those already 
affected communities.
    The public has a right to know about the cleanup and the 
rebuilding effort and should be informed and involved in the 
decisions on cleanup, recovery, and building. Hurricane Katrina 
should be an opportunity for us here in the Congress to begin 
the process of writing the wrongs of environmental justice, not 
an opportunity to guarantee another generation that will live 
under these current circumstances.
    Today, I hope we learn more about the ongoing cleanup, and 
the damage assessments, and about how long-term effects to 
protect the health of all our communities needs to be taken 
care of. We have an opportunity to rebuild these communities 
and the economy in the Gulf region, and as a model of the 
integrated, diverse, and sustainable society that all Americans 
deserve.
    I look forward to hearing from our witnesses, and I 
personally want to just share briefly that in Los Angeles, we 
also had some victims come visit us that are staying there. We 
hope that they will get the attention that they need, and be 
able to come back to their particular neighborhoods, but many 
were concerned about cleanup, and what will happen to the 
waste, to their homes that were destroyed, and to their 
livelihoods.
    So I hope that each of you, the panelists, will be able to 
help us to discern that information. Thank you very much, and I 
yield back.
    Mr. Gillmor. The gentleman from Texas.
    Mr. Hall. Chairman Gillmor, thank you.
    I want to come from two areas. First, personally, I want to 
thank each of you who are giving of your time here, not just 
the time you spend in this room with us, but the time you spent 
leading up to this, the time you spent preparing, the time you 
will spend returning to where you go, because we rely on you, 
folks like you, to give us testimony. You know more about it 
than we do, and from your information and your knowledge and 
your skill, we glean information with which we write the rules 
of the road up here, so you are very valuable to us, your time 
is valuable, and that is my opening statement.
    Now, it is likely that the chairman of the Committee on 
Energy and Commerce, Chairman Joe Barton, may not make this. He 
several others going underway right now, and he was here until 
12:45 last night on the Energy Bill. So if he comes, it will 
just be special, but he has asked me to go ahead and give you 
his statement.
    So thank you, Chairman Gillmor, for holding this very 
important hearing to assess the present environmental damage 
and current situation in the Gulf South. Hurricane Katrina and 
Hurricane Rita have devastated the lives of residents in 
Louisiana, Mississippi, Texas, Alabama, and Florida, and 
destroyed parts of our environment on an unprecedented scale.
    Our hearts go out to all the citizens of these areas whose 
lives have been forever changed by this horrific tragedy. We 
are here today to try and put politics aside, and get a real 
world glimpse at the current state of our environment in these 
devastated regions. While I realize many of the cleanup efforts 
are just beginning in New Orleans and in southwest Louisiana 
and Texas from Hurricane Rita, one thing should be clear. The 
health and safety of all the citizens of these areas who were 
displaced and devastated, should have the necessary assistance 
from the Federal Government to return to their normal lives.
    As I have said before, I plan on using all the authority I 
have as chairman of the House Energy and Commerce Committee to 
help in any way I can. Having said that, our greatest assets 
are people. Immediately following Hurricane Katrina, EPA sent 
teams and equipment down to the area to assess the 
environmental impact of the storm. Important as their job was 
to investigate water and air contamination. Many of EPA's 
personnel and equipment were used to rescue the lives of 
hundreds of people from certain death. And I want to recognize 
their courage and self-sacrifice to go beyond their normal 
duties, to save our citizens in time of extreme danger. Our 
environment is important, but not as important as the lives of 
those that live within our environment.
    I look forward to hearing testimony from all the witnesses 
today, including EPA, the Corps of Engineers, and the Agency 
for Toxic Substances and Disease Registry, and would like to 
especially recognize Mayor Rutledge from Pontotoc, Mississippi, 
and Karen Gautreaux, Deputy Secretary of the Louisiana 
Department of Environmental Quality, joining us by 
teleconference, who represent areas of the country that have 
been completely devastated by these storms.
    Once again, our hearts go out to you and to your citizens 
in this very difficult time. With that, I yield back on behalf 
of Chairman Barton, his time. Thank you, Mr. Chairman.
    Mr. Gillmor. Thank you, Mr. Hall, and let me also ask 
unanimous consent that all members' statements, after the 
conclusion of opening statements, be entered into the record.
    Gentleman, the other gentleman from Texas. Were you next? 
The gentlelady from California, I apologize. Texans are always 
trying to be first.
    Ms. Capps. Thank you, Mr. Chairman, and----
    Mr. Green. We are also gentlemen, Mr. Chairman, so----
    Ms. Capps. I should say, Mr. Green is an ultimate 
gentleman. Mr. Chairman, I thank you for holding this hearing, 
and I thank the panel of witnesses, both panels, actually.
    It is essential that this committee devote whatever time is 
needed to review what has happened when Hurricane Katrina and 
Rita, hit the Gulf Coast. The timing of this hearing, however, 
is unfortunate; in fact, one could say alarming. It would have 
been appropriate to hold this hearing before yesterday's markup 
of new energy legislation in the Energy Subcommittee, which 
under the guise, I would say, of the need to streamline and 
weaken environmental, health, and safety regulations, to get 
energy production back online as quickly as possible--I say 
under the guise of, because it has never been demonstrated that 
these regulations have interfered with energy production and 
distribution--but that markup has already occurred with 
decisions made to relax standards, standards in an area that is 
clearly impacted by toxic waste spills, all kinds of hazardous 
materials, that are now strewn throughout the environment in 
the region that the hurricane impacted. And another committee 
has already produced legislation, the Resources Committee, that 
will be presented to the floor in the next several days, that 
does the same thing. So we see, once again, that the Federal 
Government's response to this whole situation has been 
inconsistent at best; nevertheless, here we are today, and this 
information that will be shared by our witnesses is critically 
important to all of us as we make decisions.
    People's lives are at stake. In this process of responding 
to the hurricane, the Coast Guard did an admirable job. The 
response of FEMA was pathetic and has cost lives. We don't want 
to cost any more lives. The jury is still out on how we will 
assess EPA's overall response to this tragedy, and it is 
ongoing. As we look back at what has happened, we cannot take 
our eyes off the present and ongoing response. Specifically, we 
need to take a close look at the environmental health risks 
left behind, to ensure that more people are not harmed.
    As a public health nurse, I believe that it is important to 
remember that environmental protection measures are an 
important component of basic public health and safety. From the 
date Katrina passed over the Gulf, report after report from 
residents and the media has described oil spills and fires, 
leaks from plants and storage tanks, the toxic water and 
chemicals, raw sewage and sludge are a major cause for concern. 
Yet we are only receiving vague and piecemeal information about 
what threats to the public actually exist, what actions are 
being taken and should be taken to protect the public, and what 
measures people in the area should take to safeguard 
themselves.
    EPA has acknowledged that there is great uncertainty over 
toxic hazards that remain in the flooded parts of New Orleans, 
yet people are reentering the area. Their initial testing found 
out elevated bacteria and lead levels, as well as some amounts 
of long-banned pesticides in the water. Yet EPA's ``response to 
Katrina'' webpage offers far too little information to ease any 
uncertainty citizens might have. For example, an EPA press 
release acknowledged the presence of fuel oils in soil deposits 
left behind from the floodwaters, but EPA has not released 
data, detailed data about which chemicals have been found in 
the soil. Many fuel oils and other petroleum byproducts are 
known carcinogens and can breach certain protective gear, yet 
to my knowledge, EPA has given no warning of potential cancer 
risks of exposure.
    Over the next several months, EPA, the Coast Guard, CDC, 
and State and local officials will be working to clean up this 
mess. Throughout the process, we must guarantee that workers 
and evacuees have the right to know about what they are 
encountering, about the toxics found in the air and the soil 
and the water. We must ensure that all cleanups are completed 
to the highest possible health standard. How tragic it would 
be, after one disaster, to have an additional disaster to be 
uncovered years from now, as incidence of cancer and other 
horrible situations arise when preventable measures are a part 
of our knowledgebase. The public deserves the best that a 
government has as it relies on information in the first line of 
protection in such a crisis.
    Thank you, and I yield back.
    Mr. Gillmor. The gentlelady yields back. The gentleman from 
New Hampshire.
    Mr. Bass. Thank you, Mr. Chairman, and I thank you for 
scheduling this hearing, and we obviously all extend our 
sympathies to the victims of both Hurricane Katrina and 
Hurricane Rita, and I know that it is difficult right now for 
you guys to be here. You have got a lot to do, and we 
appreciate the fact that you have taken time to appear here 
today.
    However, I do think it is essential for us, as soon as 
possible in this committee, to assess the possible public 
health and long-term environmental threats to the Gulf Region. 
As you all know, the hurricane, both of them, stretched over 
90,000 square miles. A lot of infrastructure has been 
destroyed, drinking water and waste treatment facilities are in 
peril, and there is evidence of, obviously, release of 
chemicals, oil spills, hazardous materials, and to the air and 
soil in the area.
    I am hopeful, and in fact, I believe it is imperative, that 
we have a coordinated plan of recovery to deal with, I guess 
there are over 575 Katrina-related spills of petroleum and 
hazardous chemicals. There are 24 Superfund sites within the 
affected areas, and of course, there are hundreds of thousands 
of wells and water systems and waste treatment plants and so 
forth that have been compromised. And I hope there is a plan in 
place to properly remove and treat these areas, given the fact 
that we have citizens moving back into these areas, and we 
really may not be 100-percent sure how safe it is for them to 
be there.
    So it is a very timely hearing. I thank you all for being 
here today. I know it is a sacrifice to do so, but we need to 
know this information. I yield back.
    Mr. Gillmor. The gentleman yields back. The gentleman from 
Texas.
    Mr. Green. Thank you, Mr. Chairman. I would like to have my 
full statement placed into the record, and just say----
    Mr. Gillmor. Without objection.
    Mr. Green. Having a district in east Harris County in the 
city of Houston, and seeing what damage we had just from 
Hurricane Rita, our hearts go out again to the folks in 
Mississippi and Louisiana, and also southeast Texas or 
southwest Louisiana.
    The environmental concern we have for the New Orleans area, 
and I know that is the focus of our hearing, but I will just 
give an example in our own community. Baytown, Texas, in the 
east part of Harris County, is part of our district, lost their 
power supply for their water system, and so, we were concerned 
that they would not have enough water for not only the 
residences, but all the industry that is also in and served by 
the Baytown community. On very short notice, things were done, 
and they were able to restore the power, actually having a 
different electricity provider serve across the boundary lines, 
as we do in Texas, because we have our different providers, to 
make sure, so not only do we have water for our residences, but 
we had water for our industry, who are trying to get the 
refineries back up, Exxon Mobil has a huge, the largest 
refinery in the country in our district, and they needed water 
to produce that gas, that we know we need it for our cars and 
also aviation fuel.
    But again, I am glad you are holding this hearing, so 
hopefully, we can learn what we didn't do, and there but for 
the grace of God, we won't have that problem in east Harris 
County, where we also have some of the same industries that are 
along the Mississippi River, but also in Southwest Louisiana. 
Thank you, Mr. Chairman.
    Mr. Gillmor. Thank you. We will now go to the gentleman 
from Georgia, to whom I apologize for having skipped over 
earlier.
    Mr. Deal. That is all right, Mr. Chairman. Thank you for 
recognizing me.
    I just simply wanted to say thank you to the witnesses, who 
have taken time to be here. I think all of us recognize that no 
community is going to be environmentally perfect at any point 
in time. I am sure the area we are talking about here was not 
environmentally perfect before this disaster, and certainly is 
not now, and all of us want to simply know what is the best we 
can do to correct the situation as soon as possible, and how 
can we best put our resources to work?
    I would be remiss if I did not express appreciation to all 
of you, and to those who work with you, for the efforts you 
have made in these very serious and drastic times that have 
just preceded this hearing. Thank you for being here today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gillmor. Thank you. I want to once again welcome our 
witnesses, and tell you how much, we very much appreciate you 
being here, and giving us your knowledge and expertise.
    We will go first to Marcus Peacock, who is the Deputy 
Administrator of EPA.

  STATEMENTS OF HON. MARCUS C. PEACOCK, DEPUTY ADMINISTRATOR, 
ENVIRONMENTAL PROTECTION AGENCY; HENRY FALK, DIRECTOR, NATIONAL 
CENTER FOR ENVIRONMENTAL HEALTH AND AGENCY FOR TOXIC SUBSTANCES 
     AND DISEASE REGISTRY, CENTERS FOR DISEASE CONTROL AND 
PREVENTION; AND JOHN PAUL WOODLEY, JR., ASSISTANT SECRETARY OF 
          THE ARMY CIVIL WORKS, DEPARTMENT OF THE ARMY

    Mr. Peacock. Thank you very much, Mr. Chairman. There we 
are. And good afternoon to you, and to members of the 
subcommittee.
    On September 6, 2005, I was appointed as the lead 
coordinator at EPA for response activities related to Hurricane 
Katrina, and I appreciate the opportunity to provide for today 
with an update of EPA's response. Mr. Chairman, I request, if 
it is all right, that my full statement be included in the 
record.
    Our hearts go out to the people of the Gulf region, and we 
share with you a sense of duty and obligation to restore the 
communities affected by Hurricane Katrina, and most recently, 
Hurricane Rita. The response will require sustained long-term 
coordination across all Federal agencies with the affected 
State governments. My testimony today will provide you with a 
brief description of EPA's immediate response to Katrina, and I 
will then tick off our primary environmental concerns at this 
point in time, including such issues as debris management, the 
status of drinking water facilities, wastewater facilities, and 
the like.
    Just let me, first of all, talk about EPA's early response 
to Hurricane Katrina. We pre-deployed personnel to the National 
Response Coordination Center, and sent on-scene coordinators to 
Florida, Louisiana, Alabama, and Mississippi before Hurricane 
Katrina made landfall. After the hurricane hit, EPA joined 
other organizations in urgent rescue needs, putting over 60 
watercraft--these were EPA watercraft that are otherwise used 
for environmental monitoring to work as search-and-rescue 
vessels. But as soon as possible after that, EPA turned its 
attention to its primary responsibilities under the National 
Response Plan. These include providing guidance for debris 
issues, assisting with the restoration of drinking water and 
wastewater infrastructure, addressing hazardous releases and 
oil spills, and providing environmental monitoring and 
assessment support.
    Just let me tick off the particular environmental concerns 
we are dealing with today, and the first is debris. We are 
working very closely with the Corps of Engineers to provide 
guidance on disposing of debris that may contain, for instance, 
PCBs or asbestos, and we will continue to provide site-specific 
technical assistance in the disposal of hazardous and non-
hazardous wastes.
    Let us next talk about drinking water. Many drinking water 
systems were affected in the three States. The map showing the 
systems is up there. All those dots are drinking water systems 
that were in the swath of Hurricane Katrina. As of yesterday, 
the states were reporting that approximately 80 percent of the 
drinking water systems in the region are operational. Those are 
all mostly the green dots. I know that may sound pretty good, 
but we believe that an estimated 2.3 million people served by 
facilities before the hurricane are not currently being served 
by operational drinking water facilities.
    Let us talk about wastewater. We have here similar map on 
wastewater--these are wastewater facilities in the declared 
disaster area. Based on what we know, as of yesterday, 
approximately 90 percent of wastewater facilities in the 
affected area are operational. Once again, while that sounds 
good, we think there is an estimated population of 1.8 million 
people that were being served by these facilities before the 
hurricane that currently are not being served by operating 
wastewater facilities. They are red dots on the map, which 
includes, for instance, New Orleans. And getting 100 percent of 
these dots, if you will, green, is a very high priority.
    Let me talk about oil and chemical spills. EPA and the 
United States Coast Guard are working together to address what, 
so far, are about 400 oil and hazardous waste material releases 
that have been reported to the National Response Center or 
otherwise observed by emergency responders. Now, I know this 
subcommittee in particular is interested in Superfund sites, so 
let me address those. There are 24 Superfund sites, as shown on 
the chart here, or NPL sites, located in the region affected by 
the hurricane. We are working together with State health and 
environmental agencies, and I just want to say here, the 
relationship between EPA and the State agencies, including 
LDEQ, has just been spectacular. We are really working side by 
side, literally side by side. And both EPA and the states have 
conducted rudimentary inspections--well, we conducted 
rudimentary inspections of all these sites as soon as they were 
accessible. Now, we recognize this was only a first look at the 
sites, and we are in the process of assessing each one of these 
in greater detail. Initial visual inspections and the 
additional inspections we have been able to do to date indicate 
a number of downed fences and some damage to groundwater 
treatment piping. Thus far, no sites have been identified as 
suffering significant damage, however, monitoring and 
assessment are not over by any means.
    Let us talk about floodwaters. In the aftermath of Katrina, 
contamination of floodwaters was one of our leading concerns, 
and of particular concern to rescue workers and residents who 
might have still been in the area. The results to date, as 
indicated before, show that floodwater has high levels of E. 
coli and other bacteria. These are markers that you might find 
in raw sewage. W ealso have found some contaminants which 
exceeded drinking water assessment standards. Fortunately, 
other than the bacterial elements we found, the contaminants 
detected thus far have not been at levels that would pose an 
immediate risk to human health. They could pose a long-term 
risk, but the main issue here is, of course, the bacterial 
contaminants, which could cause an infection.
    Let me talk about sediments. As the floodwaters of New 
Orleans have begun to recede, we are analyzing the sediment. 
This map shows all the sediment sites we have sampled thus far. 
Preliminary results from sediment sampling collected by both 
EPA and once again, Louisiana, indicate that some sediments are 
heavily contaminated with fuel oil, and once again, with 
bacteria, which is not a surprise, since we found it in the 
floodwaters. Human health risks may therefore exist from 
contact with sediment deposited from receding floodwaters.
    Let me just touch briefly on air monitoring. We have been 
doing air monitoring. It will be of increasing importance to 
continue to do that. This slide shows a number of the tools we 
are using, including aircraft, as well as mobile monitors on 
the ground and stationary monitors. As people start coming back 
into the area, particularly rescue workers, we will continue to 
monitor for contaminants, as well as possible dangers from 
particulates.
    Looking ahead, much remains to be done to help address the 
public and health impacts of Hurricane Katrina, and some of you 
may know I am fairly new to EPA, although on some days, it 
doesn't feel that way to me. But the dedication with which EPA 
employees have responded to this crisis makes me very proud to 
be counted among them. As Senator Jeffords recently noted after 
hearing what EPA personnel had done in response to Katrina, he 
said: ``We have heard so much about what went wrong in 
Katrina's aftermath. This is one example of what went right. 
These EPA employees have my utmost respect and gratitude.''
    Thank you very much for letting me appear today.
    [The prepared statement of Marcus C. Peacock follows:]
  Prepared Statement of Marcus C. Peacock, Deputy Administrator, U.S. 
                    Environmental Protection Agency
                              introduction
    Good afternoon, Mr. Chairman and members of the Sub-Committee. My 
name is Marcus Peacock and I serve as the Deputy Administrator at the 
U.S. Environmental Protection Agency (EPA). On September 6th, the 
Administrator formally appointed me to lead the coordination of the 
Agency's response activities for Hurricane Katrina and I appreciate the 
opportunity to provide you today with an update on EPA's response.
    Our hearts go out to the people of the Gulf region, and we share 
with you an urgent sense of duty to help restore the communities 
affected by Hurricane Katrina--and most recently by Hurricane Rita. 
Over the past few weeks, natural disasters have left their mark on the 
Gulf region; the loss of life and destruction is staggering. The 
magnitude of Hurricane Katrina will require sustained, long-term 
coordination across all federal agencies and with the affected state 
and local governments. My testimony today will provide you with an 
overview of EPA's role and activities in the affected Gulf region, our 
impressive coordination with federal, state and local partners and a 
snapshot of our primary environmental concerns. Early Response for 
Hurricane Katrina
    First, I want to briefly touch on EPA's early response to Hurricane 
Katrina. Beginning on August 25th, EPA pre-deployed personnel to the 
FEMA National Response Coordination Center and sent On-Scene 
Coordinators to the Florida, Louisiana, Alabama and Mississippi 
Emergency Operations Centers before Hurricane Katrina made landfall. 
The On-Scene Coordinator (OSC) is the federal official responsible for 
monitoring or directing responses to all oil spills and hazardous 
substance releases reported to the federal government. We sent 
additional personnel to the affected areas as soon as travel into the 
region was possible. In anticipation of Hurricane Rita, EPA also 
dSeptember 20th. he number of EPA staff and contractors assisting with 
recovery efforts is more than 500 in the affected Gulf region, as 
indicated on the deployment map.
    When EPA personnel arrived in New Orleans, it was clear that saving 
lives was the first priority, and EPA joined other federal, state, and 
local responders in urgent rescue needs, putting over sixty EPA 
watercraft otherwise used for environmental monitoring to work as 
search and rescue vessels. Our field staff and contractors--mostly 
environmental experts equipped to address oil and hazardous substances 
releases--joined the fire fighters, police, and other first responders 
and rescued nearly 800 people in Louisiana.
                      epa role in federal response
    After helping with urgent rescue needs, EPA turned its attention to 
its primary responsibilities under FEMA's National Response Plan. EPA 
is the lead federal agency for Emergency Support Function (ESF) #10, 
which addresses oil and hazardous materials, and works with other 
agencies to provide support for a number of other Emergency Support 
Functions, including ESF #3, which addresses Public Works and 
Engineering. Specifically, our responsibilities include preventing, 
minimizing, or mitigating threats to public health, welfare, or the 
environment caused by the actual or potential releases of hazardous 
materials; testing the quality of flood waters, sediments, and air; and 
assisting with the restoration of the drinking and waste water 
infrastructure. Also under ESF #3, the Agency anticipates a growing 
role working with the U.S. Army Corps of Engineers (USACE) to address 
final disposition of the large volumes of debris from homes, buildings 
and other structures damaged by Hurricane Katrina. EPA, in coordination 
with the States, is providing information to both workers and the 
public about test results, as well as assisting communities with debris 
disposal and hazardous waste issues.
                     debris management and disposal
    The volume of debris left behind by Hurricane Katrina is huge. EPA 
is working closely with other federal agencies (particularly the US 
Army Corps of Engineers), state agencies, and local governments to 
facilitate the collection, segregation, and management of household 
hazardous waste, containers, and the larger debris.
    To date, we have provided guidance on: identifying electrical 
equipment that may contain PCBs; marking and storage of electrical 
equipment that may contain PCBs; disposal of electrical equipment that 
may contain PCBs; and handling and disposal of debris containing 
asbestos. EPA has also provided the affected states with guidance on 
burning debris. EPA personnel continue to provide site-specific 
technical assistance in the disposal of hazardous waste and a wide 
array of waste management debris left behind by the storm.
             drinking water and waste water infrastructure
    EPA is working closely with state and local officials and private 
experts to assess damage and provide technical assistance to water 
infrastructure systems in the FEMA designated areas. Two maps are 
included which indicate the current status of these facilities. EPA's 
mobile laboratories and regional labs in Mississippi and Louisiana are 
also available to provide on-going water testing capabilities.
    Many drinking water systems were affected in the three states. 
According to local officials, many were disabled or impaired by the 
loss of electrical power but the majority of systems are now operating, 
some with ``boil water'' notices. Nonetheless, there are still some 
systems that remain inoperable or in unknown condition. As of September 
27th, the states reported that approximately 80% of the drinking water 
systems in the region were operational. Prior to the hurricane, we 
believe that an estimated population of 2.3 million people were served 
by facilities that are not currently operational. Additionally, because 
there are many private well owners in the affected region, EPA has 
begun to distribute water testing kits in affected parishes in 
Louisiana. EPA has issued a local advisory to let home owners know that 
these kits are available.
    Many wastewater facilities were affected, mostly in Louisiana and 
Mississippi. Based on what we know as of September 27th, approximately 
90% of these facilities in the affected area are operational. While the 
information on wastewater treatment plants is not as readily available 
as for drinking water facilities, we believe that an estimated 
population of 1.8 million people were served by facilities that are not 
currently operational.
    Getting 100% of these facilities operational is a high priority. 
EPA plans to maintain a strong partnership with health and 
environmental agencies in Louisiana, Mississippi and Alabama as we move 
forward.
                   oil spills and hazardous releases
    There are hundreds of chemical and petrochemical facilities as well 
as other sites of potential concern which are being inventoried and 
assessed. EPA and the United States Coast Guard (USCG) are working 
together to address oil and hazardous material releases reported to the 
National Response Center or otherwise observed by our emergency 
responders. As of September 21st, EPA and the USCG have responded to 
over 400 reported incidents. Of these, there were five major oil spills 
in the New Orleans area resulting in releases of over 8 million 
gallons. These spills are also being addressed by EPA and the USCG.
                            superfund sites
    There are twenty-four Superfund sites located in the region 
affected by Hurricane Katrina. As indicated on the map of the Federally 
declared disaster areas as of September 26th, there are fifteen 
National Priority List (NPL) sites in Louisiana, three in Mississippi, 
and six in Alabama. Working together with state health and 
environmental agencies, EPA conducted initial visual inspections of 
each NPL site as soon as they were accessible. Recognizing this was 
only a ``first look'' at these sites, we are assessing the condition of 
all of the affected NPL sites in greater depth as recovery continues. 
The initial visual inspections indicated a number of downed fences and 
damage to some groundwater treatment piping, however, to date, no sites 
have been identified as having suffered significant damage.
                        sediment in new orleans
    As flood waters in New Orleans again recede, we are analyzing the 
sediment left behind. We are conducting biological and chemical 
testing, specifically for volatile organic compounds, semi-volatile 
organic compounds, total metals, pesticides, and total petroleum 
hydrocarbons. Preliminary results from sediment sampling collected by 
EPA and the Louisiana Department of Environmental Quality (LDEQ) 
indicate that some sediments are contaminated with bacteria and fuel 
oils. Human health risks may therefore exist from unprotected contact 
with sediment deposited from receding flood waters and exposure to 
sediment should therefore be avoided if possible. E. coli was detected 
in sediment samples, which implies the presence of fecal contamination. 
Some of the semi-volatile organic compounds, common to diesel and fuel 
oils, were also detected at very elevated levels. The levels of metals 
detected thus far have been below levels that would be expected to 
produce immediate adverse health effects. Extensive sediment sampling 
continues in the flooded areas of New Orleans.
                              flood water
    In the immediate aftermath of Katrina, the potential contamination 
of flood waters was among our leading concerns. EPA's initial plans to 
collect water samples in the New Orleans flood zone were set aside to 
assist in rescue operations, and were further delayed by limited access 
due to security concerns. Nonetheless, EPA, in close coordination with 
the Louisiana Department of Environmental Quality, began water sampling 
on September 3rd, and we continue to conduct biological and chemical 
testing of the flood waters. Planned and actual sampling sites to date 
are reflected on the map which shows the extent of the flood waters in 
New Orleans as of August 30th.
    The flood waters continue to be analyzed for over 100 chemical 
priority pollutants as well as for bacteria. Results to date indicate 
that the flood water has high levels of E. coli, and that some 
locations tested had lead and arsenic levels which exceeded drinking 
water assessment levels. Although other contaminants were detected, 
none have been at levels that would pose an immediate risk to human 
health. Throughout this process, EPA has taken great steps to ensure 
scientific accuracy. EPA solicited the assistance the Science Advisory 
Board to review the flood water sampling plan, and EPA and CDC have 
routinely conducted a thorough data review, and interpreted the data 
for potential human health affects.
                             water quality
    EPA is working closely with its federal and state partners to 
mitigate environmental impacts to Lake Pontchartrain caused by the 
flood waters. As the Corps continues un-watering operations, skimming 
booms are deployed to remove oil and debris from water prior to 
pumping. After pumping, additional booms are being deployed in the 
canals leading to the Lake to further reduce oil, debris, and solids. 
Aerators are also being used in the canals to raise dissolved oxygen 
levels in the water, prior to outfall to the Mississippi River.
    Contaminated flood waters and sediment may adversely impact coastal 
aquatic resources. As such, EPA and USACE are actively evaluating 
options for directing the floodwaters. In addition, EPA is coordinating 
water quality monitoring efforts with USGS, NOAA and our state partners 
in the Mississippi Sound and the Gulf of Mexico. The poster behind me 
reflects the coordinated post-Hurricane plans to monitor water quality 
in the Gulf of Mexico.
                             air monitoring
    Air monitoring networks normally in place for monitoring 
particulate matter, ozone, sulfur dioxide, oxides of nitrogen, and 
carbon monoxide under the Clean Air Act were mostly destroyed in New 
Orleans and damaged and disrupted in coastal Mississippi. EPA is 
working to restore monitoring systems in those regions, as well as to 
deploy new monitors designed specifically to address potential air 
quality impacts during the recovery from Hurricane Katrina. For 
instance, as sediments from the floodwaters dry, EPA has conducted air 
screening sampling with special monitors to assess potential inhalation 
risks from particulates.
    Specific to New Orleans, EPA, in coordination with our government 
partners in Louisiana, makes daily tactical decisions regarding air 
monitoring needs and works with an agency-wide team of air monitoring 
professionals to address both emerging and source or location specific 
issues as well as longer term regional air quality issues.
    EPA has a number of tools to measure air quality. These include 
DataRam 400, personal air monitoring devices, as well as use of a 
remote sensing aircraft known as ASPECT to locate chemical spills that 
needed emergency response to protect both water and air quality. EPA's 
environmental surveillance aircraft were in operation since the early 
days of the emergency, and the effort has now transitioned into 
deployment of specific ground based preliminary screening over the 
larger New Orleans area. We anticipate that ASPECT may also be used in 
the areas affected by Hurricane Rita.
    EPA's real-time mobile laboratory--the Trace Atmospheric Gas 
Analyzer (TAGA)--is sampling air quality in the New Orleans area. 
Initial screening results from the TAGA represent the beginning of 
extensive sampling efforts. As this is a dynamic situation, general 
conclusions should not be made regarding air safety based on results 
from snapshots of data.
    EPA and the affected states will continue to monitor for potential 
inhalation risks and have plans to enhance their temporary monitoring 
networks in the coming weeks to monitor and evaluate the air impacts of 
recovery activities including the burning of debris.
                      reoccupation of new orleans
    EPA and CDC formed a joint task force to advise local and state 
officials of the potential health and environmental risks associated 
with returning to the City of New Orleans. Their report, titled 
Environmental Health Needs and Habitability Assessment, was issued on 
September 17th and identifies a number of challenges and critical 
issues for consideration prior to the reoccupation of New Orleans. The 
task force is now incorporated into the Federal New Orleans 
Reoccupation Zip Code Assessment Group (Zip Code Assessment Group), 
which will provide information on a broad range of issues, ranging from 
infrastructure to health issues. Their recommendations will assist 
State and Local officials in their decisions regarding when to allow 
residents to reoccupy the city. As part of this larger group, EPA will 
continue to work to identify potential health and environmental risks 
associated with returning to the city based on the Agency's ongoing 
efforts to assess the quality of the air, water and sediment.
                              fuel waivers
    EPA, in conjunction with the Department of Energy, responded 
quickly to address disruptions to the fuel supply that have occurred 
due to the damage to refinery and pipeline infrastructure in the Gulf 
Region. To increase the supply of fuel and minimize potential supply 
disruptions, the Agency has issued emergency waivers of certain federal 
and state fuel standards. On August 30th, EPA granted waivers applying 
to low sulfur diesel fuel requirements, Reid Vapor Pressure (RVP) 
standards that control the volatility of gasoline during the summer 
months, state gasoline sulfur limits, or reformulated gas (RFG) 
requirements. On September 21st, EPA expanded this effort in order to 
minimize potential fuel supply disruptions caused by Hurricane Rita. To 
address each fuel supply situation, waivers have been granted for 
various periods of time and have been applicable at the national, state 
or local level, to the extent necessary to alleviate the fuel supply 
disruption.
    In taking these actions, EPA used a Clean Air Act waiver provision 
recently signed into law as part of the Energy Policy Act of 2005 
signed into law this year. This provision authorizes the Administrator 
of EPA to temporarily waive fuel standards due to ``extreme and 
unusual'' circumstances ``that are the result of a natural disaster, an 
Act of God, pipeline or refinery equipment failure, or another event 
that could not reasonably have been foreseen or prevented and not the 
lack of prudent planning'' on the part of fuel suppliers.
                          informing the public
    We view communication to the public, workers, and other agencies to 
be a critical component of our response effort. The Occupational Health 
and Safety Administration (OSHA) was on-scene early in the response 
effort, distributing over 3,500 fact sheets by hand in the first two 
weeks and conducting interventions that removed more than 850 workers 
from serious or life threatening hazards. OSHA continues these 
activities and on a daily basis, EPA response personnel and contractors 
receive health and safety instructions regarding field conditions and 
safe work practices. EPA's preliminary sampling results are also 
provided to On-Scene Coordinators to facilitate field decisions and 
ensure health and safety of workers.
    EPA posts advisories on our website and also distributes them 
through the Incident Command Post in Baton Rouge. We also have been 
alerting communities through AM and FM radio broadcasts, particularly 
on aerial mosquito spraying and how to avoid vector borne illnesses 
such as the West Nile Virus.
                           future challenges
    Looking ahead, much remains to be done to help address the public 
health and environmental impacts of Hurricane Katrina. The safe 
management of debris remains a high immediate priority, and the Agency 
will assist our federal, state and local partners as they move forward 
on debris removal. For its part, the Agency will strive to provide 
sound and practical advice, participate in hazardous waste removal 
where appropriate, and monitor air quality where open burning is 
occurring. EPA will also continue to work with the USACE and others to 
support the States and local governments in their efforts to repair and 
restore public facilities including drinking water, waste water, and 
waste treatment facilities. We will also continue to monitor air, 
water, and sediment quality in the region and make sure that this 
information is readily available to federal, state and local officials, 
other responders, and the public.
                               conclusion
    The nation faces an enormous task in restoring and rebuilding the 
affected areas. Simply meeting many basic needs of people in the 
region--including shelter, safe drinking water, sanitation, and 
protection from disease and hazards--will require a broad partnership 
across government agencies, the private sector and nongovernmental 
organizations (NGOs). We expect that citizens and government agencies 
will look to EPA and our Federal partners for technical expertise, 
scientifically sound data, and practical advice on environmental and 
public health conditions in the region for some time to come. We are 
focused on meeting that challenge.
    Finally, as local communities undertake the task of reviving their 
economies and helping businesses restart their operations, EPA, in 
partnership with other federal, state, and local agencies, will provide 
technical expertise and guidance to assist in the recovery. Some of you 
may know that I'm quite new to the EPA, but what I've seen in the past 
few weeks makes me proud to be counted among them. I'd like to end by 
reiterating a statement made by Senator Jim Jeffords after our briefing 
of the Senate Environment and Public Works Committee: ``We've heard so 
much about what went wrong in Katrina's aftermath, and this is one 
example of what went right. These EPA employees have my utmost respect 
and gratitude.''
    At this time I welcome any questions you may have.

    Mr. Gillmor. Thank you very much. We will go to Dr. Henry 
Falk, who is the Director of the National Center for 
Environmental Health and Agency for Toxic Substances and 
Disease Registry. Dr. Falk.

                     STATEMENT OF HENRY FALK

    Mr. Falk. Thank you very much. Good afternoon, Mr. 
Chairman, and Congresswoman Solis, and members of the 
subcommittee. My name is Dr. Henry Falk, and I am the Director 
of the Coordinating Center for Environmental Health and Injury 
Prevention at the Centers for Disease Control and Prevention, 
Agency for Toxic Substances and Disease Registry, ATSDR. ATSDR 
is a sister agency to the CDC, and is part of the Department of 
Health and Human Services. Because of our responsibilities 
under the Superfund program, we work very closely with EPA, as 
well as State and local governments, and with communities 
across the country.
    Hurricane Katrina is a huge public health emergency. It is 
an unparalleled challenge to the public health community and 
particularly to those of us in environmental health as we 
grapple with so many complex and interwoven environmental 
health issues. In New Orleans, the environmental health system 
needed to support a major metropolitan area was severely 
disrupted. This has also been true for many other cities and 
communities in the storm's path. In addition, a substantial 
proportion of residential structures, the homes for so many 
people in New Orleans and elsewhere, have sustained severe 
structural damage from flooding. On a personal level, we all 
keep in mind the heart-wrenching nature of this tragedy and its 
broad impact.
    Shortly after Hurricane Katrina hit, Health and Human 
Services Secretary Michael Leavitt and EPA Administrator Steve 
Johnson asked me to go to New Orleans, Louisiana, to lead a 
CDC/ATSDR and EPA taskforce to identify the overarching 
environmental health and infrastructure issues facing New 
Orleans. My first actual view of New Orleans was in a flyover 
by helicopter. It was essentially an empty city still very much 
underwater, and with great evidence of storm damage. For many 
of us at ATSDR, CDC, HHS, and elsewhere, these scenes have 
served as an overwhelming stimulus to respond to the best of 
our abilities.
    The 13 environmental health issues we initially identified 
include drinking water, wastewater, solid waste and debris, 
sediments, soil contamination, toxic chemicals, power and 
natural gas, housing, the unwatering and flood waters, 
occupational safety and health, vector rodent animal control, 
road conditions, underground storage tanks such as gasoline, 
and food safety.
    The most striking feature of this disaster is the vast 
array of key environmental needs and infrastructure services 
that have been affected. These are complex and interrelated, 
and they will need to be assessed by local elected officials 
when making decisions about re-inhabiting New Orleans.
    ATSDR staff have been valiant and dedicated in their 
efforts, and worked tirelessly to assist the people affected by 
Hurricane Katrina. At least 15 percent of our staff have been 
deployed directly to Hurricane Katrina activities through the 
CDC Emergency Operations Center or through HHS and the U.S. 
Public Health Service auspices. Probably an equivalent number 
have been backing them up at headquarters in Atlanta, and those 
numbers continue to grow.
    ATSDR staff works closely with EPA. We have staff stationed 
in EPA regional offices, and we are assisting EPA in the field 
and around the clock to mitigate environmental health issues, 
including possible chemical exposures. CDC/ATSDR staff in the 
field and at HHS and CDC headquarters are collaborating with 
Federal, state, and local health officials to evaluate and 
analyze the environmental data.
    ATSDR is also actively participating on the Environmental 
Impacts and Clean-Up Working Group, as part of a White House 
taskforce on Hurricane Katrina. That working group is co-
chaired by the Deputy Secretary of Health and Human Services, 
and by my colleague to the right, Marcus Peacock, Deputy 
Administrator of the EPA. The working group is particularly 
focused on policy, has served as an important locus for 
interagency discussions. ATSDR is particularly engaged with the 
group, providing technical input by neighborhood and zip code, 
on environmental issues related to the return of residents to 
New Orleans.
    In the future, ATSDR will continue to provide technical 
assistance on issues related to potential exposure of the 
public and of response workers to hazardous substances. We will 
continue to provide toxicological expertise, and make 
recommendations about ways to eliminate or control exposures to 
hazardous substances in the environment. We will continue to 
work closely with Federal, state, and local partners in working 
through these difficult issues, and as the recovery progresses, 
we hope to effectively serve the needs of the many people and 
communities affected by the hurricanes.
    Thank you for this opportunity to speak with you, and I 
look forward to your questions.
    [The prepared statement of Henry Falk follows:]
  Prepared Statement of Henry Falk, Director, Coordinating Center for 
Environmental Health and Injury Prevention, Centers for Disease Control 
 and Prevention/Agency for Toxic Substances and Disease Registry, U.S. 
                Department of Health and Human Services
                              introduction
    Good afternoon Mr. Chairman and members of the Subcommittee. My 
name is Dr. Henry Falk and I am the Director of the Coordinating Center 
for Environmental Health and Injury Prevention at the Centers for 
Disease Control and Prevention (CDC)/Agency for Toxic Substances and 
Disease Registry (ATSDR). ATSDR is an independent agency within the 
Department of Health and Human Services (HHS), and a sister agency to 
the CDC. Its relationship with the CDC's National Center for 
Environmental Health (NCEH) is especially strong, because the Director 
of ATSDR, Dr. Howard Frumkin, also directs NCEH. ATSDR also partners 
extensively with the United States Environmental Protection Agency 
(EPA).
    This afternoon I will describe ATSDR's ongoing contribution to the 
Hurricane Katrina response, based on its unique expertise and 
experience in responding to emergency releases of hazardous substances 
under Superfund.
    ATSDR was established under the Comprehensive Environmental 
Response, Compensation, and Liability Act of 1980 (CERCLA), to assess 
and prevent or limit potential exposures to hazardous substances and 
associated adverse health effects. Each year ATSDR conducts assessments 
of potential exposures to hazardous substances, and potential 
associated health impacts, at hundreds of sites around the Country.
    Frequently these assessments are conducted in connection with an 
emergency response, where ATSDR is called on to support response work 
in communities impacted by acute releases of toxic chemicals. Through 
25 years of experience in emergency response under Superfund the Agency 
has developed a workforce with experience and expertise that is 
directly applicable to assessing potential exposures and human health 
threats from exposure to contaminated floodwater, soil and sediment in 
the wake of a natural disaster.
    The wealth of skills in our multidisciplinary workforce--from 
physicians to toxicologists to epidemiologists to environmental 
engineers to health education specialists and risk communicators--
coupled with the location of ATSDR field staff in EPA regional offices 
around the country, allow ATSDR to mobilize quickly and coordinate 
effectively with HHS and CDC and other agencies within the Department, 
and with EPA and other government agencies, in a strategic response to 
emergency situations. ATSDR staff in the EPA regional offices work 
collaboratively with EPA and state partners to prepare for and respond 
to chemical and other public health emergencies.
    ATSDR performs emergency response activities under the National 
Response Plan. ATSDR collaborates extensively with other federal 
partners as part of the Emergency Support Functions (ESF) dedicated to 
public health and medical services as well as oil and hazardous 
materials responses. These correspond to ESF 8 and 10, respectively.
                  atsdr response to hurricane katrina
    Working in close coordination with HHS and CDC, as well as with 
EPA, ATSDR is providing critical expertise, resources and assistance to 
the multi-level public health response to Hurricane Katrina. The 
discussion below describes three primary components of ATSDR's ongoing 
contribution to the response: (1) Participation in task forces and work 
groups established by the Administration to assess environmental health 
needs and related policy issues; (2) Playing an integral role in the 
CDC Emergency Operations Center, and deploying staff to emergency 
operations centers in HHS, FEMA and EPA; and (3) Working in the field 
to assess the potential for exposure to hazardous substances that may 
adversely impact human health.
(1) Environmental Health Needs & Habitability Assessment Joint Task 
        Force of CDC/ATSDR and EPA, and the Environmental Impacts and 
        Cleanups Working Group of the White House Hurricane Katrina 
        Task Force
    One unique contribution by CDC/ATSDR to the Hurricane Katrina 
response was leading a joint CDC/ATSDR and EPA task force that 
developed an initial assessment report identifying the overarching 
environmental health and infrastructure issues related to reinhabiting 
New Orleans.
    At the request of Secretary Michael Leavitt of HHS and 
Administrator Steve Johnson of EPA, CDC/ATSDR and EPA established the 
joint taskforce to conduct the assessment. I had the privilege of 
serving as Chair of that joint taskforce, which was made of a 
multidisciplinary and multiagency team with expertise in environmental 
health science, environmental engineering, medicine, health and risk 
communication, and administration/logistics. The initial eight-member 
team consisted of personnel from CDC/ATSDR and EPA.
    The team began its work on September 6, 2005, and completed it on 
September 12, 2005. Our work was guided by six key questions:

1. What are the core environmental health issues to be addressed?
2. Which agencies and organizations at the federal, state, or local 
        level are responsible for, or involved in, the various 
        environmental health issues?
3. What progress has been made and what challenges exist?
4. What is the timetable to address these environmental health issues?
5. What resources exist or need to be brought to bear to address these 
        environmental health issues?
6. What are the key milestones and endpoints that define success?
    Initially we made contacts with CDC leadership on the ground in New 
Orleans, and with other key federal, state and local public health and 
environment leadership. In addition, we completed air and surface level 
tours of New Orleans to see firsthand the impact of Hurricane Katrina. 
In conducting the assessment, CDC/ATSDR and EPA collaborated 
extensively with a diverse group of federal, state and local officials 
with expertise in public health and the environment, including the New 
Orleans City Public Health Department, the Louisiana Department of 
Health and Hospitals, and the Louisiana Department of Environmental 
Quality.
    The taskforce identified 13 environmental health and public health 
infrastructure issues to address. This initial assessment includes 
drinking water, wastewater, solid waste/debris, sediments/soil 
contamination (toxic chemicals), power, natural gas, housing, removal 
of flood water, occupational safety and health/public security, vector/
rodent/animal control, road conditions, underground storage tanks 
(e.g., gasoline), and food safety. The report also identifies a number 
of barriers to overcome and critical decisions to make prior to 
reinhabiting New Orleans. The mayor and city officials who will make 
these decisions will be able to draw on the expertise of the 
participants in the Joint Task Force and other partners. Dr. Howard 
Frumkin, the new Director of ATSDR, was recently deployed to Louisiana 
to continue the Agency's work.
    ATSDR also is participating actively in the Working Group on 
Environmental Impacts and Cleanup, which is part of the White House 
Task Force on Hurricane Katrina. The Deputy Secretary of HHS and the 
Deputy Administrator of EPA co-chair this working group. I have served 
as co-chair of the New Orleans Subcommittee of this group, and other 
ATSDR and CDC staff are members of the Guidelines, Sampling, and 
Communications Subcommittees. The Working Group is particularly focused 
on policy issues related to Environmental Impacts and Cleanup, and has 
served as an important locus for inter-Agency discussions. The 
Environmental Health Needs & Habitability Assessment Joint Taskforce 
that I headed in Baton Rouge has now been consolidated within the New 
Orleans Zip Code Assessment Group; this interagency group is providing 
technical input by neighborhood or zip code on environmental issues 
related to the return of residents to New Orleans.
(2) Emergency Operations Center
    ATSDR leadership and staff serve as incident managers; provide GIS 
mapping and services, tools we regularly use to identify areas of 
potential or actual chemical exposure; and subject matter expertise for 
public health and risk communication. For example, Dr. Tom Sinks, 
Acting Deputy Director of ATSDR, served as CDC's public health lead in 
the CDC Emergency Operations Center in Atlanta during the initial 
phases of the hurricane response. Captain Scott Deitchman, USPHS, M.D., 
ATSDR's Associate Director for Terrorism Preparedness and Emergency 
Response, has taken over in this capacity in the on-going CDC/ATSDR 
response.
    As of September 23, 2005, at least 55 ATSDR staff have been 
deployed to Hurricane Katrina response activities in the CDC Emergency 
Operations Center or into field operations including the FEMA Regional 
Resource Command Centers and the HHS Secretary's Emergency Response 
Team. As an HHS agency, ATSDR has deployed many Commissioned Officers 
through the Office of Force Readiness and Deployment/Commissioned Corps 
Readiness Force.
    Also, currently ATSDR regional representatives are located within 
the EPA Headquarters Emergency Operations Center (EOC), Washington, 
D.C., EPA Region IV EOC in Gulfport, Mississippi, EPA Region IV EOC in 
Atlanta, Georgia, Region VI Joint Field Office (JFO), Baton Rouge, 
Louisiana and in the EPA Region VI EOC, Dallas, Texas.
    In addition, a significant number of staff at ATSDR headquarters in 
Atlanta have been supporting a variety of Hurricane Katrina response 
activities and back up those deployed into the field.
(3) Deployments to the field to assess potential for exposure to 
        hazardous substances with adverse health impacts
    A significant number of CDC/ATSDR staff members have been deployed 
into the field or serve as subject matter experts in the areas of 
toxicology, sanitation, food and water safety, vector control issues 
pertaining to aerial spraying of pesticides for mosquito abatement, 
evacuation center operations, emergency response, epidemiology, 
environmental engineering and public health infrastructure, community 
relations, public affairs, and health education.
    In addition, ATSDR regional representatives in Mississippi and 
Louisiana are in the field with the EPA on scene coordinators 
investigating chemical spills and providing technical assistance as 
needed to resolve questions about the potential for exposure to 
hazardous chemicals, and to assist the CDC senior management official. 
ATSDR has been working with EPA to assess the condition of Superfund 
sites and other industrial sites in the affected areas, and will 
continue to participate in more detailed assessments in the future.
    In the Joint Field Office in Baton Rouge, ATSDR staff is providing 
support to EPA field deployed staff, serving on the debris removal and 
health and safety committees formed by FEMA, and assisting the 
environmental unit of the Louisiana Department of Health and Hospitals. 
In Texas, ATSDR regional representatives are coordinating with EPA at 
the Dallas EOC on sampling and chemical release issues.
    ATSDR also is working closely with CDC and the New Orleans Public 
Health Department to re-establish basic public health services to the 
residents of New Orleans at temporary facilities.
    ATSDR will remain in close contact with federal, state, and local 
partners to ensure that the public health expertise of this Agency most 
effectively serves the needs of the people and the communities in the 
affected areas. ATSDR will continue to provide technical assistance on 
issues related to potential exposure to hazardous substances by the 
public and response workers. We anticipate this need will continue for 
at least several months. Additionally, ATSDR will continue to address 
issues related to the assessment of potential health effects resulting 
from exposure to hazardous substances in the environment.
    Amidst the hurricane response work, ATSDR continues to focus 
resources on priority Superfund activities. ATSDR is continuing to 
pursue these activities, but recognizes that there may be some delays 
as a result of on-going deployments and hurricane-related support. 
ATSDR is taking steps to minimize disruption to other parts of its 
program.
    Thank you for the opportunity to talk to you today about ATSDR's 
participation in the response to Hurricane Katrina.
    At this time, I welcome your questions.
                                 ______
                                 
        http://www.bt.cdc.gov/disasters/hurricanes/katrina/pdf/
                           envassessment.pdf
         Environmental Health Needs and Habitability Assessment
  Joint Taskforce, Centers for Disease Control and Prevention & U.S. 
          Environmental Protection Agency, September 17, 2005
                           executive summary
    Hurricane Katrina made landfall on Monday, August 29, 2005, as a 
category 4 hurricane and passed within 10 to 15 miles of New Orleans, 
Louisiana. The storm brought heavy winds and rain to the city, and the 
damage breached several levees protecting New Orleans from the water of 
Lake Pontchartrain. The levee breaches flooded up to 80% of the city 
with water reaching a depth of 25 feet in some places.
    Among the wide-scale impacts of Hurricane Katrina, the storm caused 
significant loss of life and disrupted power, natural gas, water, and 
sewage treatment, road safety, and other essential services to the 
city.
    Early in the disaster response and recovery, federal, state, and 
local elected officials and public health and environmental leaders 
recognized the significant role of environmental health in the post-
hurricane rebuilding of New Orleans.
    At the request of the Secretary Michael Leavitt of the Department 
of Health and Human Services (DHHS) and Administrator Steve Johnson of 
the U.S. Environmental Protection Agency (EPA), the Director of the 
Centers for Disease Control and Prevention (CDC), Dr. Julie Louise 
Gerberding, created the Environmental Health Needs Assessment and 
Habitability Taskforce (EH-NAHT). The taskforce was charged with 
identifying the overarching environmental health issues faced by New 
Orleans to reinhabit the city.
    The EH-NAHT collaborated extensively with a diverse group of 
federal, state, and local partners, including the New Orleans City 
Public Health Department, the Louisiana Department of Health and 
Hospitals (LADHH), and Louisiana Department of Environmental Quality 
(LDEQ), Federal Emergency Management Agency (FEMA), and U.S. Army Corps 
of Engineers (USACE).
    The team was guided by the following questions:

1. What are the core or fundamental environmental health issues to be 
        addressed;
2. Which agencies and organizations at the federal, state, or local 
        level are responsible for, or involved in, the various 
        environmental health issues;
3. What progress has been made and what challenges exist;
4. What is the timetable to address these environmental health issues;
5. What resources exist or need to be brought to bear to address these 
        environmental health issues; andWhat are the key milestones and 
        endpoints that define success.
    The team identified 13 environmental health issues and supporting 
infrastructure to address. This initial assessment included drinking 
water, wastewater, solid waste/debris, sediments/soil contamination 
(toxic chemicals), power, natural gas, housing, unwatering/flood water, 
occupational safety and health/public security, vector/rodent/animal 
control, road conditions, underground storage tanks (e.g., gasoline), 
and food safety.
    After the initial assessment, the EH-NAHT categorized these issues 
by increasing time and complexity to full restoration of services 
(Level 4, most complex and requiring the most time to restoration). 
Part of the complexity relates to how specific and explicit the 
criteria for the end points are for each function.
Level 1
 Unwatering
 Power
 Natural Gas
 Vector/Rodent/Animal Control
 Underground storage tanks (e.g., gasoline)
 Food Safety
Level 2
 Drinking Water
 Wastewater
 Road Conditions
Level 3
 Solid Waste/Debris
 Sediments/Soil Contamination (Toxic Chemicals)
Level 4
 Housing
    Occupational safety and health as well as public security was 
identified as cross-cutting all the other areas.
    Long-term solutions to these many issues are critical to allow 
resumption of normal life in New Orleans and to prevent reoccurrence of 
such an event in this area.
    The EH-NAHT has the following conclusions based upon our initial 
assessment:
 A complex array of environmental health problems exists in New 
        Orleans.
      The most striking feature of the disaster is the array of key 
        environmental health and infrastructure factors affected all at 
        once. All key environmental health and related services are 
        being reestablished, and this work needs to be done in a very 
        coordinated and well-planned way.
 The unwatering of New Orleans is a critical first step.
      The unwatering is an essential first step to allow access for 
        assessment and repair of all basic services and habitability 
        barriers. Some significant assessments are not yet started 
        because of the continued unwatering, which could take an 
        additional 4 weeks to complete. These assessments may impact 
        the timing, resources and scope of the needed repairs/
        replacements.
 It is important to bring infrastructure systems in New Orleans back 
        on line.
      Different timeframes are necessary to bring the various 
        infrastructure systems (e.g., drinking water, wastewater, 
        power, and natural gas) on line with varying degrees of 
        capabilities. Restoring drinking water systems and wastewater 
        treatment systems needs a planned approach, but full 
        restoration will be delayed by the many breaks in the 
        distribution and collection systems and by the need for upgrade 
        and repairs in older systems. Unanticipated delays must be kept 
        in mind in the process of unwatering and the scope and 
        complexity of the interdependent systems.
 The cleanup of debris (including housing debris) and potentially 
        contaminated soil/sediment in New Orleans are rate-limiting 
        factors.
      The timeline for debris treatment, disposal, containment, and 
        transport, as well as for the testing of potentially 
        contaminated soils/sediment, will slow or accelerate the rate 
        at which the city can be reinhabited. The potential 
        contamination of soils/sediments has great uncertainty attached 
        to it. A comprehensive sampling and testing of a broad array of 
        toxic chemicals will be required to identify any widespread 
        contamination or selected hot spots and to ensure the safety of 
        returning inhabitants or for redevelopment.
 Intense interest will exist to reinhabit New Orleans.
      Significant pressure will occur to allow rehabitation. A single 
        decision will not be made to reinhabit the whole city at one 
        time. Rehabitation is expected to be done neighborhood by 
        neighborhood IF it is possible to prevent access to the closed 
        areas of the city. Worker safety and health as well as public 
        safety and security are mandatory enablers for all of the 
        activities.
 It is critical to address the housing issues in New Orleans.
      Housing is likely the most critical issue in reinhabiting the 
        city because of the
     Large percentage of city housing that was flooded and is not 
            likely to be viable;
     Intense personal connection an individual has to their home;
     Legal, jurisdictional, and procedural issues involved in the 
            decision-making process;
     Large proportion of the city population that is displaced. Some 
            residents are a significant distance away from New Orleans 
            or may not intend to return;
     Difficulty in establishing and maintaining communications with 
            the widely dispersed population;
     Challenge of identifying acceptable methods and resources for 
            assessing such a large number of homes; and the
     Scope of the demolition process and safe and efficient removal of 
            debris.
 An immediate need exists to allow temporary or transient entry of 
        recoveryworkers, residents, and business owners.
      In the immediate period, explicit guidelines are being developed 
        for safe entry of recovery workers to New Orleans, for brief 
        entry by residential and business owners to retrieve key 
        household or business items in neighborhoods of the city where 
        it is safe to do so, and for reinhabiting the least impacted 
        areas of the city where key environmental health and 
        infrastructure conditions are met.
 Ensuring worker safety and health and public safety and security are 
        essential.
      Public security and intensive efforts to achieve worker safety 
        and health for the very large recovery workforce, working often 
        in extraordinarily difficult and challenging conditions, is 
        essential to rebuilding New Orleans.
 The criteria for short-term and long-term return to New Orleans 
        should be tailored to the timeframe and population.
      Different criteria will be necessary for the short-term and long-
        term return to the city e.g., use of bottled water in the 
        absence of potable water will be acceptable for recovery 
        workers and select others on a limited short-term basis versus 
        the general population, which includes children and the elderly 
        over the long-term).
    The EH-NAHT has the following recommendations based on our initial 
assessment:

 It is important to involve state, local, and other stakeholders in 
        decision-making.
      All the issues in reinhabiting New Orleans are interwoven, 
        complex, and cannot be addressed individually. It is extremely 
        important that decisions are made involving state, local, and 
        federal staff as well as all other stakeholders, particularly 
        the local population.
 Developing a shared vision for the rebuilding (including 
        infrastructure) is critical.
      Because of the magnitude of the devastation, it is critical that 
        decisions be guided by a clear, shared vision by all 
        stakeholders of what the rebuilt New Orleans should be. As 
        devastating as this event is, the vision of the future of the 
        city is critical in guiding development for such a widely 
        impacted area.
 Federal, state, and local decision-makers should explore processes 
        used by other areas in devastating circumstances.
      New Orleans should draw upon the experiences of other localities 
        that addressed devastating events--areas such as New York 
        (World Trade Center), Florida (repeated hurricanes), and San 
        Francisco (earthquake). Their experiences and solutions might 
        serve as examples to New Orleans on processes that can be used 
        for creating a broad vision for redevelopment, for identifying 
        key decisions and strategies, and for involving all 
        stakeholders (including the displaced population) in the broad-
        impact, critical decisions that will have to be made.
 Maintaining collaboration with involved agencies is essential.
      Maintain, through FEMA and other mechanisms, broad collaboration 
        and a true sense of partnership in developing a very 
        coordinated and sustained effort to recovery.
 Attending to the housing decisions is critical.
      A number of critical decisions need to be made about housing. 
        These decisions include
     Developing explicit guidelines for entry by recovery workers, for 
            brief periods of entry by residents and business owners to 
            retrieve essential belongings, and for reinhabiting 
            relatively undamaged neighborhoods of the city.
     Creating a neighborhood-by-neighborhood approach for assessing 
            housing, cleanup/demolition, and reinhabiting/rebuilding.
     Selecting method(s) for assessing large amounts of damaged 
            housing, with rapid methods necessary for severely damaged 
            housing.
     Resolving legal, administrative, and procedural issues.
     Fostering and maintaining ongoing contact with the large 
            displaced population--particularly for any actions that 
            might require owner authorization.
 It is necessary to maintain a systems-level perspective.
      Monitoring the progress in all key areas of environmental health 
        and infrastructure is important because reinhabiting New 
        Orleans depends on success in all areas. This initial 
        assessment identified 13 key areas that need to be tracked.
 Resolving potential toxic chemical exposures is important.
      It is important to resolve the questions about the potential for 
        toxic chemical exposure as quickly as possible. This issue has 
        the widest degree of uncertainty.
 Officials should ensure public safety and security and worker health 
        and safety.
      Maintain a central focus on public safety and recovery worker 
        health and safety throughout the rebuilding of New Orleans.
 Engage and communicate with the displaced population.
      Develop a mechanism to regularly and substantively engage and 
        communicate with the displaced population to provide a progress 
        update on city-wide activities as well as activities related to 
        neighborhoods and individual homes. This work could involve the 
        use of GIS, the Internet, and other innovative strategies.
 Maintain a broad vision on issues affecting the rehabitation of the 
        city.
      This initial assessment from the EH-NAHT focused on the immediate 
        issues related to reinhabiting the city--primarily those issues 
        that affect essential systems for safe living. As these 
        immediate issues are dealt with, it will be important to focus 
        on issues related to quality of life and social well-being and 
        how they are integrated into a redevelopment plan.
 Create a long-term habitability strategy.
      The long-term solution to the risk of flooding and the viability 
        of New Orleans depend on fully protective levee and unwatering 
        systems for the population returning to and reinhabiting the 
        city. It is extremely important to address the long-term 
        protection of the city from another such event of this 
        magnitude.
    Federal, state, and local agencies and relief organizations are 
responding heroically to the disaster. All organizations, including the 
agencies represented on this task force, should be doing their utmost 
to assist in recovery and rebuilding.
    These conclusions and recommendations are current at the time of 
writing. Because the situation is dynamic and changing daily, updates 
on various topics will be given periodically by various organizations.

    Mr. Gillmor. Thank you, Dr. Falk, and next witness is the 
Honorable John Paul Woodley, Jr., Assistant Secretary of the 
Army Civil Works.

               STATEMENT OF JOHN PAUL WOODLEY, JR.

    Mr. Woodley. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, distinguished members of the subcommittee. I have a 
brief oral statement, and ask that my written statement be 
included in the record.
    Mr. Gillmor. It will be so included.
    Mr. Woodley. Today, I am here to provide a brief background 
update to the subcommittee on the environmental management 
techniques the Army Corps of Engineers is using during the 
ongoing unwatering, debris removal, and cleanup missions in the 
greater New Orleans area.
    Working with the city of New Orleans Water and Sewer Board, 
private contractors, and even some foreign governments, Mr. 
Chairman, the Corps continues to make steady progress on 
pumping out floodwaters from the city of New Orleans. The 
current estimate is that the city is more than 80 percent 
unwatered, but the overall unwatering estimated to be finished 
in early to mid-October, with a number of parishes actually 
completed by tomorrow.
    As the water drains to its final amounts, there may be more 
concentrated levels of contaminants that will require special 
attention and handling. The Corps is coordinating with EPA and 
State agencies regarding this possibility. An interagency 
technical group identified recommendations for preventive and 
remedial mitigation management actions during unwatering. The 
Corps has deployed booms at appropriate intake points, and I 
have a photograph of the boom deployed on the 17th Street Canal 
for the committee. The orange boom is the boom that is intended 
to collect the debris. The white and somewhat discolored boom 
is actually an absorbent boom that will absorb floating 
contaminants, and skim floating contaminants from the water. We 
have also deployed artificial aeration devices in the major 
channels. This is a photograph of that at the London Avenue 
Canal. This is intended to aerate the water, and provide 
treatment for low levels of dissolved oxygen and also provide 
the treatment benefits that aeration will provide.
    After suspending pumping operations during Hurricane Rita, 
the Corps resumed the aeration operations, and is coordinating 
with the U.S. Coast Guard to deploy additional booms, skimmers, 
and suction at pumping stations where oil has been observed. 
Based on input from EPA, as Deputy Secretary Peacock indicated, 
the Corps is also addressing bacteria, suspended solid, and 
petroleum in the storm water runoff.
    In support of FEMA, the states, and communities, the Corps 
is also conducting an extensive debris removal effort in the 
areas impacted by Hurricane Katrina. There is a very strong 
communication among Federal, state, and local agencies 
associated with this mission. The Corps also participates in a 
multi-agency working group established by the EPA to coordinate 
innovative debris management issues for recycling and reuse.
    With respect to household hazardous waste, the Corps and 
the EPA are assisting, collecting, and disposing of this 
material. Again, the Corps is working closely with State and 
Federal regulators on matters dealing with all types of debris, 
including contaminated debris. As public rights of way are 
cleared, and segregation of materials at curbside and staging 
areas gets in full swing, recycling will increasingly become a 
key component of debris strategy. Light goods, automobiles, 
marine vessels, and clean, woody debris should be common 
targets for recycling. Recycling can be effective in reducing 
the volume of debris, and reducing the impact on landfills.
    The Corps is implementing preventive management actions 
during pumping to minimize additional ecological impact during 
the balance of the unwatering effort, and also, is implementing 
remedial management actions into the receiving waters to 
continue to minimize ecological impacts of the floodwater 
discharge. And we will continue to work with EPA, State and 
local authorities to plan and manage potentially contaminated 
residuals following the first flush of the region following the 
rainfall. The current promising outlook for environment and 
health, human safety and health, would not be possible without 
the combined efforts of EPA, other Federal, state, and county 
agencies, as well as the Corps of Engineers.
    And Mr. Chairman, thank you very much for you, and to the 
subcommittee for the opportunity of appearing today.
    [The prepared statement of John Paul Woodley, Jr. follows:]
 Prepared Statement of John Paul Woodley, Jr., Assistant Secretary of 
              the Army Civil Works, Department of the Army
                              introduction
    Mr. Chairman and distinguished members of the subcommittee, I am 
John Paul Woodley, Jr., Assistant Secretary of the Army (Civil Works). 
I am honored to be testifying before your subcommittee today, on the 
environmental aspects of the United States Army Corps of Engineers' 
recovery activities related to Hurricane Katrina. My testimony today 
will provide a brief background and update the Subcommittee on the 
environmental management techniques the Corps of Engineers is using 
during the on-going unwatering and debris removal and cleanup missions 
in the greater New Orleans area. These efforts are a collaborative 
effort of the Corps of Engineers, the U.S. Environmental Protection 
Agency, the Louisiana Department of Environmental Quality, the Sewage 
and Water Boards, Louisiana Department of Health and Hospitals and 
contractors to ensure impacts upon human and environmental well-being 
are minimized to the greatest extent possible.
                               background
    The Corps of Engineers is doing everything it can to get the water 
out of New Orleans as quickly as possible, in an environmentally 
acceptable manner. Everyone is concerned about the quality of water 
being moved from New Orleans to Lake Pontchartrain, but the first 
priority is health and safety of residents of New Orleans and all 
responders as water is drained from the city. The Corps is working with 
the EPA, including its on-scene coordinator, and state agencies to 
ensure human health and safety. EPA is continually monitoring and 
testing the water. Corps of Engineers personnel in New Orleans and 
Baton Rouge are co-located with the EPA and the Louisiana Department of 
Environmental Quality, and other state agencies since shortly after 
Katrina to facilitate close interaction and coordination. The 
headquarters and forward field offices of the Corps and EPA are fully 
engaged in this collaborative effort.
                      status of unwatering mission
    Working with the city of New Orleans Water and Sewage Board, 
private contractors and even some foreign governments (Dutch and German 
dewatering teams), the Corps of Engineers continues to make steady 
progress on pumping out floodwaters from the city of New Orleans and 
immediate vicinity into Lake Pontchartrain. The current estimate is 
that the New Orleans area is more than 80 percent unwatered, with the 
overall unwatering effort estimated to be completed in early to mid-
October, with a number of parishes completed by September 30th. As the 
water drains to its final amounts, there may be more concentrated 
levels of contaminants that will require special attention and 
handling. The Corps is coordinating with EPA and state agencies 
regarding this possibility. The unwatering effort will remove most, but 
not all the water. The remaining isolated pockets of water should not 
hamper recovery efforts such as debris removal, structural assessments 
and restoration of critical services.
              preventative and remedial management actions
    An interagency technical sub-group (water quality/ecosystem 
restoration management experts) collaboratively identified an array of 
recommendations for preventative and remedial mitigation management 
actions during unwatering for both inside and outside the levees. 
Inside the levees the Corps has deployed sorbent booms with sorbent 
skirts at appropriate intake points. There is a special management 
strategy for appropriate containment and treatment of HOT-SPOT areas 
identified by personnel on the ground as the water lowers. Though most 
of the City is dry, the Corps still is treating water in the three main 
canals, Orleans, London and 17th Street. The Corps has deployed 
artificial aeration devices in major channels to reduce biological 
oxygen demand (BOD) and support healthy dissolved oxygen concentrations 
in the water column. Two aerators in each of the three main channels 
draining to Lake Pontchartrain were strategically placed and operating 
successfully prior to Hurricane Rita and 20 more aerators are being 
placed in these and other strategic locations, even in the outfall 
areas of Lake Pontchartrain. More aerators also are being planned--
about an additional 20, or total of 40. After a suspension of pumping 
operations during Hurricane Rita the Corps has resumed the aeration 
operations, and are coordinating with the U.S. Coast Guard to deploy 
booms, skimmers, and suction at pumping stations where oil was 
observed. Based on input from EPA, the Corps is doing its best to 
address bacteria, suspended solids, and petroleum in storm water 
runoff. Options include more booms, silt screens, aerators, and 
possibly adding some mobile treatment plants. EPA and the Corps are 
formulating approaches to manage known and suspected areas of hazardous 
materials production and storage, and areas with contaminant 
sequestration materials such as flocculation, disinfection, and 
sorption. The Corps is working with EPA who is developing a 
comprehensive non-point source control program to manage the first 
flush of rainfall from contaminated residuals as well as developing and 
executing program to clean streets, canals, storm drains of 
contaminated residuals to minimize their flushing from receiving waters 
during rainfall events. This approach is being formulated 
collaboratively between the Corps and EPA to be coordinated with State 
and Local governments and water boards.
    In addition to the floodwaters, the EPA and State of Louisiana are 
sampling and monitoring the sediments left behind from the New Orleans 
floodwaters for possible contaminants and infectious agents. 
Appropriate sampling and analysis are critical to effective evaluation 
and characterization to assure proper handling and disposal. The Corps 
and its contractors are working closely with the EPA and the state of 
Louisiana to assure that this is achieved in a safe manner.
                         water quality results
    EPA emergency response personnel are working in partnership with 
FEMA and state and local agencies and the Corps to help assess the test 
results and evaluate health and environmental conditions related to 
water quality from Hurricane Katrina. In emergency situations such as 
this, EPA serves as the lead Agency for water quality including the 
cleanup of hazardous materials such as oil and gasoline. EPA national 
and regional Emergency Operations Centers are currently activated 24 
hours a day. The Corps has employees embedded with the EPA/LDEQ team in 
Baton Rouge and onsite teams locally in New Orleans for rapid and 
effective communication regarding water quality issues.
    More than 190 water quality data parameters are constantly being 
updated, reviewed and validated through an EPA quality assurance 
process to ensure scientific accuracy. Fuel oils, as they are 
encountered, are being skimmed by floating booms or other pick-up 
mechanisms as monitored by the Corps, EPA, LDEQ and Coast Guard, but 
contact with fuels and oils absorbed onto sediment is always a 
possibility. With any of these water quality constituents, it is 
recommended that contact with the area water be avoided, and if contact 
is made, use soap and water to clean areas and remove contaminated 
clothing.
    The Corps teams in the field and at the Baton Rouge office will 
continue to follow interagency guidance and accepted doctrine and 
continue working collaboratively with the entire suite of human health 
agencies to respond to health and human safety issues. The Corps will 
follow OSHA/CDC guidance pertaining to human health and safety risk 
associated with New Orleans floodwaters, sediment and related microbial 
issues and continues to operate in the field under that guidance and 
its internal guidance for emergency work zones.
                         debris management plan
    In support of FEMA, the states and localities, the Corps is 
conducting a comprehensive debris removal effort in the areas impacted 
by Hurricane Katrina. There is very strong interagency communication 
between the federal agencies, states and local agencies both vertically 
and horizontally. Additionally, the Corps is a participant in a multi-
agency working group established by the EPA that meets twice weekly to 
coordinate innovative debris management issues such as recycling and 
reuse. That working group also includes state and private non-profit 
and for profit entities. An output of this coordination is management 
plans (by state) for hazardous materials and other debris.
    With respect to household hazardous waste, while the collection and 
disposal of this material is an Emergency Support Function (ESF)-10 
task, it is being conducted by both the Corps and EPA. We expect that 
most hazardous and toxic waste will consist of containers filled with 
fuel oil and propane tanks, containers of unidentified material, paint, 
pesticides, spoiled food, freon removal and batteries. The Corps is 
working closely with state and federal regulators on all matters 
dealing with all types of debris including contaminated debris
    As public rights of way are cleared and segregation of materials at 
curbside and at staging areas gets in full swing, the Corps realizes 
that recycling will increasingly become a key component of the debris 
strategy. White goods, automobiles, marine vessels, and, in areas not 
impacted by the Formosan Termite, clean woody debris should be common 
targets for recycling. Recycling can be effective in reducing the 
volume of debris and reducing the impact on landfills.
                                closing
    The Corps is implementing preventative management actions during 
pumping inside the levees to minimize additional ecological impact 
during the balance of the unwatering effort. The Corps also is 
implementing remedial management actions in the receiving waters to 
continue to minimize the ecological impacts of the discharge of flood 
waters. The Corps of Engineers is seeking a balance between pumping all 
the water out of the city and minimizing ecological impacts during the 
unwatering process. Strategies are being developed by the Corps and EPA 
to manage the post-pump down flushes of potential pollutants and 
potentially contaminated residuals. The U.S. Army Corps of Engineers 
appreciates the tremendous cooperation of the EPA, Coast Guard, 
Louisiana Department of Environmental Quality and other local officials 
and agencies to carry out all of our public works missions under 
Emergency Support Function #3. The current promising outlook for the 
environment and human safety and health would not be possible without 
the combined efforts of all that were mentioned.
    This concludes my statement. Again, I appreciate the opportunity to 
testify today. I would be pleased to answer any questions you may have.

    Mr. Gillmor. Thank you very much, Mr. Woodley. And also, 
we, at this hearing, as we always do, are probably going to run 
out of time for questions. I would appreciate it if you would 
be willing to answer any questions in writing that might be 
submitted later. Thank you.
    Mr. Woodley. Delighted.
    Mr. Gillmor. We have been joined by the chairman of the 
full committee, the gentleman from Texas, Mr. Barton, for 
questions.
    Chairman Barton. Thank you, Chairman Gillmor, and I will 
say at the outset that I think this is one of the most 
important hearings of all the hearings we are going to do on 
the aftermath of Katrina and Rita, because this directly 
impacts public health, and it is not the sexiest hearing, but I 
think it is one of the most important hearings.
    I want to thank you three gentlemen for being here, and the 
other panelists in the second panel. My first question would be 
to Mr. Peacock and also to Dr. Falk. Given what we know today 
about the status of the contaminants in the water that is in 
the flood areas, or the areas that have been flooded, are there 
any long-lasting, negative health effects of those areas, once 
the waters recede?
    Mr. Peacock. Well, Dr. Falk, I will let you, perhaps, grab 
that first.
    Mr. Falk. You know, I think there are several factors we 
have to consider. The potential for any long-term effects 
depends on the degree of exposure, and I think it is very 
important, as we work through this process, to assess carefully 
exactly what the exposures are, and how significant they are.
    So first off, there is the issue of the floodwaters, which 
have contained, as Deputy Administrator Peacock pointed out, 
bacteria from sewage, and it has contained some chemicals, and 
then, there is material in the sediments as that dries out, and 
I think it is particularly important to think of how long 
people will be exposed to those sediments. Are those readily 
cleaned up, so that the exposures are short-lived, and in which 
case, they would not be, you know, as significant for the long 
term?
    But I think also, one has to think of the broad area 
sampling, that there are a lot of neighborhoods in an area such 
as New Orleans. There are maybe localized exposures from 
submerged sites, and I think it is important to actually fully 
assess the area, and determine whether there are significant 
exposures on an ongoing basis. So I think from what we have 
seen so far, I don't think we would be able to say that there 
are definite long-term effects, but I think it is important 
both for us in assessing, and for everybody who lives there, to 
be reassured that that sampling be comprehensive, that it fully 
look at, particularly in areas where there might have been 
localized exposures, for example, a Superfund site. We really 
have to look at this, I think, in an intelligent fashion, to 
make sure there aren't ongoing, persistent exposures that 
affect people for the long term.
    Chairman Barton. Dr. Peacock.
    Mr. Peacock. Yes, Emily, if you could put up the flood 
sampling map, where the samples have been taken. Dr. Falk 
touched on the important issues. There has been a lot of 
sampling of the floodwaters done, but the fact of the matter 
is, in any particular instance, you may have contaminants that 
may have not been caught by the sampling. Also, you can see 
this is based on a scientific sampling method where we not only 
try and get a representative sample, but also focus on 
particular sites where we think there may be a problem. But you 
can see that, by no means, is the entire area covered. We may 
not know the chronic effects for quite some time.
    Chairman Barton. Okay. Is there anything that we need to do 
at the Federal level, in terms of reestablishing safe drinking 
water supplies, in terms of special funds for new purification 
plants, or anything like that?
    Mr. Peacock. Well, right now--and Emily, if you would put 
the drinking water plant map up. I am not sure the chairman was 
here to see that. All those dots represent drinking water 
plants. The green dots are plants we know are operational. 
These were plants in the swath of Hurricane Katrina, but the 
red dots and the yellow dots are plants where we know there is 
a problem, or where we don't know whether things are right. And 
in each of those cases, there is a team of people, including 
EPA and State and local officials. I know CDC and the Corps of 
Engineers send teams of people to each of these plants to do 
assessments, and it is not just the plant, but it also includes 
the distribution system, and it is going to be very difficult 
to figure out what the needs are until those assessments are 
done. And I think the time period for that is measured more in 
weeks than it is in days.
    Chairman Barton. My final question is to Mr. Woodley. I am 
told that back in the early 1960's, Congress has approved the 
Corps to build a hurricane-barrier project across Lake 
Pontchartrain, and that got held up by some environmental 
lawsuits. Finally, the Corps just gave up on it, but that had 
been project been completed, it has at least been alleged that 
we wouldn't have had the flooding in New Orleans. Can you 
comment on that?
    Mr. Woodley. Mr. Chairman, there was litigation concerning 
an original 1960's-era plan, that was advanced by the Corps of 
Engineers, and there was an injunction issued by the Federal 
Court in New Orleans against elements of that plan, which 
included a hurricane barrier, or storm surge barrier at the 
mouth, or the outlets of Lake Pontchartrain. Subsequent to that 
time, for that reason, and also, because of very substantial 
local opposition that existed, that element of the plan was 
rejected, and a new plan formulated that called for higher 
levees along the shore of Lake Pontchartrain.
    Chairman Barton. But if that plan had been implemented, has 
the Corps or anybody else modeled what would have happened with 
this hurricane?
    Mr. Woodley. No, sir. We have not. And----
    Chairman Barton. Is that something you could do?
    Mr. Woodley. I believe that that is something that----
    Chairman Barton. If this committee----
    Mr. Woodley. [continuing] could be done.
    Chairman Barton. [continuing] directed that it be done.
    Mr. Woodley. I believe that that is within our capability 
of modeling the effect of that, the storm that would, that 
occurred on a hypothetical system of that nature. I believe 
that could be done, Mr. Chairman.
    Chairman Barton. My time has expired. I thank the Chairman.
    Mr. Gillmor. The gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. Dr. Falk, first, I 
would like to thank both the CDC and the HHS, because it was 
amazing in Houston when we first received 150,000-plus evacuees 
from Louisiana, and the effort on the ground from the CDC, and 
also, from the Public Health Service. I just couldn't tell you 
how many I met. It seemed like it was a couple dozen of folks, 
both at the quick medical facility at the Reliant Arena area, 
and then, later on, at the George R. Brown a couple days later.
    One of my concerns that day was we found out that the folks 
that were being triaged, because again, Houston area had no 
idea who was on the buses, or what illnesses they had, is the 
vaccinations that we were doing, you know, when people came off 
those buses, any kind of vaccines to protect both the evacuees, 
but also, for the medical personnel that were there trying to 
treat them. And is there a certain list that you know of, or 
what vaccinations you consider most important, both for the 
evacuees, but also for the workers in the shelters and those on 
the ground, affected even those folks who were still, are in 
the New Orleans area?
    Mr. Falk. Thank you very much, and I know Dr. Gerberding 
spoke to the Health Subcommittee last Thursday, and she has 
spoken to much of the CDC effort on the public health response, 
and broadly is supporting the shelters, the local medical 
facilities, and the guidelines.
    I think, in particular, the greatest concern, I know for 
all of us who went there, we all had to have, you know, 
diphtheria, tetanus shots, and so Dr. Gerberding, I think, has 
testified to that, and spoke exactly to those recommendations.
    Mr. Green. Because I wasn't here. I actually went home----
    Mr. Falk. Yes.
    Mr. Green. [continuing] to prepare for Rita.
    Mr. Falk. Yes.
    Mr. Green. I know tetanus was the biggest concern, but----
    Mr. Falk. Right. That is the main concern, and I think in 
selected areas, there have been questions about hepatitis, but 
I think it has been particularly in terms of the tetanus. And I 
could get back to you exactly the guidance that they use in all 
of the shelters.
    Mr. Green. Okay. I would appreciate it.
    Mr. Falk. We have had, I think, roughly 500-plus people 
from CDC, ATSDR, that have participated in those various 
efforts across the Gulf Coast region.
    Mr. Green. I have to admit, I wanted to clone that clinic 
that was put together on a day's notice at both facilities, and 
move it into our district, because I was impressed at both 
locally and all our hospital systems, and medical schools, and 
again, the Federal effort from the CDC and the Public Health 
Service.
    Mr. Woodley, I mentioned in my opening statement about our 
experience with Rita with water plants, and of course, I know 
in Mississippi and Louisiana, it was much worse, because our 
problem was the electricity to the reservoir, that they 
couldn't send the water, you know, to Baytown, and ultimately, 
to the residents and the industry. Does the Corps work directly 
with this critical infrastructure? In fact, I think the 
Wallisville Reservoir is originally a Corps project, and if so, 
what steps does the Corps go through to respond to problems 
like we saw with this, and again, it is probably magnified so 
much more in the Louisiana and Mississippi area?
    Mr. Woodley. Yes, sir. We have the mission under the 
National Response Plan to provide temporary emergency power for 
critical infrastructure.
    Mr. Green. Do you have to get anybody's permission to do 
that? Local, State officials, or even FEMA?
    Mr. Woodley. Yes, sir. We produce, or we perform that 
mission under the direction of FEMA and in cooperation with the 
local emergency management agencies and local authorities.
    Mr. Green. Mr. Chairman, I would hope that we might be able 
to somehow speed that decisionmaking along, because one of our 
problems we found was that the local community, for example, 
the mayor, the city manager had to go to the State, and the 
State was dealing with such a big issue, but somehow, we can 
short circuit that process that you have to go through, so the 
Corps could actually be more responsive, and I know you want to 
be, but you still have to go through everything that is 
required, and I would hope one of the things we learn out of 
this is we need to short circuit some of the bureaucracy, so 
the people who can actually get the job done have that 
opportunity to get out there, without 3 or 4 or 5 days delay. 
And I would assume the mayor from Mississippi, and I apologize 
for him having to sit through the first panel, but I know that 
is the frustration that my local community feels, and again, we 
weren't devastated near--our problems are nowhere near what 
Mississippi and Louisiana did.
    Thank you, Mr. Chairman.
    Mr. Gillmor. Thank you. I have a question for Mr. Peacock. 
There have been some stories in the press stating that the EPA 
Administrator, Mr. Johnson, has said that the agency does not 
need any other authority to respond to the disaster in the Gulf 
Course, or the Coast, or the situation that is created, but 
there have been some other press articles suggesting that, in 
fact, EPA would be seeking some additional authority.
    Could you tell me what the position of the agency and the 
administration is as to whether you need additional legislative 
authority?
    Mr. Peacock. Sir, absolutely, Mr. Chairman. Not long after 
the hurricane hit, we started looking at, particularly given 
its scope and its unprecedented impact, started looking at 
whether or not there were any legislative barriers to getting 
our work done. And we continue that effort. We have not 
offered, or sent up, any legislative changes or additional 
authorities that we think we need yet, but we continue to 
review whether or not that may be necessary.
    Mr. Gillmor. Well, along that line, let me ask you, after 
the activities of September 11, Congress created specific 
legislative authority to help EPA guide drinking water, 
utilities, in getting ready to prevent and respond to terrorism 
activities. My question is, do you have similar direct 
authority you can draw on for natural disasters, like a 
hurricane, a tornado, or do you rely on just cobbling together 
authorities under various provisions?
    Mr. Peacock. Yes, I think you are probably referring to the 
Water Sentinel Program, which helps in assessments, first of 
all, and then helps local water authorities determine ways to 
protect water supply sources, and drinking water plants. I am 
not aware of any similar authority for natural disasters, but I 
can certainly double check on that and get back to you.
    Mr. Gillmor. Thank you very much. I appreciate that. Dr. 
Falk, what are your recommendations for State and local 
officials, with respect to health and safety issues, as they 
consider allowing residents back into New Orleans or other 
areas, and how do you go about communicating those 
recommendations?
    Mr. Falk. So, we feel that there are a number of factors 
that have to be considered, and this is a very complex 
environmental situation, where there are issues with drinking 
water, sewage treatment, chemicals and sediments, housing 
issues, mold, and debris removal, and so on. So, I think first 
off, you know, there is a sense, for say in local officials, 
you have to consider the group of these various effects at, you 
know, the decisions about return and so on are not based on a 
single criterion, or a single issue. One really has to make 
sure that the complex number of services that are sort of 
necessary for urban living, or whatever, really are met. So, in 
that sense, we try to emphasize going through the series of 
issues and actually making sure that they are all addressed.
    Second, the conditions vary. For example, within New 
Orleans, they vary from one part of the city to the next, and 
so, we have emphasized this is not like a single decision for a 
whole metropolitan area, but this really has to be done, in a 
sense, neighborhood by neighborhood, area by area, as the 
conditions differ from site to site. So, and we have, you know, 
tried to emphasize approaching it systematically, for the 
different environmental issues, and addressing those, and 
approaching that by the particular areas, and the particular 
problems that are represented in each area.
    Through EPA and ourselves and others, we have tried to set 
up a Federal effort whereby we can discuss between the agencies 
how we collectively come up with information on those areas, 
and provide that technical input up the chain at the Federal 
level, and working with our colleagues at the State and local 
levels, so we are trying to share information that we have, and 
provide technical input, and make sure that we are able to 
convey whatever information we have that would be helpful.
    Mr. Gillmor. Thank you. One more question for EPA, Mr. 
Peacock. One of the sadder stories of the elevated lead 
concentrations we had in drinking water in the District of 
Columbia, was how badly the City Water and Sewer Administration 
had bungled its public outreach efforts, particularly threat 
communication and water testing and water purifying kits.
    You had mentioned that EPA is trying to both communicate 
information and distribute water testing kits in the affected 
parishes in Louisiana. Would you be able to tell us what 
parishes and how many, and what EPA is doing to program for 
threat communication and kit testing?
    Mr. Peacock. Yes. And actually, a lot of this work is being 
done by EPA and the state. Once again, there is just a very 
close relationship there. I know there were, and this 
information is now a few days old, so I will have to update it 
for you, there were at least 700 test kits that were handed 
out. There were also purification tablets for people who had 
private wells, which I believe the State gave to people.
    The interesting aspect of this is one of the lessons 
learned from 9/11 is to improve risk communication, and 
particularly, try and reach the people that need to get the 
information. We are now communicating through AM and FM radio, 
by going door to door, handing out flyers, and working through 
neighborhood networks such as churches, local school districts, 
and other means, to try and reach people.
    But Mr. Chairman, I can get the detailed information 
regarding test kits to you after the hearing.
    Mr. Gillmor. Thank you very much. The gentlelady from 
California.
    Ms. Capps. Thank you, Mr. Chairman. Dr. Falk, I have two 
questions for you, and one for you, Mr. Peacock, so of 
necessity, I would hope that your answers would be brief.
    The emergency responders, Dr. Falk, to Hurricane Katrina, 
have been and will continue to be exposed to extremely 
dangerous environments since the first day of rescue 
operations, wading through contaminated waters filled with 
sewage and hazardous materials. Following 9/11, the Federal 
Government created a medical monitoring program for responders 
to the World Trade Center tragedy.
    Last week, I asked Director Gerberding if the CDC will be 
setting up a long-term monitoring program for responders to 
Katrina. She expressed openness to such a program, but 
indicated they have not taken any steps in that direction. I 
would ask you, does ATSDR intend to create a health registry 
for first responders?
    Mr. Falk. I think in terms of Dr. Gerberding's response, 
clearly over the last several weeks, there has been a large 
effort on the part of NIOSH, the National Institute for 
Occupational Safety and Health, which is a part of CDC, to 
provide guidance for emergency response workers and others in 
the area.
    Ms. Capps. I am talking about a registry.
    Mr. Falk. Right. And as she said, then, they have not made 
any decisions in terms of a registry.
    Ms. Capps. And that is still the case?
    Mr. Falk. And I think, in terms of ATSDR, we primarily work 
around hazardous waste sites, particularly with the 
communities, and the active work at CDC that relates to workers 
is really done through the National Institute of Occupational 
Safety and Health. So, I think the most likely place where that 
would be considered would be where the occupational safety and 
health expertise is located, and that would be probably at the 
NIOSH portion, so that is where that is likely to be 
considered.
    Ms. Capps. Okay. Next question. The Joint Taskforce, Dr. 
Falk, on Environmental Health Needs and Habitability 
Assessment, issued on September 17, 2005, was a useful and 
helpful document on understanding the issues related to the 
Katrina response. One of the key issues identified that affects 
the rate at which New Orleans can be re-inhabited is the 
testing of potentially contaminated soil. The report calls for, 
``a comprehensive sampling and testing of a broad array of 
toxic material, that will be required to identify any 
widespread contamination of selected hotspots.'' In your 
opinion, is there a comprehensive sampling and testing plan 
that is fully funded, either yours, or one that you know of?
    Mr. Falk. I think that at this point, we are working 
closely with the EPA. We are evaluating the information so far. 
We are looking at the sampling plans, and I think Deputy 
Administrator Peacock has described, you know, their 
development of sampling plans, and having them reviewed. We are 
in the process of working with them on the sampling plan.
    Ms. Capps. Okay.
    Mr. Falk. So, my hope is that we will, you know, we will be 
able to answer that question.
    Ms. Capps. So the answer is no right now. And like, I am 
thinking of a specific citizen or a family.
    Mr. Falk. Right. Right.
    Ms. Capps. They don't know yet whether it is actually, 
literally, safe to return to their neighborhoods without short 
or long-term health effects?
    Mr. Falk. I think that is something we are all working on 
now, and you know, it has only been so recently that some of 
the areas of New Orleans, for example, have been unwatered.
    Ms. Capps. And they are returning. Okay, Mr. Peacock. Under 
statutes like the Solid Waste Disposal Act and Superfund, the 
EPA is charged with protecting public health. In the face of 
widespread oil and hazardous chemical release and contaminated 
sediments in neighborhoods, is it EPA's responsibility to 
protect the citizens' health? I am looking for----
    Mr. Peacock. You are talking about a specific statute. I 
see. I see. If they are----
    Ms. Capps. I am looking for primary responsibility. I just 
asked Dr. Falk similar kind of questions. Who is in charge?
    Mr. Peacock. If you are looking at a person who wants to 
reoccupy----
    Ms. Capps. Yes.
    Mr. Peacock. [continuing] New Orleans, and who is 
protecting them. There are three layers of protection. There is 
the mayor. There is the Governor. And then, there is Thad 
Allen, all of whom are located in New Orleans, and have daily 
discussions regarding whether or not a particular--and the 
mayor is using zip code areas--whether or not a particular zip 
code area can, for instance, have businessmen come in on a 
daily basis, or perhaps, have residents come in on a daily 
basis.
    Ms. Capps. Well, now, I have heard, and this is only 
anecdotal, but evacuees have reported that they are getting 
different information from different officials, and from the 
EPA. So----
    Mr. Peacock. Well, I hope that is not the case.
    One of the reasons those three people are in such close 
contact is to make sure they are all on the same page. The 
mayor, as you probably know, published a plan late yesterday, 
and we have, across agencies, it is not just EPA and the CDC, 
have been helping the mayor evaluate environmental and other 
endpoints in those particular zip codes. And there is an 
updated assessment, I think it was issued, that was given to 
the mayor last night, which I would be happy to provide to you. 
I hope you have the impression there is a systematic process--
--
    Ms. Capps. Right.
    Mr. Peacock. [continuing] for looking across these areas.
    Ms. Capps. I guess that, first of all, I don't have a clear 
answer as to whether the sample is complete, or if there is a 
registry----
    Mr. Peacock. I think I can help you with that, if, for 
instance, for the sediment sampling, these are where we have 
taken samples. There is a sampling plan in place.
    Ms. Capps. Is there a result?
    Mr. Peacock. Yes. And if you go, for instance, on our 
website, and hit sediment samples, you will get the raw data. 
And----
    Ms. Capps. Right. It doesn't tell the citizen if it is 
safe. Who is going to interpret the data, and issue a report 
saying it is----
    Mr. Peacock. That is up to the local health official and 
the city's office, to determine whether or not a particular 
house or room or neighborhood is safe for someone to go back 
into. I mean, for instance, EPA, regardless of floods in the 
past, has never gone into a particular neighborhood, house, 
property, state, commercial property, and said it is safe to go 
back in.
    Ms. Capps. Mr. Chairman, I know I am going over time, but 
could I finish this line of questioning? I just want to find 
out, the mayor, you have the capability of analyzing, between 
the Corps----
    Mr. Peacock. Yes, and actually, the Corps and others.
    Ms. Capps. And the Corps is--well, the three of you are 
here because of expertise in sampling, creating data bases----
    Mr. Peacock. Correct.
    Ms. Capps. [continuing] and information. I understand----
    Mr. Peacock. Yes.
    Ms. Capps. [continuing] that the dispensing of it and 
issuing the--yes, you can come, or no, you shouldn't, and here 
is why. Somebody else needs to do that, but----
    Mr. Peacock. Right.
    Ms. Capps. [continuing] how does the mayor, does he have 
access to your data? Is someone informing him----
    Mr. Peacock. Yes, now this----
    Ms. Capps. [continuing] on a regular basis?
    Mr. Peacock. [continuing] is the zip code assessment group 
Henry was referring to in his testimony. There is a group of 
individuals down in New Orleans, Federal officials who, by zip 
code, are assessing--it is currently six key areas; it is going 
to be 13 key areas. And that information is provided to Thad 
Allen, who then provides it to the mayor and to the state.
    Ms. Capps. And advises them, so that there is one, so there 
shouldn't be confusing information?
    Mr. Peacock. There should not be confusing information.
    Ms. Capps. They should know to whom they can go and that 
they can trust that this has been fully vetted information----
    Mr. Peacock. That is right. In fact----
    Ms. Capps. [continuing] and substantiated.
    Mr. Peacock. [continuing] we make sure any of the 
information we provide goes through a rather rigorous, as Henry 
would say, a quality assurance and quality control process.
    Ms. Capps. Okay. Now, I guess one final question, and this 
isn't your job, but we need to find out how the public knows 
how to do this, how they, and all of us have to, even though we 
are just in the background, we have to take responsibility that 
these affects people's lives.
    Mr. Peacock. Right.
    Ms. Capps. And so, how is it getting to the public?
    Mr. Peacock. Well, I can only speak for the Federal level--
and Emily, if you can show just the EPA advisories--I mean, 
these are a list of advisories, announcements, EPA has done, 
often in coordination with CDC, and once again, we tend to use 
radio, we tend to use flyers, we have gone door to door. Of 
course, we have a website, but a lot of people don't have 
access to it.
    Ms. Capps. And you are doing that part----
    Mr. Peacock. We do have a crosslink, for instance, to CDC. 
All of these advisories, for instance, are on our website, and 
we have provided the information through, once again, press 
announcements and radio.
    Ms. Capps. So you are telling citizens what to do.
    Mr. Peacock. Yes, that is exactly right.
    Ms. Capps. But you just said you don't.
    Mr. Peacock. No, we are telling people, for instance, if 
someone is going to go into their home, we provide caution, in 
terms of what they should look out for in their home. But in 
terms of defining whether or not it is safe to go into a 
particular house or neighborhood, we are not going to be doing 
that.
    Ms. Capps. Boy. Somebody is going to have to do that.
    Mr. Peacock. Well, the only person who can lift an 
evacuation is the person who has the power to put it in place, 
and that is the mayor, and perhaps the Governor. I know less 
about the State authorities.
    Mr. Gillmor. The gentleman from Pennsylvania.
    Mr. Murphy. Thank you, Mr. Chairman, and I would like to 
thank the panel for being here on this important issue.
    I want to do a little follow-up on the question the 
gentlelady from California was just asking. And that has to do 
with, when someone is returning to their home, what would be 
the checklist that you advise people to be aware of, what 
they--let us say, just want to go there to get some belongings, 
at least. What checklist do you want them to keep in mind as 
they are approaching that, whoever would--Dr. Falk?
    Mr. Falk. Let me start by saying that I think for all of 
us, in addition to headquarters people that are involved, we 
have a number of staff who are in New Orleans, who are in the 
State of Louisiana, who are trying to work closely with the 
Louisiana public health officials and with the New Orleans 
public health officials in those areas.
    So as they approach this on an area-by-area, neighborhood-
by-neighborhood, or zip-code approach, specific guidance is 
developed for people going in, and I think that the staff that 
we have in the field are trying to work closely with the local 
officials in preparing that. So there is guidance that is given 
out to people as they come back to those areas.
    Mr. Murphy. That is not something that you would 
necessarily recommend, but let the locals give that guidance 
onsite?
    Mr. Falk. Well, I think we are trying hard to make sure 
that the local people will give that guidance on the site, but 
we are trying to work with them, and provide the----
    Mr. Peacock. Yes. The mayor's plan for reoccupation, which 
was issued, I think, late yesterday, includes a long list, it 
is really, you can look at it, it is a checklist of things for 
citizens to be careful of. Make sure they bring water, for 
instance, things like that, and that was informed by 
information provided by the Federal partners and the state.
    Mr. Murphy. Well, then let me step back, and then, say, 
from your standpoint, so you are not--let us take it from a 
broader perspective. With all that standing water in the region 
with chemicals in it, what chemicals are we seeing there? Is 
there any evidence of problems with exposure to that?
    Mr. Peacock. The main problem, particularly with the 
standing floodwaters, is the bacterial contamination, E. coli 
and coliforms, which are indicative of what you would find in 
raw sewage. It is a serious problem, and people should avoid 
the water if they can. There have been, in particular places, 
and once again, these are the floodwater sampling sites, where 
there have been elevated levels of chemicals, and in some, I 
think we have detected, of the over 100 chemicals, 47. In a 
number of cases, lead, for instance, and arsenic, both have 
exceeded drinking water assessment levels. Now, those levels 
are set for someone who is drinking a fair amount of water 
every day, and so, definitely nobody should be drinking the 
floodwater. What the long-term effects of those chemicals are 
is more of a question mark, but the main point is no one should 
be in contact with the floodwater, particularly because of the 
possibility of bacterial infection. Would you agree with that, 
Dr. Falk?
    Mr. Falk. Yes, and in addition, I think, for example, in 
New Orleans, the health department itself has been severely 
impacted by this whole disaster, and there is a lot of support 
coming from CDC, Health and Human Services, EPA, and----
    Mr. Murphy. Do we have sufficient support to monitor? No?
    Mr. Falk. Sufficient support on the field, and to help 
assist in various ways. So there are occupational safety and 
health experts, say, from NIOSH and CDC, who are helping 
prepare guidance for workers and emergency responders there.
    Mr. Murphy. Are you also looking for particular groups who 
may be at risk, pregnant mother, the elderly, people with 
certain disease entities?
    Mr. Falk. Yes, and I think in the first wave, we are, you 
know, the mayor's guidance has been children and elderly are 
probably not appropriate for the first people who are going in, 
and so, I think that is probably very critical. You know, in a 
sense, if there is guidance, for example, that we don't have 
potable water, people can't use the water in their tap for 
drinking. They have to use bottled water, boiled water, and so 
on, you can't expect small children, maybe elderly, who might 
be confused, to follow. So I think you have to tailor these 
recommendations, and I think we have all been trying to work 
with the local officials in developing that kind of guidance.
    Mr. Murphy. Let me ask one other area, and that is, as 
people go back to their homes, and even though there are 
standing floodwaters, but as those subside, mold in the houses. 
What sort of risks do we see with that?
    Mr. Falk. Well, mold is a very critical area, particularly 
in New Orleans, but I am sure in many other areas along the 
Gulf Coast. Homes that have had standing water for some period 
of time, there is extensive amounts of mold, and far greater 
than we have probably seen in most any other situation. So, I 
think the guidance, you know, for dealing with mold is very 
critical, in terms of protection of skin surfaces, in terms of 
respiratory protection. We just yesterday did a teleconference, 
you know, for guidance on that. We have been working very much 
with the local officials on assuring available information for 
people as they enter the city on the appropriate ways to work 
with mold, and when it is not appropriate to do it, and if they 
are exposed to the mold, how they should do it, and the kind of 
respiratory protection they should have.
    So, I think that is really very critical. And we are also 
very concerned that people who have preexisting respiratory 
disease or asthma not be the persons doing the primary work on 
mold. There are people who will certainly be more sensitive to 
the mold, that really need extra precautions. So, we try to 
convey that kind of information, how to approach those areas, 
who should and who should not, what kind of protection, gloves, 
skin covering, and respiratory protection for people who do do 
this, and for homeowners who are going back and then, 
particularly, for emergency responders or construction workers 
on the occupationsite, who may be doing far more extensive work 
with the mold. So that is a very critical point for us, in 
terms of developing guidance, that we are doing together with 
the local officials.
    Mr. Murphy. Thank you, Doctor, and thank you, Mr. Chairman.
    Mr. Gillmor. Thank you, and that will conclude our first 
panel, and once again, I want to express my appreciation to all 
of you for your help. Thank you.
    We will now proceed to our second panel, and to begin that, 
I will be turning the Chair over to the gentleman from New 
Hampshire, Mr. Bass, and we will get underway.
    Mr. Bass [presiding]. Good afternoon. We are pleased to 
have the second panel here, and the following individuals are 
going to be testifying before the committee.
    Ms. Karen Gautreaux, who is up on the video in front of us 
here, Deputy Secretary of the Louisiana Department of 
Environmental Quality in Baton Rouge. To her left on the 
screen, but obviously not physically, Mr. William Rutledge, who 
is the mayor of the city of Pontotoc. Is that correct? On 
behalf of the National Rural Water Association, Dr. Stephen 
Ragone, Director of Science and Technology, accompanied by Dr. 
John H. Schnieders, Member of the National Ground Water 
Association. Mr. Erik Olson, in the center here, Senior 
Attorney of the Natural Resources Defense Council. Ms. Beverly 
Wright, Executive Director of Xavier University of Louisiana, 
and Mr. Robert R. M. Verchick, Gauthier-St. Martin Eminent 
Scholar, Chair in Environmental Law, Loyola University New 
Orleans. Is that you in the screen, sir? The screen on the 
left, are you Mr. Rutledge? Okay. Good enough. Thank you.
    Mr. Rutledge. Yes, sir. Right here.
    Mr. Bass. I saw the Tulane sign behind you. I want to 
advise members that we are expecting votes around 3:45 this 
afternoon, so we will proceed as quickly as possible with our 
testimony. I hope that you will confine your remarks to 5 
minutes, and submit your record, which we will accept by 
unanimous consent, your full testimony for the record.
    We will begin with Karen Gautreaux. Would you please 
proceed?

 STATEMENTS OF KAREN K. GAUTREAUX, DEPUTY SECRETARY, LOUISIANA 
 DEPARTMENT OF ENVIRONMENTAL QUALITY; WILLIAM RUTLEDGE, MAYOR, 
      CITY OF PONTOTOC, ON BEHALF OF NATIONAL RURAL WATER 
    ASSOCIATION; STEPHEN E. RAGONE, DIRECTOR OF SCIENCE AND 
TECHNOLOGY, ACCOMPANIED BY JOHN H. SCHNIEDERS, MEMBER, NATIONAL 
   GROUND WATER ASSOCIATION; ERIK D. OLSON, SENIOR ATTORNEY, 
 NATURAL RESOURCES DEFENSE COUNCIL; BEVERLY WRIGHT, EXECUTIVE 
DIRECTOR, XAVIER UNIVERSITY OF LOUISIANA, DEEP SOUTH CENTER FOR 
 ENVIRONMENTAL JUSTICE; AND ROBERT R.M. VERCHICK, GAUTHIER-ST. 
  MARTIN EMINENT SCHOLAR, CHAIR IN ENVIRONMENTAL LAW, LOYOLA 
                    UNIVERSITY, NEW ORLEANS

    Ms. Gautreaux. Thank you, Mr. Bass, and good afternoon, Mr. 
Chairman and ladies and gentlemen of the subcommittee. I am 
Karen Gautreaux, Deputy Secretary of the Louisiana Department 
of Environmental Quality, and I want to thank you all very much 
for allowing us to participate in this hearing, and especially 
for allowing us to do so by teleconference.
    Exactly 1 month ago today, Hurricane Katrina made landfall 
in Buras, Louisiana, and forever changed the physical, 
cultural, and economic landscape of our state, as well as 
delivering severe blows to our neighbors to the east in 
Mississippi, Alabama, and Florida. Last Sunday, Hurricane Rita 
made landfall in the western side of the State in Cameron 
Parish, severely impacting that portion of our coast, as well 
as areas that had previously escaped the wrath of Katrina. Our 
neighbors in Texas who had been kind enough to send 24 members 
of a strike team to assist us had to return home and continue 
their response efforts in their own state. No part of the Gulf 
Coast has remained untouched this hurricane season.
    Today, I will limit my remarks to our Hurricane Katrina 
assessment and response efforts to date, as this is the focus 
of your hearing. First, I would like to share with you an 
observation about Hurricane Katrina that has been repeated by 
experienced emergency responders from our staff and those of 
other State and Federal agency partners. Simply, they have seen 
nothing like it. The magnitude and diversity of the 
environmental challenges presented by this storm have not been 
seen before in the United States. I will attempt to give a 
brief overview of those challenges, how they are being 
addressed, and actions anticipated in the future.
    One of the first things our department and our agency 
partners did in order to best position themselves to assess and 
respond to storm impacts was to establish and house a Unified 
Command Center at LDEQ headquarters in Baton Rouge. This center 
includes representatives from our staff, a large contingency 
from the U.S. EPA, the Army Corps of Engineers, the Coast 
Guard, U.S. Geological Survey, NOAA, the Texas Commission on 
Environmental Quality, the Louisiana Oil Spill Coordinators 
Office, and the Louisiana Department of Health and Hospitals. 
Local government has also been involved. These representatives 
are coordinating emergency response, hazard assessment, and 
environmental sampling and planning activities. We better 
recognize the value of that coordination in the degree of 
readiness that we have experienced in response to Hurricane 
Rita.
    One of the key differences between the aftermath of Katrina 
and other hurricanes was the continued presence of floodwaters 
in the storm-impacted area. Because much of the area in New 
Orleans is below sea level, water that falls or enters the city 
must evaporate or be pumped out. As a result of the breaches 
and overtopping of the flood protection systems, namely 
floodwalls and levees, approximately 80 percent of the New 
Orleans area and some of Jefferson Parish remained flooded 
until the failed parts of the flood protection system could be 
patched and those areas pumped out. This led to the floodwater 
bowl that you may have heard referred to in the lowest 
elevations of the city, where water sat for weeks. Hurricane 
Rita re-flooded the areas that had most recently been 
dewatered. In St. Bernard and Plaquemines Parishes, low-lying 
areas also suffered from overtopping and breaches of the levee 
system, leaving them basically at sea level and subject to the 
tides until the levees could be repaired and the dewatered, now 
for the second time.
    The areas north of Lake Pontchartrain experienced high 
winds and flooding, and although the damage was significant, in 
general, those areas are recovering more quickly than Southeast 
Louisiana.
    I will briefly go through a few of the results of the first 
month's assessment and response activities--again this is the 
first month--and mention issues that are being addressed, and 
those that will continue to be priorities for the future.
    First, the waters in the bowl in Orleans and Jefferson 
Parishes: this water flooded homes, businesses, streets, 
wastewater treatment facilities, and drinking water systems. 
Initially DEQ and many of our agency partners, especially EPA, 
focused on search and rescue. As people were trapped by the 
floodwaters, and search and rescue efforts were hampered by 
access, dewatering the area was an urgent public health and 
safety priority. The decision was made to pump the floodwaters 
to Lake Pontchartrain. EPA and DEQ coordinated sampling 
efforts, excuse me, to characterize the floodwaters, and 
measure the potential short- and long-term environmental 
impacts to the lake. EPA sampled the floodwaters, and as DEQ 
had a good deal of historical water-quality information on Lake 
Pontchartrain, we took responsibility for sampling in the lake 
and in two canals that are sites in the State's ambient water 
quality program. USGS is currently sampling for bacteria in the 
lake, and all the results are being shared by the agencies and 
are available on the Internet.
    To date, the sampling has revealed that the floodwaters had 
characteristics common to most urban storm water events, with 
contaminants of concern being high levels of fecal coliform 
bacteria and levels of lead that would be a health concern if a 
child were to ingest a liter of the floodwater a day for 6 
years every day. These results are not surprising in an area 
with a flooded wastewater treatment system, submerged vehicles 
with lead batteries, and older flooded structures with lead 
paint. I would like to mention that Lake Pontchartrain is not a 
drinking water source for any community; it is a salty upstream 
lake.
    Early results of the lake sampling indicate common water 
quality impacts caused by vegetative debris thrown into the 
water by hurricane winds and storm surge. This has caused low 
dissolved oxygen and fish killed in Northshore streams feeding 
into Lake Pontchartrain. Fecal coliform bacteria counts are 
slightly elevated in some of these areas as a result of flooded 
sewage treatment facilities, flooding of urban sewage lines, 
and flooding of pastures.
    Organic compound sampling and analysis has shown mostly 
non-detect results. Where detected, concentrations have not 
exceeded water quality standards. Metals have been below water 
quality standards, with the exception of one sample taken from 
a New Orleans drainage canal. In general, Lake Pontchartrain is 
maintaining good water quality, and the impacts to the lake 
have been minimal. We are hopeful that the lake will be back to 
normal within months, not years, but we will be monitoring for 
years to come to ensure that is the case. More detail has been 
provided here to particularly address the concern about the so-
called toxic soup being dumped into the lake. The floodwaters 
were unhealthy, but to date, results show this to be an 
inaccurate and alarmist characterization.
    Initial sediment samples in the flooded areas indicate that 
there are no acute health issues that would be expected from 
the concentration of compounds to date. A summary of the 
sediment sampling results is included for the record, and 
sample results are available on the EPA website.
    The results of 23 air toxic and particulate canister 
samples in the storm-impacted area have also been encouraging. 
One sample taken near a fire in New Orleans contained 56 parts 
per billion benzene, the ATSDR minimum risk level is 50. Three 
canisters in St. Bernard Parish showed slightly elevated levels 
of benzene and some other related pollutants, but none exceeded 
the ATSDR/MRL screening levels in the hydrocarbon profile 
resembled gasoline and diesel. The sample was taken in an area 
impacted by a spill. A summary of the air sampling results is 
also attached to your record.
    Of great concern are the impacts of a number of oil spills 
resulting from Katrina. Currently, five major and five minor 
oil spills are the subject of response efforts. It is estimated 
that over 6.5 million gallons of oil have been released into 
the environment, with more spills expected as pipelines and 
facilities resume operations. Over 2.5 million gallons of oil 
have been recovered as of September 28, with the Coast Guard 
and LOSCO being the lead agencies in that effort.
    One major priority is the reestablishment of the large 
wastewater treatment plants. Out of the 25 in this area, five 
are now inoperable. The Orleans Eastbank System, alone, was 
capable of treating 144 million gallons of wastewater per day, 
so this is a huge loss in capacity. Four other major facilities 
that are currently inoperable are located in St. Tammany, St. 
Bernard, and Plaquemines Parishes. One of the big challenges of 
restoring these facilities is rebuilding the infrastructure 
associated with them, including miles of conveyances and 
numerous lift stations.
    Mr. Bass. Ms. Gautreaux.
    Ms. Gautreaux. The health risks associated with untreated 
water and wastewater----
    Mr. Bass. If you could summarize, that would be great.
    Ms. Gautreaux. Okay. Well, let me just go into----
    Mr. Bass. Sorry.
    Ms. Gautreaux. [continuing] our current remaining 
challenges. I will summarize. I apologize. But one of our big 
remaining challenges are railcars. We have between 1,000 and 
5,000 railcars that were displaced or we are unable to locate, 
because of the storm. We ended up issuing administrative orders 
and are planning to review that process, so that we are more 
prepared to act in the event of another incident like this.
    There are about 1,000 potentially impacted underground 
storage tanks in the area, that will probably cost between $39 
million and $97 million to repair and remediate.
    And finally, the last challenge, but definitely not least 
is the management of tons of debris, especially with the 
social, legal, and personal issues associated with the 
management of debris that have been referenced so far. To just 
to give you an idea of the volume, normally, the Orleans Parish 
Landfill disposes of about 1 million tons per year. In that 
parish alone, the estimate is 12 million tons due to the storm.
    We are working with local governments and our Federal 
partners to try to get a debris management plan, and exercise 
it, that matches the challenge. I wanted to particularly thank 
EPA for the ability to prioritize our response efforts, such as 
oversight, the ASPECT plane equipment that allowed us to pick 
up hydrocarbons that are invisible to the naked eye, and it 
helped us prioritize our response. So in general, we certainly 
are still looking. We are now moving into the serious 
assessment and response beyond the immediate storm phase, and 
we are very grateful to our partners, and we look forward to 
working with you and your committee, and I just guess one of 
the last things that I would like to suggest to the committee 
is that the coastal ecosystem that protects many of the issue 
areas over which your subcommittee has jurisdiction, has been 
severely damaged, and I hope that Congress will commit to the 
rehabilitation of this fragile system soon.
    And with that, I will apologize for running over, perhaps, 
and ask that my comments be put into the record, and I will be 
available for questions.
    [The prepared statement of Karen K. Gautreaux follows:]
 Prepared Statement of Karen K. Gautreaux, Deputy Secretary, Louisiana 
                  Department of Environmental Quality
    Good afternoon, Mr. Chair and Ladies and Gentlemen of the 
Committee. I'm Karen Gautreaux, Deputy Secretary of the Louisiana 
Department of Environmental Quality. Thank you very much for allowing 
us to participate in this hearing, and especially for allowing us to do 
so by teleconference.
    Exactly one month ago today, Hurricane Katrina made landfall in 
Buras, Louisiana, and forever changed the physical, cultural, and 
economic landscape of our state, as well as delivering severe blows to 
our neighbors to the East in Mississippi, Alabama and Florida. Last 
Sunday, Hurricane Rita made landfall in the western side of the state 
in Cameron Parish, severely impacting that portion of our coast, as 
well as areas that had previously escaped the wrath of Katrina. Our 
neighbors in Texas who had sent 24 members of a ``strike team'' to 
assist us, had to return home and continue their response efforts in 
their own state. No part of the Gulf coast has remained untouched this 
hurricane season.
    Today I will limit my remarks to our Hurricane Katrina assessment 
and response efforts to date, as this is the focus of your hearing.
    First, I'd like to share with you an observation about Hurricane 
Katrina that has been repeated by experienced emergency responders from 
our staff and those of other state and federal agency partners. Simply, 
``they have seen nothing like it.'' The magnitude and diversity of the 
environmental challenges presented by this storm have not been seen 
before in the United States. I will attempt to give a brief overview of 
those challenges, how they are being addressed, and actions anticipated 
in the future.
    One of first things our department and our agency partners did in 
order to best position ourselves to assess and respond to storm impacts 
was to establish and house a Unified Command Center at LDEQ 
headquarters in Baton Rouge. The center includes representatives from 
LDEQ, the U.S. Environmental Protection Agency, (EPA), the U.S. Army 
Corps of Engineers (Corps), the U.S. Coast Guard (Coast Guard), the 
U.S. Geological Survey (USGS), the National Oceanic and Atmospheric 
Agency (NOAA), the Texas Commission on Environmental Quality (TCEQ), 
the Louisiana Oil Spill Coordinators Office (LOSCO), and the Louisiana 
Department of Health and Hospitals (LDHH). Local government has also 
been present at the Center. These representatives are coordinating 
emergency response, hazard assessment, and environmental sampling and 
planning activities. We better recognize the value of that coordination 
in the degree of readiness that we have experienced in response to 
Hurricane Rita.
    One of the key differences between the aftermath of Katrina and 
other hurricanes was the continued presence of floodwaters in the storm 
impact area. Because much of the area in New Orleans is below sea 
level, water that falls or enters the city must evaporate or be pumped 
out. As a result of the breaches and overtopping of the flood 
protection systems, namely floodwalls and levees, approximately 80 
percent of the New Orleans area and some of Jefferson Parish remained 
flooded until the failed parts of the flood protection system could be 
patched and those areas pumped out. This lead to the floodwater 
``bowl'' in the lowest elevations of the city where water sat for 
weeks. Hurricane Rita re-flooded areas that had most recently been 
dewatered. In St. Bernard and Plaquemines Parishes, low-lying areas 
also suffered from overtopping and breaches of the levee system, 
leaving them basically at sea level and subject to the tides until the 
levees could be repaired and the area dewatered, now for the second 
time.
    The areas north of Lake Pontchartrain experienced high winds and 
flooding. Although the damage was significant, in general those areas 
are recovering more quickly than Southeast Louisiana.
    I'll briefly go through a few the results of the first month's 
assessment and response activities, and mention issues that are being 
addressed, and those that will continue to be priorities for the 
future.
    First, the waters in the ``bowl'' in Orleans and Jefferson 
Parishes. This water flooded homes, businesses, streets, wastewater 
treatment facilities, drinking water systems. Initially DEQ and many of 
our agency partners, including EPA, focused on search and rescue. As 
people were trapped by the floodwaters and search and rescue efforts 
were hampered by access, dewatering the area was an urgent public 
health and safety priority. The decision was made to pump the 
floodwaters to Lake Pontchartrain. EPA and DEQ coordinated sampling 
efforts to characterize the floodwaters and measure the potential short 
and long-term environmental impacts to the lake. EPA sampled the 
floodwaters, and as DEQ had a good deal of historical water quality 
information on Lake Pontchartrain, we took responsibility for sampling 
in the lake and in two canals that are sites in the state's ambient 
water quality monitoring network. USGS is currently sampling for 
bacteria in the Lake. All results are being shared by the agencies and 
are available on the internet.
    To date the sampling has revealed that the floodwaters had 
characteristics common to most urban storm water events, with the 
contaminants of concern being high levels of fecal coliform bacteria 
and levels of lead that would be a health concern if a child were to 
ingest a liter of the floodwater a day for 6 years. These results are 
not surprising in an area with a flooded wastewater treatment system, 
submerged vehicles with lead batteries, and older flooded structures 
with lead paint.
    Early results of lake sampling indicate common water quality 
impacts caused by vegetation debris thrown into the water by hurricane 
winds and storm surge. This has caused low dissolved oxygen and fish 
kills in Northshore streams feeding into Lake Pontchartrain. Fecal 
coliform bacteria counts are slightly elevated in some areas as a 
result of flooded sewage treatment facilities, flooding of urban sewage 
lines, and flooding of pastures.
    Organic compound sampling and analysis has shown mostly non-detect 
results. Where detected, concentrations have not exceeded water quality 
standards. Metals have been below water quality standards with the 
exception of one sample taken from a New Orleans drainage canal. In 
general Lake Pontchartrain is maintaining good water quality, and the 
impacts to date to the Lake have been minimal. We are hopeful that the 
lake will be back to normal within months, not years, but we will be 
monitoring for years to ensure that is the case. More detail has been 
provided here to particularly address the concern about the so called 
``toxic soup'' being dumped into the Lake. To date our results show 
this to be an inaccurate and alarmist characterization.
    Initial sediment samples in the flooded areas indicate that there 
are no acute health issues that would be expected from the 
concentrations of compounds observed to date. A summary of the sediment 
sampling results is included for the record, and sample results are 
available on the EPA web site.
    The results of twenty three air toxic and particulate canister 
samples in the storm impact area have also been encouraging. One sample 
taken near a fire in New Orleans contained 56 ppb of benzene, the ATSDR 
MRL is 50. Three canisters in St. Bernard showed slightly elevated 
levels of benzene and some other related pollutants, but none exceeded 
the ATSDR MRL screening levels, and the hydrocarbon profile resembled 
gasoline and diesel. The sample was taken in an area impacted by a 
spill. A summary of the air sampling results in attached.
    Of great concern are the impacts of a number of oil spills 
resulting from Katrina. Currently 5 major and 5 minor oil spills are 
the subject of response efforts. It is estimated that over 6.5 million 
gallons of oil have been released into the environment, with more 
spills expected as pipelines and facilities resume operations. Over 2.5 
million gallons of oil have been recovered as of September 28, with the 
Coast Guard and LOSCO being the lead agencies in that effort.
    One major priority is the reestablishment of drinking water and 
wastewater treatment systems. Five of the large waste water treatment 
systems are now inoperable. The Orleans Eastbank system alone was 
capable of treating 144,000,000 gallons of wastewater per day, so this 
is a huge loss in capacity. Four other major facilities that are 
currently inoperable are located in St. Tammany, St. Bernard and 
Plaquemines Parishes. One of the big challenges of restoring these 
facilities is rebuilding the infrastructure associated with them, 
including miles of conveyances and numerous lift stations. The health 
risks associated with untreated water and wastewater make restoring 
these services a top priority. The Corps is working with local 
government, LDEQ and LDHH, and other federal agencies to restore these 
functions as quickly as possible.
    Another remaining challenge is locating, assessing and addressing 
between one and five thousand railroad cars that could have been 
displaced by Katrina. LDEQ had difficulty in quickly obtaining 
sufficient information from railroad companies to determine potential 
threats to public safety and the appropriate response. As a result, 
LDEQ issued 17 administrative orders demanding that information. While 
more information has since been provided to us, the result of delays in 
getting that information could have been tragic. LDEQ is continuing 
efforts to locate and assess displaced railcars, as well as considering 
how to improve this process in the future.
    There are about 1000 potentially impacted underground storage tanks 
(USTs) in the storm affected areas, with potential costs of between 
$39,000,000 and $97,000,000 to repair and remediate underground storage 
tanks. Final costs will depend upon the level of damage to sites from 
the storm, as well as disrupted efforts and additional damage at sites 
that were being remediated. LDEQ is continuing reconnaissance efforts 
in the storm impact areas, and has developed a draft UST Evaluation 
Plan to help UST owners and operators identify and address storm 
related problems.
    Finally, not the last challenge by any means, but probably the most 
daunting task of all, the management of the tons of debris in the storm 
impact area. Current estimates of the amount of woody waste and 
construction and demolition debris are about 22,000,000 tons. To give 
an appreciation of the volume, the landfill used by Orleans Parish 
disposed of about 1 million tons in an entire year, and in that parish 
alone the estimate is 12,000,000 tons. The total does not include 
approximately 350,000 vehicles from which fuel tanks, oil, batteries 
and mercury switches must be removed, about 60,000 boats. OF The140,000 
to 160,000 homes likely include materials that have to be segregated 
prior to disposal.
    In addition to the sheer logistics challenge, much of this total is 
or was the personal property of someone who may or may not be with us 
anymore, or may or may not be able to come back to Louisiana. The 
property may have been left behind in an evacuation with an intention 
to return, it might or might not be insured, and perhaps is the 
property of a person who is now a thousand miles away. There are a 
myriad of issues to be addressed, and a plan that balances public 
safety, the environment, and legal and social considerations will have 
to be the ultimate goal. A FEMA debris management team, of which LDEQ 
is a partner has developed a debris management plan. LDEQ has 
responsibility for technical support primarily in evaluating sites that 
have been identified by local government for debris management. DEQ is 
also responsible for ensuring that disposal is in accordance with 
existing regulatory requirements and emergency declaration 
requirements. Local government will play a large role in the management 
of debris, particularly with regard to recommending sites and protocols 
for this effort.
    EPA is the lead for the collection of hazardous wastes, both 
orphaned containers and household materials. Hazardous waste 
collections have been on-going on the Northshore, and collections will 
begin soon in the other impacted areas.
    With regard to RCRA or hazardous wastes, our initial efforts have 
been to identify permitted facilities, our large quantity generators, 
and the Tier II facilities. To date, we've contacted facilities to 
determine which are operating, in the process of re-opening, or shut 
down, and will determine what future actions need to take place.
    One of the benefits of our response efforts has been the use of 
fairly new technologies that allowed early and effective reconnaissance 
when access to sites was an issue. Access continues to be an issue in 
some areas. EPA arranged for overflights with a helicopter equipped 
with a HAWK camera that can detect hydrocarbons that are invisible to 
the eye. Leaks that might otherwise go unnoticed can be detected and 
response prioritized. Similarly, the EPA ASPECT plane could detect 
compounds from the air, which was especially useful with fires in 
determining what compounds were being emitted and the appropriate 
response. EPA also has provided two TAGA vans with house very 
sophisticated air monitoring instruments. We shared this information 
with other response agencies, and this information was very valuable in 
the days immediately following the storm.
    It is very difficult to encapsulate the environmental issues 
associated with Katrina. To help in that regard, I have also provided 
the committee with a copy of the preliminary estimates of costs for 
response, assessment and recovery from environmental damages from 
Katrina. This was an estimate we were asked to provide to our 
Congressional Delegation within a week or so after the storm. We are 
currently reviewing those numbers in light of our experience, and would 
be pleased to forward to the committee a revised version when that work 
is complete. Besides the numbers, I think one of the values of the 
document is the systematic identification of issues, that go beyond my 
time for testimony.
    The only other thing I'd like to add that we did not address in our 
costs estimates document, but are very much concerned about, is the 
dramatic loss of coastal habitat from the winds and waves of Katrina. 
We believe that the blow sustained by this fragile ecosystem will 
likely be among the greatest negative long term impacts to our state 
and nation, and are hopeful that efforts to rehabilitate this system 
will commence soon. We realize this is out of the committee's direct 
jurisdiction, but please be aware that this system provides protection 
in areas that are directly under your jurisdiction.
    With that I'll thank you again for allowing the state of Louisiana 
to participate in your hearing today, and look forward to your 
questions and comments.

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

    Mr. Bass. Your comments will be made a part of the record. 
I thank you for your very important testimony. I understand 
that you have a lot to say, and we will review it very 
carefully. I appreciate your testimony. Mr. Rutledge.

                   STATEMENT OF BILL RUTLEDGE

    Mr. Rutledge. Thank you, Mr. Chairman and Mr. Bass and the 
committee. First off, I would like to introduce myself. My name 
is Bill Rutledge. I am the mayor with the city of Pontotoc, in 
the northern part of the state. The population of my small town 
is 5,253, but what makes this so close to home, back in 2001, 
we had a devastating tornado that came through our community. 
It destroyed 10 percent of our town. By saying that, one of the 
sister cities that we have, that we started in the State of 
Mississippi through the Municipal League is adopt a city 
program. One of those cities, the city of Pontotoc, along with 
other towns have adopted Bay St. Louis. Unfortunately, my mayor 
brother couldn't be here with us today, Mayor Eddie Favre, but 
Mayor Favre wanted me to share with you, his town, which is 
made up of 8,200 people, actually 5,000 of those families' 
homes were on the Bay and 60 percent of those were totally 
destroyed, most of them with the 25 foot tidal wave, or surge, 
or whatever you want to call it.
    Saying all this, I want to bring something very clear to 
you, that a number of comments have been made about the local 
government, and who is in charge, or what should we do. The one 
thing that I want the people to realize is for the first 2 or 3 
days, you have got to depend on your local people. And we found 
that out very quickly, and that is why one of the things that 
the small cities in north Mississippi did, we strictly went 
past the red tape, crossed the line, went straight to the 
officials of those communities ourselves to find out what their 
grocery needs were, buster pumps or chlorinators, backhoe tires 
for backhoes, water, food, whatever they needed, and what we 
did collectively, of all of north Mississippi, we provided 
those supplies to bring down.
    But another thing that we need to make clear, though, that 
we have got so many good resources in the State of Mississippi 
that how we work together, and one of those that I want to 
bring attention to is the Rural Water Association. The 
technical assistant program, which actually brings in and helps 
evaluate with the local officials. We know what the problems 
are, we just need to know where to get the parts, and have the 
resources to go out there and get those parts. Rural Water, the 
Operators Association in other towns around is actually, we 
came first response with them.
    I can't say enough good things about the military. The 
military did an outstanding job. In fact, it really helped us 
coordinate all of the efforts out there, but one of the 
problems that we run into, it seemed like there was so much 
paperwork or so many strings attached to everything that we are 
having to wait on somebody to tell us this is what we can do. 
Well, I can promise you small communities, we know what to do, 
we just need to know how where to get the supplies from and you 
know, how we are going to get them to us, and again, another 
source of resources that we had was the local churches, how 
they came together, how they provided the supplies and the 
needs that they have, and without the churches feeding them, 
bringing in the materials and stuff, and supplies, we don't 
know.
    Right now, kind of give you some background on where the 
State of Mississippi is right now, during the hurricane that 
hit, 97 percent of the 43 counties, the wastewater systems were 
out of operation. Today, as of about 2 hours ago, there is only 
one public wastewater facility that is not in operation. Now, I 
am not saying all of them are 100 percent, but I am saying that 
they are treating our public waste. Out of the 1,369 water 
systems, 486 were affected. Today, 82 of those systems are 
still under a rural water notice, but most of those are on a 
voluntary, so one of the things that we wanted to make sure was 
just like you all are, is to make sure we got treated, good 
quality drinking water, and a place to discharge.
    And like with Bay St. Louis, instead of discharging into 
the bay or into the channels, they have a backup system where 
they can discharge into a lagoon, which is actually held until 
it can be discharged in their regional wastewater facilities. 
But again, I would like to only suggest that maybe--is you all 
meeting, is you all come up with ideas and selections. We need 
to never forget about the local officials, and the local folks 
there, because having strangers coming in and making decisions, 
you know, the people are going to be looking for the mayors. 
They will be looking for their aldermen or their supervisors, 
because that is who they trust. That is who lives there.
    And I want to thank you for allowing me to be here. I thank 
you for all your prayers and your comments about the coastal 
area, and we do need those.
    [The prepared statement of Bill Rutledge follows:]
 Prepared Statement of Mayor Bill Rutledge, City of Pontotoc and Mayor 
  Eddie Favre, City of Bay St. Louis on behalf of the National Rural 
                           Water Association
    [Note: This testimony was completed in one day, while we 
concurrently operated a full-time relief operation, and we ask the 
Committee for all deference in our ability to document and assess the 
situation and make our points. We believe we can appear before the 
Committee without compromising our relief operations and appreciate the 
opportunity to testify.]
Background of Mayor Rutledge
    Mr. Chairman, my name is Bill Rutledge; I have been the mayor of 
the City of Pontotoc, Mississippi, since 1997 (currently in my third 
term). Pontotoc is the northern part of the state and has a population 
of 5,200. I am vice president of the Mississippi Municipal League, one 
the board of directors of the Mississippi Rural Water Association, and 
a member of the Northern Mississippi Mayors Association. My background 
includes 27 years of military service, including the National Guard. 
Before becoming mayor, I was a Circuit Rider, a job that required me to 
travel to over 500 drinking water supplies in the state and assist 
those communities with operation, maintenance, and compliance with 
their drinking water systems. My city has had firsthand experience with 
disasters. In 2001, a tornado hit my community (and county) and 
devastated us; it wiped out 10% of our downtown area, killed six 
citizens, cut a swath a mile wide for 23 miles across the county, and 
destroyed 350 homes (not counting businesses).
Objective of My Comments
    I hope to provide the Committee with the following key points in my 
comments:

 Illustration of what many communities experienced that were hit by 
        hurricane Katrina.
 Explanation of what communities face in recovering from Katrina's 
        impact.
 An attempt to provide a status of recovery of the communities in the 
        region.
 Explanation of what the local communities see as the public health 
        and environmental conditions of the region, and the progress 
        that is being made on that front.
 Our (from the local perspective) initial thoughts on what has worked 
        for recovery and why, and what we think federal policy makers 
        should know in order to be better able to enhance federal 
        emergency policy (both preparedness and response).
    For much of my testimony, I will use the example of the City of Bay 
St. Louis, Mississippi, to illustrate my points and give a clear 
example of the situation. Bay St. Louis was one of the harder hit 
communities on the Gulf Coast. My community has been working with Bay 
St. Louis on response and recovery from the initial hours after the 
hurricane hit. Through our state municipal association, our cities have 
been paired up to provide this assistance in our ``Adopt a City'' 
initiative which has been a key effort to aide Bay St. Louis and which 
I will expand upon later. I am joined here today by my friend and 
colleague, Eddie Favre, who is the mayor of Bay St. Louis. I will read 
a joint statement to the Committee and both of us are happy to answer 
any questions.
    A key objective of both of us, here today, is not to gratuitously 
criticize relief operations and/or federal agencies. We don't think 
that would be of any service to our communities. We are interested 
detailing what did work and providing the Committee with a local 
perspective of public health and environmental conditions.
Background of Mayor Favre
    Eddie Favre is in his fifth term as mayor. Before he became mayor, 
Eddie worked in the city administration and is a certified public 
accountant. Bay St. Louis is a community of 8,200 (currently 5,000) 
population on the Bay of St. Louis (on the Gulf Coast). The community's 
water supply is provided by two wells and the wastewater service is 
maintained by 40 lift stations (sewer pumps) of varying sizes, located 
around the communities, with the effluent pumped to a regional 
wastewater system for treatment.
Summary of Katrina Impacts in Bay St. Louis
    The night before the hurricane, the city staff was preparing for 
the water and wastewater system for the hurricane by checking the 
generators at the well sites and moving equipment and sensitive 
electrical facilities to secure areas. However, the hurricane flooded 
the community more than any imaginable level (significantly more than 
hurricane Camille, which had been the previous standard for flooding 
maps). Almost all of the city was under water of varying depths, some 
areas as much as 25 feet. Mayor Favre's own home was in the one of the 
hardest hit portions of the city and all that is left now are a few 
pilings. He has been living in the fire station since the Sunday before 
the hurricane, where city officials and police stayed through the 
storm, and where they are staging relief operations. The extreme 
flooding lasted approximately five hours and, combined with the 
approximately 150-mile-an-hour winds, devastated the city: ripping up 
roads, piling houses on top of each other, toppling the largest trees, 
destroying a few thousands homes, destroying approximately 75% of the 
tax base, making approximately 60% of the homes in the community 
uninhabitable, etc.
    The hurricane knocked out electrical service and flooded all 40 
sewer lift stations, making them inoperable and destroying almost all 
the electrical components in the lift stations. One lift station was 
thought to be safe and emergency response equipment was stored there. 
However, even this station was flooded, destroying approximately 
$500,000 of equipment (generators and backup electrical systems which 
the city desperately needed in the aftermath.
    Immediately after the worst of the impacts (approximately midday on 
Monday), the condition of the water and wastewater system was dire. 
There were numerous breaks in lines; thousands of houses had been 
destroyed which tore lines from the ground; downed trees brought up 
lines; washed out roads left main lines exposed and damaged; both wells 
were down without power; etc. City officials started assessing damage 
and repairing the water supply by Monday afternoon. By Tuesday morning 
they were valving off lines and restoring the wells from generated 
power. Valving off lines is the first measure taken in restoring the 
water supply (restoring water pressure to portions of the system). This 
simply prevents the water from flowing out of the system through the 
breaks (which there were too many to count). Contamination can flow 
into the system through line breaks, and lack of pressure makes it very 
difficult or impossible to maintain the necessary disinfectant in the 
system. Of course, through this process, the entire system was under a 
boil water order. By Wednesday (day 2), some portion of the water 
supply was being restored to houses that were inhabited. The process of 
valving off sections of the communities in order to maintain pressure 
and find/fix leaks continued round the clock for the next 3-4 days. 
This process was very labor intensive. Any particular valve which 
needed to be shut off to return water service could be buried under a 
series of houses (many feet deep), buried by very large trees, or 
ripped from the earth from collapsed buildings. Much of this work 
required heavy machinery (backhoes, tree removal cranes, numerous chain 
saws, etc.) and it could sometimes take a crew the better part of a day 
to remove all the stacked houses and dig for the valve.
    After initially stabilizing the water system, the city public works 
staff began assessing the needs of the wastewater systems. Each lift 
station had to be rebuilt, as the electrical control panels had been 
destroyed by water. New parts had to be ordered and installed in each 
station to begin wastewater service. Waste service was partially 
restored in a week (at approximately 2:00 am the following Monday, the 
primary lift station was in service). Another 25 stations were 
operational by the following Friday. Every control panel had to be 
changed in the lift stations.
    Wastewater has to go somewhere in a disrupted system--it was 
impossible to control all untreated effluent from the wastewater system 
at all times. The wastewater system was inundated with flood water. 
This, combined with restored water service and torn up sewer lines 
(opening them to be filled by sand, wood, kitchen sinks, tires, bricks, 
debris, etc), caused some isolated overflows or untreated wastewater. 
This overflow was highly diluted with rainwater, and the city initiated 
some ad hoc emergency treatment of the overflows by placing chlorine 
tablets directly into the overflow streams as they ran off from the 
wastewater system. Much of the runoff was being absorbed by receiving 
waters contaminated by the hurricane with dead animals, vehicles, and 
other debris washed into them. The city posted notices to stay out of 
the bay waters that had been contaminated from the general runoff and 
dead animals in the bay. Some people in distress had been washing items 
and bathing in the bay water.
    Electrical power was restored 10 days after Katrina hit--for those 
9 days the systems were operated on emergency generated power.
Current Status of Water and Sanitation
    Currently, the water system is up and pressurized; however, we are 
finding new leaks every day and, as we restore new portions of the 
system and increase pressure, new breaks occur. The stress that is 
being placed on the water distribution system makes it fragile and 
prone to breaks. Loss of pressure means safety of the drinking water 
could be compromised. The water quality tests for coliform 
contamination have been met--the water has passed those tests, and the 
pressure is adequate, however fragile. And we are maintaining the 
necessary residual amount of chlorine disinfectant in the system. All 
this means the boil water order could be lifted. However, it is the 
decision of the local city officials not to lift the boil order at this 
time because the distribution system is (in the mayor and public works 
staff's opinion) still too fragile and vulnerable. The order could be 
lifted in the coming days. As recently as Monday of this week, a main 
pump had electrical failure, which caused loss of pressure. Almost all 
the people in the area (upwards of 5,000) are drinking bottled water 
and only using the city water for washing, toilets, and household 
needs.
    Currently, the wastewater system is operating, pumping all sewage 
possible to our regional treatment works. The wastewater system has 
experienced limited, isolated overflows from broken or backed-up 
service lines; however, this is minimal and decreasing each day. There 
is a backup system for all the centrally collected sewage, in the event 
that the regional treatment plant can't accept our wastewater stream. 
As a backup, the old lagoon is available to store and treat practically 
any wastewater overflow from the central collection systems. This 
backup could handle a number of days of the sewage without any 
discharge to the environment.
Immediate Technical Assistance and Equipment Is Needed (Environmental 
        Regulation is Not Needed, Nor Appropriate)
    Bay St. Louis has been helped through the recovery from the initial 
moments following the hurricane. Numerous technical response crews have 
been working in the community to restore water and sanitary service. 
The city has had Mississippi Rural Water Circuit Riders working every 
day for two weeks without break. Rural Water organized most of the 
personnel logistics in Bay St. Louis and in the other coastal counties. 
Rural Water Director Pete Boone and his staff were responsible for 
coordinating much of the recovery and providing technical personnel. 
Numerous utility crews have been working in Bay St. Louis from the City 
of Pontotoc; Clearwater, Florida; Fort Myers, Florida; Davenport, Iowa; 
Navy electricians (Seabees); Air Force Red Horse Squadron; American Gas 
Association; Yankee Gas; the Town of Cornett, Mississippi; and others 
that should mentioned.
    What is needed in this crisis and future crises is immediate access 
to technical personnel and equipment. Communities know the water is not 
safe long before it is declared not in compliance, and no one wants to 
restore safe water more than the local officials. We don't need someone 
to tell us we must comply, but rather, we need the help and know-how to 
fix the problem. The problem to solve is purely a RESOURCE problem not 
a REGULATORY problem. This is why regulators are of little help in 
these situations. The type of people that are needed are: experienced 
operators, electricians, machinery crews, machine repair crews, expert 
pipe repair personnel, contractors, etc. Mandating progress is easy; it 
is the ``how-to'' that is hard and essential to limiting harm to public 
health and the environment. For the ``how-to,'' the city relied on the 
help from the previously mentioned volunteers.
    From the mayor's perspective, water is about the most important 
service for public welfare. Sanitation is critical, however, a 
community can get by for some time with loss of sanitation. Electricity 
is perhaps equally as critical as water, and the return of electrical 
power is typically the sign that things are being pulled together, but 
drinking water is an immediate and essential public health and welfare 
service.
    I was the second person Mayor Favre called after Katrina's impact 
in Bay St. Louis. Using resources from the City of Pontotoc, our crews 
loaded cargo trucks and city vehicles with backhoe tires and parts, 
washers, refrigerators, buster pumps, chlorinator parts, baby food, 
baby clothes, blankets, plastic tarp coverings, diesel fuel, oil, gas 
cans, grills, cooking trailers, etc., along with four-man crews, and 
immediately headed for Bay St. Louis. Pontotoc has been shifting in 
three-man crews to Bay St. Louis and the neighboring hard hit city of 
Waveland every four days.
    These crews and the technical crews from the mentioned 
organizations can operate heavy machinery, repair the machinery, 
isolate and fix leaks, install and repair pumps, dig up mains, etc. 
These crews have the experience to bring the water pressure up without 
damaging other parts of systems. The process of valving off sections of 
the system, repairing the lines, bleeding out the air, and returning 
pressure takes skilled technical personnel. Repairing of backhoe tires 
proved to be a desperately needed service and critical to recovering 
water and sewer.
    One technical field person from Florida reported the following when 
asked what common technical assistance is needed in damaged 
communities:
          ``Much more complicated [than just generators]. Electrical 
        components cleaned and replaced; control panels rebuilt; 
        electric motors and pumps replaced or rebuilt; bypass pumps 
        installed; generators wired direct; lift stations cleaned with 
        vacuums or jet cleaned; leaks located and repaired with 
        backhoes brought out from Florida; valves located and closed/
        opened or valves inserted to isolate areas of system; lift 
        stations rebuilt; wastewater plants made to work with baling 
        wire, rubber bands, bubble gum, or anything laying around. For 
        example, wire is needed to bypass missing electrical controls 
        so crews can go into rubble of destroyed houses and pull out 
        wire to rewire water and wastewater plants. Think in terms of 
        50 McGuyvers doing whatever it takes to get water to folks and 
        stop wastewater in the streets, in the Gulf, etc. At one plant, 
        Florida crews walked around the destroyed warehouse/supply 
        building to find circuit boards, fuses, whatever they needed 
        and could find to get plant online. They even took circuit 
        boards found and cleaned up best they could, so they could be 
        used. These are master electricians, instrument techs, and top 
        professionals in there areas.''
    Other crews from Pervis, Lamar County, and Monticello have 
responded to other Gulf Coast communities. In all of their cases of 
critical response, there was no approval process, forms, or red tape--
just neighboring communities (already familiar with each other through 
participation in common associations, including municipal leagues and 
rural water associations) responding with the know-how and immediacy 
regardless of potential reimbursement.
    What we have witnessed in this relief operation is the necessity of 
familiarity among the needy and contributing communities. It has been 
apparent that strangers can't have the relationship, familiarity, and 
trust needed to be helpful in an emergency situation. Our two cities 
have been working cooperatively for years, eliminating any learning 
curve which could cause delayed response and the trust deep.
    Working with partners in professional associations resulted in 
access to a network of experts. The Rural Water Circuit Riders were 
able to use their contacts across the state to acquire parts, plumbers, 
gas technicians, pipe, etc., that only comes from networking in the 
association of water and wastewater utilities. By networking within the 
association of mayors, Bay St. Louis and other cites were able to find 
immediate expert contractors and volunteer crews.
    This familiarity and peer assessment/review also acts as a check 
against any fraud. Because we have all of the leadership of the 
communities in the state cooperative looking at the actions of all the 
other communities, it acts as an effective self-policing filter (a 
system of checks and balances).
    Structural reasons that these volunteer and professional 
associations were so critical and effective in responding to the crises 
include:

 The fact that the associations' functions are directly accountable to 
        their members (the communities), ensuring that they act in a 
        manner most favored and beneficial to the membership.
 An understanding that time is a function of success (i.e., delayed 
        response can significantly harm the public). In Louisiana, the 
        EPA is conducting an in-depth assessment of every water supply 
        (even communities with no reported problems). This type of 
        inquiry has delayed what the communities believed was their 
        immediate pressing need for equipment and technical 
        assistance--to maximize public health protection. For example, 
        while the EPA was just starting their intensive reporting 
        assessment, communities where seeking out help where they could 
        get it, and couldn't wait for EPA to complete its assessment. 
        In Livingston Parish, a Circuit Rider found much of the 
        parish's utilities without energy immediately following the 
        hurricane. After coordinating with local officials, including 
        fire officials and parish emergency offices, to target the most 
        severely impacted utilities, the Circuit Rider was able to 
        communicate with those operators via Nex-Tel (all phone 
        communications were lost). Unable to procure water bladders 
        from FEMA or emergency organizations, he was able to find 
        approximately 20 water storage tanks and a colleague with a 
        flatbed tow truck and started delivering the filled, large 
        potable water storage containers to at least seven communities 
        (Port Vincent, Paradise Ponte Island, Springfield, Head of 
        Island, Killian, Bayview, and Vincent Acres). Working around 
        the clock to keep the containers filled (10-hour supply), the 
        pressure in the water systems was maintained. The tow truck 
        operator was able to lift the main container on the truck high 
        enough to create a siphon to fill the container left on-site.
 All authority is localized. There is no need to seek approval from a 
        centralized hierarchy that is not in the middle of the 
        situation--and real-time changes to plans and polices can be 
        made to react to local conditions and variables.
    What I have just described is the relief operations for 
communities' environmental services. However, there has been an 
allegorical response to our citizens' immediate individual human needs. 
The local churches have been the main response on this level. We have 
seen churches providing widespread operations to assist families and 
individuals. I personally witnessed a caravan of 71 church vehicles 
bringing relief to the Gulf Coast communities on one drive down highway 
49 to Biloxi. In these communities, churches have been preparing meals 
for citizens and law enforcement officials tired of eating MREs, 
cooking on-site, carrying meals to people who won't leave their houses, 
taking in refugees, and all other acts of human kindness. There is not 
a church in my county that hasn't contributed to the relief.
Overall Assessment of Region's Environmental Impacts From Loss of Water 
        and Sewer Service
    The assessments from Alabama, Mississippi, and Louisiana are 
detailed in the following appendix.
    Mr. Bass. I thank you very much, Mayor Rutledge, and I just 
want you to know on a personal note, I established, in my 
hometown of Peterborough, New Hampshire, a program to adopt the 
city of Collins, Mississippi. We have sent an assessment team 
from Peterborough, New Hampshire down there. I wish you would 
convey my best regards to Mayor V. O. Smith, who is a wonderful 
fellow. My hometown of Peterborough is going to provide them, 
we hope, with $100,000 in cash to help rebuild the town by the 
end of October.
    With that, I would like to move Dr. Ragone, please, sir.

                 STATEMENT OF STEPHEN E. RAGONE

    Mr. Ragone. Mr. Chairman, just a correction. I am the 
Director of Science and Technology with the National Ground 
Water Association, and Dr. Schnieders is a member of the 
National Ground Water Association.
    Mr. Bass. Fair enough. Please accept my apologies.
    Mr. Ragone. Oh, I like that other group very much. Just for 
the record, too, the NGWA is an organization of approximately 
15,000 scientists, engineers, contractors, manufacturers, and 
suppliers. Our overall mission is to provide and protect 
groundwater.
    What we have learned so far is that the situation resulting 
from Hurricane Katrina is understandably chaotic. Our members 
report that many of the hardest hit communities still do not 
have electricity, generators, or operational water pumps. Some 
report that access to these communities has been restricted.
    We have learned that difficulties remain in contacting 
local water supply employees. People with private wells, we are 
told, have been left on their own to fix their water problems. 
More than 230,000 residents in the impacted area rely on 
private wells for drinking water. So far, we have heard that 
saltwater is in some of these wells. NGWA members are in the 
process of addressing these situations. We anticipate that 
complaints of contamination, or water supply problems will be 
reported as residents return home, and find they have no water 
or poor water quality.
    Reports from areas less impacted by the storm indicate that 
strides are being made to return public and private water 
systems to operation. A concern is whether the municipal 
distribution infrastructure, the water pipes, remains intact, 
as contamination could result through breaks in the 
distribution pipes. Our members expect that the impact of the 
hurricane will be minimal even in the heavily inundated areas, 
for those who have properly constructed and maintained wells.
    We are aware of efforts being taken to obtain baseline 
information and provide assistance, and we have included that 
in our longer written testimony. However, it is our general 
impression from contacts with our members in the affected 
region that communication problems, citizen displacement, and 
other storm-related disruptions, have slowed efforts to 
determine the scope of the problem, and to take corrective 
measures. It appears that improved pre-disaster planning, 
training, and coordination between government officials and 
private sector water well professionals could have improved 
response time. Planning, coordination, and training of local 
officials and private sector entities prior to the disaster 
seems to be a critical missing component in helping to make 
recovery efforts more effective.
    Although standard disinfection protocols are being 
distributed by many agencies in the area, we believe that 
additional disinfection protocols may be required, in order to 
mitigate the varying levels of contamination. For example, 
shock chlorination, the traditional approach to well 
disinfection, does not always solve the problem for those with 
inundated wells, or where general groundwater quality has been 
impacted. In fact, shock chlorination can cause more long-term 
harm than good. This is especially true when floodwaters 
contain very high loads of sediment, debris, or chemical and 
biological contaminants. Also, and very importantly, studies 
have shown that older wells are more susceptible to 
contamination and flooding, and may require different 
decontamination protocols than more modern wells.
    The National Ground Water Association, under a contract 
with FEMA, presented a report to the agency in 2002, entitled 
``Field Evaluation of Emergency Well Disinfection for 
Contamination Events.'' This field study examined Hurricane 
Floyd's impact on wells in North Carolina and adjacent Atlanta 
coastal areas, and specifically, well-disinfection efficacy. 
Some of the recommendations included in that report are 
attached to my written testimony as Appendix 1.
    The recommendations highlight our concern that a more 
strategic, community-based approach is needed to prepare for 
and respond to natural disasters and terrorist acts. If you 
would like a copy of this report, we would be happy to provide 
it. The NGWA has been working to provided needed information 
and protocols for emergency response. We have developed website 
products, certified professionals, offered training programs 
and materials, as well as undertaken our own research to help 
prepare the industry, well owners, and government officials.
    However, we recognize that much more needs to be done. We 
look forward to working with Federal, state, local, private 
sector partners to fill research, training, and information 
gaps. The NGWA is happy to have had the chance to participate 
in this hearing. An important reason for being here, beyond our 
concern about the immediate crisis caused by Hurricane Katrina, 
is to encourage the development of a strategy that will ensure 
immediate, cost effective, and appropriate community-based 
responses to future disasters and terrorist acts that may 
disrupt our drinking water supplies.
    Thank you very much.
    [The prepared statement of Stephen E. Ragone follows:]
   Prepared Statement of Stephen E. Ragone, Director of Science and 
           Technology, The National Ground Water Association
                              introduction
    Good morning. My name is Dr. Stephen Ragone. I am the Director for 
Science and Technology for the National Ground Water Association 
(NGWA). The NGWA is an organization of approximately 15,000 scientists, 
engineers, contractors, manufacturers and suppliers. The NGWA's overall 
mission is to provide and protect ground water. I would first like to 
thank the Committee for this opportunity to speak and acknowledge my 
colleague, Dr. John Schnieders, principal chemist for Water Systems 
Engineering, Inc. who helped me prepare these remarks.
    Approximately 52% of Alabama's, 100% of Mississippi's and 75% of 
Louisiana's populations regularly depend on ground water for their 
drinking water supply.<SUP>1</SUP> Over 513,000 wells are used to 
provide drinking water to the three states' residents (Table 1). Of 
those, an estimated 234,545 household well systems in Alabama, 
Louisiana, and Mississippi counties are estimated to be in areas 
impacted by Hurricane Katrina and are eligible for individual disaster 
assistance funds from FEMA (Table 2). At this time we cannot provide 
the Committee with a number of wells that have been flooded versus 
other levels of impact.
---------------------------------------------------------------------------
    \1\ U.S. Geological Survey, March 2004 report on 2000 water use
---------------------------------------------------------------------------
                            what do we know
    What we have learned so far is that the situation is, 
understandably, chaotic. Our members report that many in the hardest 
hit communities still do not have electricity, generators or 
operational water pumps. Some report that access to these communities 
has been restricted. There also have been reports of saltwater in some 
wells. NGWA members are in the process of addressing these situations. 
However, as more residents return, it is anticipated that complaints 
will continue to come in when people find they have no water or poor 
quality water. Reports from areas less impacted by the storm are that 
strides are being made to return public and private water systems to 
operation. A top concern is whether the municipal distribution 
infrastructure--the water pipes ``remains intact as contamination could 
result through breaks in the distribution pipes. We've heard that 
difficulties remain in contacting water system employees. Members 
expect that the impact of the hurricane will be minimal--even in 
heavily inundated areas--for those who have properly constructed and 
maintained wells.
    We are also aware of efforts being undertaken to obtain baseline 
information or provide assistance. For example the Louisiana Department 
of Health and Hospitals, in conjunction with the U.S. EPA and the 
Louisiana Rural Water Association, are offering free water testing to 
residents in certain Louisiana parishes with flooded household wells. 
As part of this effort, residents are being provided with information 
on sample collection and water system disinfection. The U.S. EPA and 
the Louisiana Department of Environmental Quality (DEQ) have 
information regarding well-testing and disinfection on their website. 
Additionally, the U.S. Geological Survey is testing wells in inundated 
areas to assess whether brackish water has entered into the subsurface. 
We also have reports that Louisiana DEQ is in the initial stages of 
doing some VOCs testing. A report we received from the Louisiana 
Department of Transportation and Development indicate they are 
currently testing public water supplies but an inventory of flooded, 
and or damaged domestic wells is not yet available. However, our 
members in the Louisiana Ground Water Association reported that well 
drillers are working around the clock to return household wells to 
potability.
    It is our general impression from contacts with our members in the 
region that communication problems, other relief efforts, and citizen 
displacement remain challenges to identifying the scope of the problem 
and remediating affected wells. It appears that improved pre-disaster 
planning, training, and coordination between government officials and 
private sector water well professionals could have lessened the 
challenges.
    Planning, coordination, and training of local officials and private 
sector entities prior to the disaster seem to be critical missing 
components in helping to make existing efforts more effective. Beyond 
initial and standard protocols being distributed, long-term strategies 
should ensure that appropriate de-contamination protocols are available 
for varying levels of contamination, well design, well size, and 
hydrogeologic variables. For example, shock chlorination--the 
traditional approach to well disinfection--does not always solve the 
problem for those with inundated wells or where general ground water 
quality has been impacted. In fact, shock chlorination can cause more 
long-term harm than good. This is especially true when floodwaters 
contain very high loads of sediment, debris, as well as, chemical and 
biological contaminants. In such cases the wells, both public and 
private, may require different and/or additional cleaning procedures. 
This concern is exacerbated in several areas impacted by Hurricane 
Katrina where refineries and other industries are present. Studies have 
also shown that older wells are more susceptible to contamination and 
flooding, and may require different approaches than more modern 
wells.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Centers for Disease Control and Prevention. A Survey of the 
Quality of Wter Drawn from Domestic Wells in Nine Midwest States. 
September 1998.
---------------------------------------------------------------------------
                 future strategies require coordination
    The National Ground Water Association, under a contract with FEMA, 
presented a report to the agency in 2002 entitled ``Field Evaluation of 
Emergency Well Disinfection for Contamination Events.'' This field 
study examined the 1999 Hurricane Floyd's impact on North Carolina and 
adjacent Atlantic coastal areas--specifically well disinfection 
efficacy. We also included in the report recommendations on how to 
address household water wells in future natural and manmade disasters. 
If you would like a copy of this report please let us know. (Appendix 
I).
    Our recommendations outline a plan that educates and trains local 
private sector personnel to complement government efforts in a forward 
thinking manner. We discuss the development of county/district teams 
trained and equipped to evaluate, help and conduct needed immediate 
repairs of wells as needed to restore private water supply function and 
potability. These teams would include local government environmental 
health staff, private-sector personnel experienced in well and pump 
service and other people with specific knowledge of local ground water 
quality and occurrence, such as hydrogeologists. The teams would be 
trained in both evaluation and pump repair. Additionally, these teams 
would work to train retail workers and ``neighborhood helpers'' who 
work with pumps, plumbing, chemical selection and/or generally 
mechanical to aide in post-emergency efforts. As for disinfection 
efficacy, as discussed previously, there are standard disinfection 
methods but it will be important that residents and water suppliers 
follow the appropriate protocols for the appropriate water supply and 
take into account contaminants present, size of well, aquifer hydraulic 
conductivity, and flood water depth and quality. Local health and water 
entities, both governmental and private-sector, should have this 
information readily available for themselves and the public at large.
    The NGWA has been working in this area. We have developed web site 
products, certified professionals, offered training programs and 
materials, as well as undertaken research to help prepare the industry, 
well owners and government officials. However, more has to be done. We 
are looking forward to working with our federal, state, local and 
private sector partners to fill research, training and information gaps 
and enhance state and local response planning.
    The NGWA is happy to have had the chance to participate in this 
hearing. An important reason for being here, beyond our concern about 
the immediate crisis caused by Hurricane Katrina, is to encourage this 
country to develop a strategy that will ensure immediate, cost-
effective and appropriate responses to future natural disasters or 
terrorist's acts that disrupt our drinking water supplies. We look 
forward to working with you and serving as a resource as more 
information on the impacts of Katrina on ground water supplies is 
collected and analyzed.

                                                     Table 1
                                               State Well Numbers
----------------------------------------------------------------------------------------------------------------
                                                          Community Wells    Household Wells
                         State                                  \3\                \4\          Total for State
----------------------------------------------------------------------------------------------------------------
Alabama................................................               764            201,111            201,875
Mississippi............................................             2,712            122,452            125,164
Louisiana..............................................             3,338            182,926            186,264
Total..................................................             6,814            506,489            513,303
----------------------------------------------------------------------------------------------------------------
\3\ US EPA, 2004
\4\ Based on 1990 Census data, last year in which household wells were counted.


                                                      Table 2
                            Estimated Household Wells in Designated Disaster Counties
                                (counties where individual assistance available)
----------------------------------------------------------------------------------------------------------------
             Alabama                                Louisiana                        Mississippi
----------------------------------------------------------------------------------------------------------------
Baldwin.........................      11,902   Acadia.............       6,279   Adams.............         378
Greene..........................       1,034   Ascension..........       9,942   Amite.............       1,755
Hale............................       1,301   Assumption.........          92   Attala............         807
Mobile1.........................       4,708   Calcasieu..........      10,012   Choctaw...........         200
Pickens.........................       1,378   Cameron............         472   Claiborne.........         162
Tuscaloosa......................       3,446   East Baton Rouge...       1,031   Clarke............       1,144
Washington......................       2,941   East Feliciana.....       1,041   Copiah............         674
                                               Iberia.............       4,392   Covington.........         414
                                               Iberville..........         638   Forrest...........         853
                                               Jefferson..........          54   Franklin..........       1,280
                                               Jefferson Davis....       1,904   George............       4,289
                                               Lafayette..........      13,311   Greene............       1,323
                                               Lafourche..........           3   Hancock...........       5,424
                                               Livingston.........       7,874   Harrison..........      12,726
                                               Orleans............       1,024   Hinds.............       1,246
                                               Plaquemines........          37   Jackson...........       8,723
                                               Pointe Coupee......       1,162   Jasper............         199
                                               St. Bernard........          10   Jefferson.........         142
                                               St. Charles........          33   Jefferson Davis...         352
                                               St. Helena.........       1,016   Jones.............         640
                                               St. James..........          56   Kemper............         184
                                               St. John...........         239   Lamar.............       1,470
                                               St. Martin.........       2,482   Lauderdale........       2,276
                                               St. Mary...........         441   Lawrence..........         483
                                               St. Tammany........      21,787   Leake.............         860
                                               Tangipahoa.........      14,035   Lincoln...........       4,372
                                               Terrebonne.........          23   Lowndes...........       3,167
                                               Vermilion..........       9,867   Madison...........         506
                                               Washington.........       6,594   Marion............       1,757
                                               West Baton Rouge...         147   Neshoba...........         599
                                               West Feliciana.....          59   Newton............       1,603
                                                                                 Noxubee...........       1,128
                                                                                 Oktibbeha.........         320
                                                                                 Pearl River.......       5,957
                                                                                 Perry.............         870
                                                                                 Pike..............       4,344
                                                                                 Rankin............         871
                                                                                 Scott.............         487
                                                                                 Simpson...........         736
                                                                                 Smith.............         329
                                                                                 Stone.............       1,594
                                                                                 Walthall..........       2,204
                                                                                 Warren............         389
                                                                                 Wayne.............       1,388
                                                                                 Wilkinson.........         499
                                                                                 Winston...........         180
                                                                                 Yazoo.............         474
                                      36,710                           116,057                           81,778
----------------------------------------------------------------------------------------------------------------

                               Appendix I
   excerpt from field evaluation of emergency well disinfection for 
               contamination events: final project report
        plan for returning water supply wells inundated by flood
    The following is a set of recommendations for planning and 
implementing a program of returning water supply wells inundated by 
flood to potable status. Implementing these activities will require 
coordination among county departments and among local jurisdictions, 
the state, and supporting federal agencies such as FEMA, and also with 
the private sector. An appropriate organizational umbrella under which 
this process could operate is state/county emergency management.
    1. In each county/district of local government environmental 
health, teams will be trained and equipped to evaluate, help and 
conduct needed immediate repairs of wells as needed to restore private 
water supply function and potability. The team should include 
government environmental health staff, private-sector personnel 
experienced in well and pump service, and other people with specific 
knowledge of local ground water quality and occurrence, such as 
hydrogeologists. The teams need to be trained in both a) evaluation and 
expedient fixes (pump repair) and b) human interaction (customer 
relations). Private sector team's members should be on retainer or 
standing purchase order.
    2. These teams in turn should train a) retail workers, such as 
those working in hardware stores and home-improvement superstores who 
work with pumps, plumbing, and chemical selection and b) ``neighborhood 
helpers''--those people found in any neighborhood or community who are 
capable, helpful and competent in fixing things--to assist people with 
basic pump repair and well disinfection. Train them to safely and 
effectively deal with the well problems that do not require contractor 
equipment, such as jet pump repair or shallow well disinfection, the 
specifics of safety issues, and water sampling. Such trained personnel, 
upon passing a practical examination, would be awarded a limited-time 
certification in emergency water supply assistance. The local 
environmental health agency would maintain and publicize a current list 
of stores with such certified personnel available. Certified 
neighborhood helpers would identify themselves to emergency response 
personnel and neighbors, and be known to well ERP team members. All 
such responders must be insured or otherwise protected under state 
``good Samaritan'' provisions to the extent appropriate.
    3. Draft and supply simply worded and illustrated fact sheets with 
detailed recommendations for safe pump function restoration, well 
flushing, and well disinfection, with versions in both English and 
widely used secondary languages such as Spanish.
    4. In support of activities triggered under the local well 
restoration ERP:

A. Have wells spotted and located on county GIS plat maps, with a 
        database of essential well characteristics (type, depth, 
        diameter). Hard-copy maps and GIS electronic file backups 
        should be generated regularly, made available to the well 
        response teams, and stored safely in case of emergency.
B. Collect data on hydrogeology (aquifer tapped by wells, protective 
        layers, water tables) and a suite of physical-chemical and 
        microbial ecology parameters that provide a basis for 
        understanding an ambient baseline condition. With such an 
        ambient baseline recorded, deviations from the expected 
        hydrogeochemical profile of a well can be recognized, even if 
        basic regulatory parameters are negative or inconclusive. 
        Include this hydrogeochemical data in the GIS database and as 
        map layers for use by the well ERP team.
C. The plan should include a well triage strategy for use in the event 
        of an emergency, as follows:
     Start with a rapid survey (aided by having wells finely located) 
            to assess the situation and to formulate a response.
     Accurately mark and bypass 2-in. deep wells with in-line jets, 
            and 2-in. jetted or driven wells, and other wells requiring 
            specific training and equipment to restore. Have people 
            pump them, but leave treatment or replacement to an 
            equipped contractor.
     Instruct people on how to treat shallow bored wells.
     Sample wells for total coli form once restored to function and 
            pumped. Certified helpers would supplement environmental 
            health in this.
     Plan and implement follow-up testing and additional response, 
            such as ordering and assisting impaired well replacement.
    5. Equip response teams as follows:
A. A supply of pump sets for circulating chlorine and pumping, equipped 
        as needed (hoses, valves, fittings) and working. Include a 
        generator, tools, parts and instructions to install functional 
        systems on typical installations. Provide and periodically 
        update reliable telephone numbers for troubleshooting and 
        installation assistance.
B. As only Ca(OCl)2 has a lengthy shelf life (when stored cool and 
        dry), keep some of this on hand in various forms for use until 
        trucks can bring in sodium hypochlorite. Include any associated 
        treatment chemicals such as vinegar for acidizing. Rotate 
        stocks semiannually. Have on hand measuring cups and laminated 
        sheets with information on dosing volumes for wells by diameter 
        and depth.
C. Well water testing equipment similar to that used in this study--
        maintained, calibrated, and with fresh batteries--and sampling 
        supplies for (limited) onsite and laboratory analysis of TC, 
        nitrates, and selected other contaminants. Testing should be 
        part of triage and follow up.
    6. Local environmental health jurisdictions should aggressively 
work to reduce the number of substandard and unsafe private water 
supplies vulnerable to flooding inundation.

A. Begin a public information campaign to educate well owners and users 
        about safe and unsafe or vulnerable water supplies and how they 
        can be tested and improved.
B. Deficiencies in specific well and pump installations (poorly 
        designed, vulnerable to inundation or damage during credible 
        flooding events, or otherwise unsafe in addition to not meeting 
        state rules) identified during mapping efforts should be called 
        to the attention of property owners and responsible parties, 
        with procedures and schedules for resolution provided.
    7. This inspection and response plan should have a regular review 
and revision cycle with measurable goals set.
Immediate Response and Prioritizing Follow-up Response
    1. Determine that an emergency exists, assess its magnitude and 
implement the well restoration ERP elements appropriate to the 
emergency.
    2. Broadcast instructions for safely restoring well function and 
activate the network of certified well responders and professional 
contractors. Make instructions for disinfection that can be attempted 
by well owners and contacts for assistance available to affected 
residents.
    3. As soon as it is safe, well ERP teams begin the reconnaissance 
to determine necessary responses for specific wells and assign them to 
the appropriate responders. Use the predetermined well designations 
from disaster-preparedness inspections (Section 7.1).

A. Inform residents of the response plan and schedule. Provide a point 
        of contact for residents, and assist them as needed in 
        obtaining emergency potable and wash water.
B. In a site visit: 1) Identify and record (narrated video or by 
        photography with notation) problems for follow up later. 2) As 
        soon as possible, restore well function and instruct residents 
        to pump wells several hours to clear contamination. 3) Sample 
        for contamination parameters.
    4. If analysis results indicate that contamination has occurred (or 
may have occurred), implement disinfection as follows.
Emergency Disinfection Methods
    While disinfection procedures are somewhat specific to the 
individual well's dimensions, design and conditions, the following are 
general requirements of emergency disinfection in response to 
inundation.
    1. As needed, restore pump function as needed and pump inundated 
wells clear for several hours to clear dirt and flood water 
contaminants. Do not pump flush water through treatment and 
distribution systems, but discharge from the first flushing tap. The 
time required is dependent on well size, aquifer hydraulic 
conductivity, and flood water depth and quality. As few as three hours 
and as many as 24 may be needed, and reasonable numbers should be 
determined for local conditions.
    2. In a clean mixing tank or container, mix a solution with 100 mg/
L (ppm) chlorine, maximized for hypochlorous acid: In the appropriate 
volume (one well bore volume--determine by well diameter, depth, and 
depth to water level) of clean water, acidify with white distilled 
food-grade vinegar or more concentrated food-grade acetic acid to 
approximately pH 5.9 (varies according to water pH and buffering 
capacity). Then mix in the sodium hypochlorite solution (generally 5-12 
%) volume needed to make a 100-ppm solution. Adjust pH as needed to pH 
6.5 or less. Alternative: Use powdered or granular calcium hypochlorite 
for chlorine and muriatic or sulfamic acid for acidifier. People 
conducting this mixing must be trained in the specific chemical safety 
issues of these chemicals and mixtures and their use and be equipped to 
avoid injury and to respond to spills.
    3. Drain or pump to the bottom of the well.
    4. Start agitation or pumping to pull solution upward throughout 
the water column.
    5. Allow to react up to 24 hr.
    6. Pump off to waste, avoiding environmental harm, until measured 
total chlorine is <0.2 mg/L.
    7. Conduct water system disinfection per state rules or 
recommendations.
    8. After one week, test for total coli form bacteria and nitrates. 
In the interim, instruct residents to boil water for drinking and 
cooking. Exception: Boiling should be avoided if a history of high 
nitrates exists, substitute filtration.
    9. If wells are substandard at inspection, or do not respond to 
treatment, follow up with action to require replacement or repair, and 
provide the appropriate assistance to make this happen.
Specific steps for a 2-in in-line jet well)
    1. Pump clear 3 well volumes or fresh ground water by parameters
    2. Mix in large plastic tubs: vinegar for acidifying and sufficient 
NaOCl to treat 2 well volumes
    3. Pull in-well pipe and jet (inspect and clean)
    4. Displace in chlorine solution: Air used to displace solution 
downward and a bailer to pull solution upward through the water column
    5. Wait 24 hr
    6. Reinstall pump components and hook up jet pump
    7. Pump off to clear
    8. Pump one well volume + after Cl is < 0.2 mg/L and test for TC 
and ion parameters.
    9. In one week, test for indicator parameters.
Specific steps for a bored well:
    1. In clean, new 32-gallon plastic trash cans, mix vinegar and 
NaOCl or Ca(OCl)2 to make a well-bore volume of 100-mg/L solution, and 
permit residues to settle.
    2. Pump well down and clear.
    3. Dose with chlorine solution and brush well walls
    4. Let refill if slow to respond after emptying
    5. Recirculate with jet pump
    6. Wait 24 hr
    7. Pump clear (to < 0.2 mg/L by chlorine test kit)
    8. Pump more than one well volume, then test for indicator 
parameters
Follow up
    1. Take steps to replace vulnerable and substandard well water 
supplies, with specific plans, goals and schedules, developed through 
consultation with the public, regulatory officials, stakeholders, and 
funding sources, and prevent installation of at-risk private water 
supplies in the future.
    2. Review the well restoration ERP and its implementation and make 
adjustments needed.
    The above recommended protocols should be viewed as being 
preliminary and subject to review and revision by the implementing 
agencies.

    Mr. Bass. Thank you very much, Dr. Ragone. Mr. Olson, you 
are next.

                   STATEMENT OF ERIK D. OLSON

    Mr. Olson. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, and thanks for inviting me to testify. I am with the 
Natural Resources Defense Council, but I also wanted to mention 
that we have been working closely with a variety of 
organization from Louisiana, Mississippi, and Alabama, to get 
input in daily calls and so on, with Dr. Beverly Wright, to my 
left, and with a variety of other groups, including Louisiana 
Environmental Network and many others that are expert in 
observing what is happening every day.
    We believe that Katrina really is, perhaps, the single 
worst environmental catastrophe that has ever befallen the 
United States from a natural disaster. And obviously, there 
have been many environmental disasters, but the impacts of 
this, we are just beginning to learn. We have heard a lot of 
anecdotal reports, at least, of health effects in people that 
have been exposed, police officers, first responders, and the 
public that are reporting rashes and blisters, as a result of 
touching some of the water. Open sores that are not responsive 
to antibiotics. Fumes that are causing asthma and respiratory 
problems.
    We strongly believe that this shouldn't just be anecdotal 
reporting. There should be ongoing surveillance of people that 
are going back into these communities. We have heard about a 
young man who went into some of the water with hip waders, and 
had a small amount of water splashed into his hip wading boots, 
and came out with blisters the same day. So, clearly, there are 
problems. There is not safe drinking water, as we just heard 
EPA testify, for, I believe they said 2.3 million people to 
this day. In New Orleans proper, the water is not safe to 
drink, yet hundreds of thousands of people are being told that 
they can come back into town.
    American Water Works Association last week released an 
estimate that it was going to cost $2.25 billion just to 
rehabilitate the drinking water supplies in this area. There 
are widespread toxins as well. What I have primarily been 
talking about are some of the bacterial and related problems, 
but the toxic problems and the oil spills are a serious issue. 
By some counts, we heard just moments ago a witness say that it 
was around 400 oil and hazardous chemical spills. Previous 
estimates posted on government websites were there were 575 
recorded oil and hazardous chemical spills, over 7 million 
gallons being spilled.
    Just imagine 350,000 automobiles that have been destroyed 
by this. How much oil, how much gasoline, how many toxic 
substances are released there? Also, hundreds of industrial 
facilities, dozens of hazardous waste and other related 
facilities that were inundated. We are very concerned about the 
long term effects of this.
    I wanted to mention a couple of important points. One is 
the air monitoring that has been released. I have in my 
testimony a table, which is derived directly from the EPA's 
website. On page 3 of our testimony, we compare the levels of 
benzene, a known human carcinogen, and a toxin to the human 
system, we compare the levels measured by EPA in New Orleans 
proper, to the 2 week safety standard, in other words, the 
standard that you could be safely exposed to for around 2 
weeks. That safety standard is five parts per billion, and over 
half of the samples taken in the city were over that standard. 
And we list many sites where it was more than double the safety 
standard.
    We are very concerned that some public statements of the 
agency official suggest that it is safe to return, yet their 
own monitoring is showing that it is well over the 2 week, or 
so-called intermediate safety standard. It might be safe to go 
in for a day and come back out, but it is not safe to stay 
there for a period of time.
    In addition, returning citizens are really not getting the 
kind of information they need about what is safe and what is 
not. We just heard witnesses say that it is the local 
government's responsibility ultimately. We strongly disagree 
with that. We believe that the Federal Government, the Federal 
EPA, has the legal authority and the responsibility, both as a 
legal matter and as a moral matter, to make sure that when 
people are returning to these communities, that they are going 
to get accurate information, and that they will be safe.
    Certainly, I am sure as Dr. Wright will testify to, we are 
very concerned about the disproportionate effects of some of 
these toxins. We are concerned that cleanup be certain to clean 
up the low income and African-American communities, as well as 
the rest of the community. We want to make sure there is full 
community involvement in those cleanup decisions.
    We need expanded testing. The testing EPA showed up on the 
map just moments ago is certainly, there are a lot of samples 
that have been taken in New Orleans proper. What about the 
hundreds of other locations where there are industrial 
facilities, all across the three states? What about all of the 
locations where we know drinking water supplies are knocked 
out? What about all the underground storage tanks that have 
been knocked out? What about the millions of gallons that have 
been spilled elsewhere? Are we monitoring that, and making that 
information available to the public in Mississippi, in Alabama, 
in locations other than New Orleans?
    And finally, I wanted to summarize the other major concerns 
we have, including the enormous amount of debris, 100 million 
cubic yards by some estimates, of debris. Is that going to be 
burned, as some are suggesting? It is a very deep concern that 
if there is going to widespread open burning. And in addition, 
we are very concerned that the cleanup standards be very high, 
and that we not adopt wide waivers. We heard EPA say that they 
have not yet identified any need for broad waivers. We have 
identified no need, and we are happy to submit to the record 
the numerous examples of waivers that are already allowed under 
current law.
    Thank you.
    [The prepared statement of Erik D. Olson follows:]
Prepared Statement of Erik D. Olson, Senior Attorney, Natural Resources 
                            Defense Council
Introduction
    Thank you for the opportunity to present testimony today. I am Erik 
D. Olson, a Senior Attorney with the Natural Resources Defense Council 
(NRDC), a national non-profit public interest organization dedicated to 
the protection of public health and the environment, with over 500,000 
members. As part of my work at NRDC, I have been helping to coordinate 
our response to Katrina. We have been working closely in this effort 
with a large number of other environmental, environmental justice, 
public health, medical, water industry [what's ``water industry''??], 
and other groups, including many organizations from Louisiana and 
Mississippi. I am in daily touch with hurricane survivors and with 
experts and others who are tracking the effects of this devastating 
storm, including my son who is assisting with hurricane relief efforts 
in Louisiana. In addition, I serve as chair of the Campaign for Safe & 
Affordable Drinking Water, an alliance of over 300 public health, 
consumer, medical, nursing, environmental, and other groups that works 
to ensure that all Americans have safe drinking water, and that has 
taken a special interest in the impacts of Katrina. Today, however, I 
appear only on behalf of NRDC.
    Mr. Chairman and other members of the Subcommittee, Katrina is 
perhaps the single worst environmental catastrophe ever to befall the 
United States as a result of a natural disaster. As any of the brave 
and stalwart citizens of Louisiana, Mississippi, and Alabama who 
survived Hurricane Katrina will tell you, this disaster has left an 
indelible mark on them and their families, communities, and 
environment. The loss of human life and widespread human misery that 
Katrina caused and continues to cause as we sit in this room today, are 
simply unfathomable.
    I have been asked today to focus on the environmental effects of 
Katrina--and in particular on the potential effects of toxins in the 
storm-ravaged area. Specifically, I intend to focus primarily on the 
known and potential human health effects of the widespread releases of 
raw sewage, petroleum, and other toxins into the environment.
Reports of Severe Pollution and Illnesses
    We are receiving regular, albeit anecdotal, reports of police, 
rescue workers, and ordinary people who have returned to or stayed in 
flooded areas and have become ill after contact with the flood water or 
muck. Reports of rashes and blisters where skin has contacted polluted 
water, infected sores that are not responsive to antibiotics, nausea, 
and vomiting are legion. Respiratory problems--including asthma among 
many people exposed to fumes in contaminated areas--also are being 
reported.
    One woman's brother returned to his home to try to recover a few 
belongings, only to vomit three times upon entering the home due to the 
stench of sewage, decay, and chemicals. I spoke to the mother of a 
young man who wore hip waders into floodwaters, but whose skin came in 
contact with the toxic water. The same day, he developed a rash and 
blisters where his skin had touched the water. We have heard from many 
local citizens about police officers and other emergency workers who 
have come into contact with the polluted flood water, only to develop 
rashes and other symptoms. The long-term effects of this toxic exposure 
are unknown, and of profound concern to us and to many local citizens.
    One public health nurse working with the Red Cross spoke to us and 
reported that she had seen, by her count, over a thousand evacuees in 
Mississippi, but she had no tetanus or hepatitis vaccine to give to 
evacuees who were planning to return home to their water-soaked 
communities.
    As the flood water recedes, and the toxin-laced sediment and 
residue dries, a fine dust begins to swirl with wind or disturbance. 
This fine, toxic dust presents a serious risk to citizens if inhaled.
    In many of the hardest-hit areas, people returning home do not have 
access to emergency medical services, nor to nearby health clinics, 
physicians, or hospital emergency rooms. Communications also remain 
difficult. It is therefore difficult to determine how widespread and 
serious these problems are, but it is likely that many people are 
suffering without appropriate medical care. There is an urgent need for 
better-coordinated and more comprehensive medical care and for ongoing 
disease surveillance.
    There are enormous health hazards from the runoff, which contains 
staggering quantities of untreated human and animal waste and decaying 
plants and animals. These risks are particularly pronounced as hundreds 
of thousands of people return to areas where the muck and standing 
water are a teeming stew of parasites and dangerous bacteria.
Spills and Leaks of Oil and Toxic Chemicals are Numerous and Widespread
    According to U.S. Coast Guard and EPA data, as of September 18, 575 
Katrina-related spills of petroleum or hazardous chemical had been 
reported. Just eleven significant spills released approximately 7 
million gallons of oil, a portion of which was contained or cleaned up, 
but much of which was not.
    We also understand that there are 350,000 or more ruined 
automobiles and other vehicles caught by the flooding that will have to 
be dealt with. The amount of gasoline and toxic fluids in these 
vehicles alone is enough to give one pause; if each gas tank contained 
approximately 8 gallons of gasoline, this adds nearly 3 million 
additional gallons to the 7 million-gallon total noted above. By 
comparison, 11 million gallons of oil were released in the Exxon Valdez 
disaster.
    Moreover, at least four Superfund hazardous waste sites in the New 
Orleans area were hit by the storm. Across the storm-ravaged areas of 
Louisiana, Mississippi, and Alabama dozens of other toxic waste sites, 
major industrial facilities, ports, barges, and vessels that handle 
enormous quantities of oil and hazardous chemicals took a direct blow 
from Katrina.
    In addition to oil and chemical spills, and potential releases from 
toxic waste or industrial facilities, one major source of toxins that 
has received very little public attention to date is the toxic sediment 
that has accumulated at the bottom of many of the lakes, rivers, and 
streams in industrialized areas over many decades due to industrial 
spills. These toxic underwater hotspots have long been of concern to 
state and federal officials. According to experts with whom we have 
spoken in Louisiana, many of these toxic hotspots have now been stirred 
up, and toxic sediment has been re-suspended, and re-deposited across 
large land areas, including in residential communities, by storm surge 
and floodwater.
    To date, virtually no public information is available about toxic 
chemical levels in areas outside of New Orleans area. Moreover, there 
have been virtually no public reports of the results of chemical 
testing or inspections of storm-damaged industrial facilities outside 
of this immediate area.
EPA Monitoring Shows Dangerous Levels of Air Contamination from Spills 
        & Releases, but Agency Public Statements Offer Misleading 
        Reassurances to the Public About Safety
    Agency data also show that elevated levels of toxic chemicals such 
as benzene and xylene, in some cases levels above the 24-hour safety 
limits, have been found in the air adjacent to spills.
    Perhaps more troublingly, EPA has released air monitoring data from 
its Trace Atmospheric Gas Analyser (TAGA) buses and other monitors used 
across New Orleans, showing that contaminants are at unsafe levels for 
rehabitating certain parts of the city. NRDC has reached this 
conclusion by comparing benzene monitoring results, posted on EPA's web 
site, to levels that the National Institute of Environmental Health 
Sciences (NIEHS) established to protect people from intermediate-term 
(e.g., two-week) exposures to this chemical--a level of 4 ppb. 
Significantly, in 25% of the areas sampled in New Orleans, EPA 
monitoring shows levels of benzene more then twice this NIEHS 
intermediate safety level. Yet EPA's charts and discussions on its 
website only compare elevated air pollution levels to the much higher 
(50 ppb) acute NIEHS safety level--that is, to a level that is only 
considered safe for very short-term (e.g., 24-hour) exposure. Moreover, 
no air or other sampling has been publicly reported for most areas 
around spills or chemical facilities outside of New Orleans.

New Orleans Sampling Locations with More than Twice the NIEHS Safe Level
                         of Exposure for Benzene
------------------------------------------------------------------------
                         Location                                PPB
------------------------------------------------------------------------
Murphy Oil Refinery.......................................   88.0-170.0
LaSalle and Tulane Ave....................................          8.2
Weidman and Monroe........................................          8.5
Tall Timbers before Silver Maple Ct.......................          8.6
Cleveland St. and South Johnson...........................         18.0
Barataria Blvd between Jessie St. and Rt. 18..............         11.0
N. Rampart and Canal......................................         14.0
Wall Blvd and Pace........................................         15.0
Tullis and Woodland near Cypress Grove Ct.................         15.3
Glenwood Drive & Fairmont.................................         11.0
Avenue A and Hector.......................................         21.0
Duplessis St. and Park St.................................         16.5
E. Maple Ridge Dr. and Maple Ridge Oak....................          9.0
Convention Center Blvd....................................          9.8
Oak Lawn and Veterans.....................................          8.5
------------------------------------------------------------------------
Note: NRDC compared sampled concentrations to safe levels (4 ppb) for
  exposure over a two week period as calculated by NIEHS. This
  comparison is discussed in our testimony.

    Despite the inadequacy of these test results, EPA asserts in its 
public materials that, ``[t]he screening results indicated that 
chemical concentrations in most areas are below ATSDR health standards 
of concern.'' http://www.epa.gov/katrina/testresults/air/taga.html. 
These kinds of agency statements have undoubtedly led to widespread 
confusion and may have misled the public and local officials about the 
safety of returning to polluted areas.
Returning Citizens and Many Responders Do Not Understand the Risks and 
        Are Not Using Protective Clothing or Gear
    In light of the lack of adequate and accurate public information, 
people are returning to toxin-soaked areas without understanding the 
risks, and without being provided the proper protections, warnings, or 
knowledge. We are extremely concerned that there may be widespread 
illnesses and toxic exposure effects as toxin-soaked areas are 
repopulated.
    Many citizens are returning to petroleum or other toxin-tainted 
areas, generally using no masks or special protective clothing. EPA 
data show that not only does air pollution present a risk, but flood 
waters contain high levels of bacteria and other waterborne pathogens 
from raw sewage, and in many areas contain elevated levels of 
petroleum, lead, and other toxins.
    Many people--both ordinary citizens and emergency workers or police 
personnel--are breathing petroleum vapors, swishing through petroleum 
and other toxin-polluted water, or cleaning up polluted homes, 
businesses, and debris, with little or no personal protection. Whereas 
contract cleanup workers don Tyvek ``moon suits'' to go about their 
business of cleaning up oil and hazmat spills, the public generally is 
using no protection even though they may well experience dangerous 
levels of exposure. The National Contingency Plan and EPA and OSHA 
regulations require that anyone working on response to an oil or 
hazardous substance spill be provided with appropriate protective gear, 
and contract cleanup workers are in some cases wearing protective gear. 
But according to reports we have received, many local police and other 
emergency workers in the area are not wearing protection such as 
respirators and protective clothing.
Environmental Injustices Will be Exacerbated Unless Cleanup and 
        Rebuilding Changes
    There is a longstanding legacy of unfair and disproportionate toxic 
exposures to low income, predominantly African American communities in 
the New Orleans area and in much of Louisiana, Mississippi, and 
Alabama. This has resulted from years of industrial activity and waste 
disposal practices that hit these communities far harder than higher 
income, predominantly white communities. TRI and superfund facilities 
are located more often in low income areas and therefore are at greater 
risk to post-Katrina exposure. As cleanup proceeds and rebuilding 
begins, every effort must be made to remedy these environmental 
injustices through full cleanup, fair rebuilding practices, and full 
partnership with affected communities.
Toxics Testing Must Be Enormously Expanded, and Results Must Be Widely 
        and Immediately Disseminated in a Publicly Accessible Format
    EPA has released a limited amount of water, sediment, and air 
testing for the New Orleans area. There are literally hundreds of 
reported oil and toxics spills, industrial waste dumps, and industrial 
facilities that handle substantial quantities of toxic chemicals across 
Louisiana, Mississippi, and Alabama that were hit hard by Katrina, but 
for which there has been no reported toxics testing.
    In addition, even in those areas around New Orleans that were 
tested, often only a few samples have been reported for most locations, 
triggering concern that as water recedes or washes in from other 
locations, as re-flooding from Rita occurs, as leaks or spills spread, 
as waste leaches, or as other conditions change, toxic levels are 
likely to change as well.
    We also are deeply concerned that EPA has delayed reporting many of 
its test results. As hundreds of thousands of people are returning to 
evacuated communities, it is critical that EPA release its data 
immediately upon receiving them, to assure that the public and local 
officials are informed about the risks.
    In addition, we have heard from many local citizens that EPA's 
method of releasing the test results--on the web--is not an effective 
way to get information to the vast majority of evacuees who do not have 
internet access and are often not able to digest and understand the 
data. EPA and CDC's press conference warning of the risks of coming 
into contact with the flood waters was helpful, but came so long ago 
that it is for many a distant memory that does not touch upon the 
hazards today from the water, sediments, mold and other toxins citizens 
are likely to encounter as they return.
    The lack of regular, understandable, and repeatedly-reiterated 
information through the mainstream media about the toxics threats and 
the need to take appropriate precautions (e.g. rubber boots, Tyvek 
suits, masks or respirators, impermeable gloves) is likely to lead to 
continued widespread misunderstandings and health threats.
EPA and Federal Officials Have ``Punted'' Their Responsibility to 
        Assure the Safety of Returnees
    EPA is the nation's primary repository of expertise and regulatory 
and enforcement authority for controlling and responding to 
environmental toxin threats to the public's health. As such, the agency 
must assume the responsibility for assuring, after the massive spills 
and releases of oil and hazardous substances in the wake of Katrina, 
that the health of citizens living in or returning to the affected 
communities is fully protected.
    Under such laws as the Clean Water Act (CWA), Resource Conservation 
and Recovery Act (RCRA), Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA, or Superfund), and Oil 
Pollution Act (OPA), and under its own National Contingency Plan (NCP) 
regulations, EPA bears the lead responsibility for evaluating and 
acting to remedy environmental health threats. With respect to the 
Katrina response, EPA has the legal authority and both the moral and 
legal obligation to ensure that the health of citizens potentially 
exposed to toxic chemicals as a result of hazardous substance or oil 
releases is fully protected.
    The NCP regulations impose numerous obligations on the agency to 
ensure that its response to releases of hazardous substances or oil 
protect exposed citizens. For example, the NCP requires that after an 
oil spill, ``[d]efensive actions shall begin as soon as possible to 
prevent, minimize, or mitigate threat(s) to the public health or 
welfare of the United States or the environment.'' 40 C.F.R.  
300.310(a)(emphasis added). Similarly, if ``the discharge poses or may 
present a substantial threat to public health or welfare of the United 
States, the [EPA representative] shall direct all federal, state, or 
private actions to remove the discharge or to mitigate or prevent the 
threat of such a discharge, as appropriate.'' Id.  300.322(b)(emphasis 
added).
    Similarly, under RCRA section 7003(c)(emphasis added),
        Upon receipt of information that there is hazardous waste at 
        any site which has presented an imminent and substantial 
        endangerment to human health or the environment, the [EPA] 
        Administrator shall provide immediate notice to the appropriate 
        local government agencies. In addition, the Administrator shall 
        require notice of such endangerment to be promptly posted at 
        the site where the waste is located.
    Thus, it is not only EPA's moral obligation to assure that citizens 
potentially at risk from an oil or hazardous substance release are 
adequately warned and protected, but also the agency's legal 
obligation.
    Unfortunately, EPA apparently has decided to ``punt'' to local 
authorities the responsibility to protect citizens' health in the wake 
of the massive Katrina-related oil and hazardous chemical releases. 
Generally, these local authorities do not have a significant staff of 
environmental health experts available, nor do they enjoy access to the 
array of expertise and scientific information that EPA has. They also 
are under enormous political pressure to allow rapid repopulation of 
the toxin-soaked areas.
    EPA has repeatedly stated that it is not the agency's obligation to 
decide whether environmental conditions in New Orleans and other areas 
affected by toxins and oil pollution are so dangerous as to warrant 
continued quarantine or additional cleanup prior to general 
repopulation of the affected areas. Instead, EPA and FEMA say these 
decisions are a local responsibility. EPA has even refused to make an 
explicit public statement about whether it is safe for the public to 
return to New Orleans and other hard-hit areas. The agency has neither 
the legal nor the moral right to pass the buck in this way, 
particularly since local authorities are working under difficult 
conditions, with communication limitations, displaced staff and other 
unimaginable challenges.
Enormous Debris Disposal Operations, Including Proposals for Open 
        Burning, Pose Huge Hazards
    According to recent reports, an estimated 100 million cubic yards 
of debris have been generated by Katrina--enough to cover over 1,000 
football fields 50-feet-deep with waste. This far exceeds the waste 
generated by any previous hurricane, and dwarfs the 1.5 million tons of 
debris from the World Trade Center attacks on 9/11.While some of this 
debris is merely downed trees or vegetation, much of it is destroyed 
housing, commercial buildings, 350,000 ruined vehicles, and a wide 
array of other detritus, much of which has been soaked by petroleum or 
other toxic chemicals, and much of which is intermixed with plastics 
and other materials that will become toxic if burned. Disposal of this 
material presents an enormous challenge with no easy answers.
    Clearly, every effort must be made to recycle what can be salvaged. 
For example, ``white goods'' such as refrigerators, washers, dryers, 
air conditioners, etc., should, if possible, be recycled and any Freon 
removed. Steel and scrap metal from ruined vehicles and many destroyed 
structures also can be recycled. But clearly, there is not yet a 
disposal site for much of the rest of the waste. Reportedly, contracts 
for over a billion dollars for debris hauling and disposal have been 
issued.
    The open burning of some debris has already begun, according to 
eyewitness accounts. In addition, state officials have begun to waive 
air pollution requirements and open burning bans. Much of the burning 
will occur in open pits with ``air curtains,'' which have been 
advertised to control air emissions. Yet air curtains do not collect 
the air pollution--they blow air over the fire to improve oxygen flow 
and burning efficiency, but they do not collect the fumes or smoke. 
There are a few mobile incinerators with air pollution controls, but 
clearly these incinerators do not have adequate capacity to handle most 
of the debris.
    We are deeply concerned about the public health impacts of 
widespread open burning of materials that are likely to generate large 
amounts of toxic gases and particulate matter. There are anecdotal 
reports that open burning of debris after previous hurricanes lead to 
increases in admissions to hospitals due to respiratory ailments. 
People whose health is already threatened by immediate exposure to 
toxins from spills and leaks and polluted water will only be put at 
greater risk.
    Waste industry experts report that waste is being hauled to staging 
areas across Mississippi and Louisiana, and that Katrina waste disposal 
will occur not only in these states but also throughout the South. It 
is important that such disposal not add to the health threats and 
environmental injustices already suffered by many low-income and 
minority communities. For example, the Agriculture Street landfill in 
New Orleans, a controversial Superfund site that already threatened the 
health of a low income, predominantly African American community, 
received much of the waste from previous hurricanes, and was flooded 
after the recent levy breaks. As we plan the disposal strategy for 
wastes left by Katrina, we must consider the very real possibility that 
future storms will similarly inundate local disposal sites.
Ecological Impacts of Katrina and Rita
    We are not only concerned about the enormous public health risks 
posed by Katrina and exacerbated by Rita, but also the ecological 
effects of these storms. The associated spills, storm surge, and 
floodwaters often have carried salt water and pollution into sensitive 
and ecologically important waters and marshes that serve as the nursery 
for many rare birds, as well as fish, shrimp, and other forms of life. 
Reports are beginning to trickle in that serious saltwater 
contamination of freshwater wetlands is widespread in the storm-ravaged 
areas. In addition, huge oil and hazardous substance spills are likely 
to add to the adverse impacts. It is important that recovery efforts 
address these problems, and that natural resource damage assessments 
are funded and completed to determine the extent of the harm.
Cleanup and Rebuilding Should Proceed With Strong Health Protections; 
        Waivers of Environmental Laws Would Kick Hurricane Victims 
        While They Are Down
    New Orleans and the other storm-ravaged areas of Louisiana, 
Mississippi, and Alabama must be cleaned up and rebuilt to become 
healthy, thriving communities once again. Throughout this effort, 
cleanup standards and other health safeguards must be kept strong, to 
assure that people made vulnerable by the storm are not further 
threatened by inadequate cleanups or irresponsible reconstruction 
practices.
    Accordingly, we and the local citizens with whom we have been in 
constant contact strongly oppose proposals to weaken cleanup or 
pollution standards--in the Gulf states or anywhere else in the 
country. Such an approach would kick these communities while they are 
down. It also would unnecessarily and unjustifiably threaten public 
health and the environment in other parts of the country. Already, 
there are several harmful bills introduced in Congress that would allow 
further harm to the health of the hurricane victims, while jeopardizing 
public health and environmental safeguards across the nation. While 
there may be the need for very limited, time-restricted waivers of 
certain requirements in consultation with the public, current law 
provides such authorities to EPA and often to state authorities. 
Sweeping waivers or weakening of current health and environmental 
protections are ill-advised and will only further hurt the victims of 
Katrina and Rita.
Local Citizens, Including Low-Income and Predominantly African-American 
        Communities, Should Be Fully Informed and Integrated into 
        Cleanup and Rebuilding Decisions
    It is critically important that local citizens be fully informed 
about the risks they face, and that these citizens be included as full 
partners in cleanup and rebuilding decisions. Involvement of all 
communities, including the low-income and predominantly African 
American communities hardest hit by Katrina, is critically important to 
a successful rebuilding effort. The National Contingency Plan requires 
public disclosure of information and involvement in cleanup and 
response efforts, and many federal laws, such as RCRA and CERCLA, as 
well as the National Environmental Policy Act (NEPA), require public 
involvement in government decision making about environmental cleanup, 
waste disposal, or rebuilding efforts. Without this involvement, there 
will be widespread suspicion and anger from the very communities that 
the response actions and rebuilding are intended to help. Further 
disenfranchisement of already disenfranchised communities will 
seriously undermine the success of any government cleanup and 
rebuilding program.
 After Katrina: New Solutions for Safe Communities and a Secure Energy 
                                 Future
    NRDC recently published a report,
    After Katrina: New Solutions for Safe Communities and a Secure 
Energy Future, which I am attaching to this testimony. This report 
addresses many of the reasons why past poor environmental policies made 
Katrina worse, and makes a series of recommendations for responding to 
the disaster, rebuilding better and safer communities, and developing a 
more responsible energy program that would reduce the threat that such 
catastrophic disasters pose to our energy supply and nation. Below, we 
summarize this report.
Katrina's Lessons
    Hurricane Katrina exposed shocking holes in both our social fabric 
and our security safety net when she tore through the Gulf Coast. The 
storm also carried important lessons about management--or 
mismanagement--of essential health and environmental safeguards.
    Hurricanes are a fact of life on the Gulf Coast, and, invariably, 
some turn deadly. But decisions made by policymakers and elected 
officials have tremendous influence on our ability to absorb a storm's 
brute force. Their choices will also determine how quickly and how well 
communities cope with Katrina's environmental fallout, and whether low-
income people of color will suffer as disproportionately in the 
aftermath as they did in the storm itself.
    A century of poor planning and industrial abuse has stripped away 
much of the Gulf Coast's natural protection against storms and 
flooding. More than 1 million acres of coastal wetlands in Louisiana 
have been drained, lost to development, or starved of the Mississippi 
River sediments they need to survive.
    These wetlands could have absorbed storm surge and floodwaters, 
substantially reducing the storm's impact. When the storm came ashore, 
it swamped aging, underfunded drinking water and sewage systems and hit 
more than 60 major industrial facilities and four Superfund waste sites 
hard in New Orleans alone, adding unknown toxins to the stinking, toxic 
flood.
    Katrina caused nine oil spills totaling more than 7 million 
gallons, together ranking as one of the biggest U.S. spills in history. 
By contrast, the price shocks still rippling though the oil markets are 
not ultimately of Katrina's making. Rather they are due to soaring 
energy demand caused by years of official refusal to tackle our 
nation's energy dependence by diversifying our energy sources and 
improving fuel economy performance standards.
    Fixing these problems will make Gulf Coast communities safer and 
more secure and reduce the longterm cost of coping with the disaster. 
Lessons from Katrina will pay dividends in other regions subject to 
extreme weather disasters as well.
Planning for a Change
    The Natural Resources Defense Council (NRDC) has assembled a team 
of its best experts on public health, toxic waste, urban design, 
coastal protection, energy security, and global warming to present a 
set of policies and practices to protect the safety and well-being of 
Gulf Coast residents--today, during the recovery, and onward into a 
healthier, more sustainable future.
Protect Gulf Coast Communities from Toxic and Biological Hazards
    The Environmental Protection Agency (EPA), the Centers for Disease 
Control and Prevention, and independent experts should immediately 
broaden toxicity testing of water, sediments, and soils, as well as 
biomonitoring and health surveillance of responders and the public. 
Immediate widespread testing of water, sediment, and dried mud is 
critical to ensuring the safety of cleanup workers and returning 
residents, and for identifying toxic hot spots for containment and 
cleanup. Big industrial facilities, Superfund sites, and other toxic 
hotspots should be catalogued and evaluated, and any dangerous releases 
contained immediately. Immediate public disclosure of all information 
is also critical.
Quickly Restore Safe, Clean Drinking Water Supplies
    More than two weeks after Hurricane Katrina hit land on September 
17, 2005, 186 public water treatment systems in Louisiana and 229 in 
Mississippi were seriously compromised, completely out of commission, 
or unaccounted for; and 172 sewage treatment plants were not fully 
functioning. Hundreds more in Louisiana, Mississippi, and Alabama were 
operational but expected to need repair or reconstruction. New Orleans' 
drinking water system was completely knocked out but has started 
pumping non-potable water in some areas for fire control.
    All told, at least 2.4 million people were without access to safe 
drinking water and bacteria levels in floodwaters greatly exceeded 
public health standards shortly after Katrina. All these systems will 
need financial and technical assistance to get back into full, safe 
operation.
Restore Natural Coastal Buffers to Protect Against Storms
    Natural coastal barriers on the Gulf have nearly been destroyed by 
decades of industrial misuse and government-sponsored re-engineering 
gone awry. We must adopt a major coastal wetland restoration program in 
the wake of Katrina to build back what we ourselves destroyed. It is 
also critical to ensure that flood control projects ordered by Congress 
and developed by the Army Corps of Engineers are prioritized to protect 
population centers and serve legitimate flood control purposes, not the 
call of pork-barrel politics.
Rebuild for a Safe, Secure, Sustainable Future
    Now is a chance to restore New Orleans' 19th century elegance using 
today's know-how and technology. That means energy-efficient, weather-
resistant housing designed according to voluntary federal standards 
that save money and improve comfort for people who live there, no 
matter what their income. And it means family-friendly, mixed-use, 
mixed income walkable communities like many affected areas had in 
earlier days.
Maintain Health and Environmental Safeguards
    Lobbyists and their congressional allies are already lining up 
hoping to undercut long-standing health and environmental safeguards in 
the name of hurricane recovery. In a few select cases, it may make 
sense to make temporary accommodations in federal health and 
environmental rules to address legitimate needs. But nearly all of 
these can be accommodated without changes in current law, much less the 
blanket suspension legal safeguard being proposed by special interests.
Repair the Racial and Economic Inequity of Health and Environmental 
        Risk
    Environmental injustices have long plagued New Orleans and the Gulf 
Coast region. Cleanup efforts should adhere firmly to the standing 
Federal Executive Order designed to ensure environmental justice for 
communities of low income and color that are exposed to inequitable 
amounts of toxic pollution. In the rebuilding process, local 
governments' exercise of eminent domain powers should not be used to 
take properties in low-income communities of color.
Permanently Protect American Consumers from Energy Price Spikes
    In the wake of Katrina, oil and natural gas prices were 
skyrocketing. Although the worst of the panic induced run-up has 
abated, prices remain extremely high and experts are predicting a 
painfully expensive winter heating season. We cannot drill our way to 
energy security. The only real solution is to reduce the amount of 
energy we need to keep the economy humming. That means stronger fuel 
economy standards and rules requiring more efficient heating and air 
conditioning equipment and other energy conservation technologies.
Prevent the Added Threat of Global Warming
    Global warming didn't cause Katrina. But experts agree the warming 
climate caused by heat-trapping pollution is adding fuel to tropical 
storms--elevating category 3 storms into category 4 and so forth. 
Hotter climate also means more flood risk due to rising sea levels. 
There is growing bipartisan support in Congress and many states for 
concrete, market-based limits on global warming pollution.

    Mr. Bass. Thank you very much, Mr. Olson. Ms. Wright, Dr. 
Wright.

                   STATEMENT OF BEVERLY WRIGHT

    Ms. Wright. Thank you. Good morning, Mr. Chairman. Good 
morning, Mr. Chairman. I am Dr. Beverly Wright, Director of the 
Deep South Center for Environmental Justice at Dillard 
University in New Orleans, Louisiana, formerly at Xavier 
University. Regrettably, both of these historically black 
colleges are underwater now, and temporarily closed due to 
Hurricane Katrina. I have prepared a statement to present, 
taken from my testimony, but after listening to Mr. Olson, I 
decided that I would just, rather just give you some additional 
information that is of great concern to me and the people that 
I work with.
    I am a lifelong resident of New Orleans, Louisiana, went 
away to school to New York, but always loved that city, and 
found my way back. Today, I find myself extremely distressed 
over what has happened to my city, and what has happened to my 
people. Some of you may be aware, and may be not, but the 
majority of the city, two thirds of that city, that has, in 
fact, been destroyed, where some of us believe we may be 
permanently displaced, were where African-Americans lived.
    And there were two significant areas that were impacted, 
the Lower Ninth Ward, that you hear so much about, and what 
people may not know is that those person in the Lower Ninth 
Ward, though poor, were working poor, and they owned all of 
those houses in that area, and have been there for many years, 
and it was a very strong voting population. The other part of 
the city that was destroyed is where I lived, and where 
everybody that I know and love lived, and that is Eastern New 
Orleans, which was made up of most of your black professionals, 
doctors, lawyers, teachers, and even those of us who had 
managed to become extremely wealthy. That particular part of 
the city has also been destroyed.
    I hear all kinds of conversations about testing and people 
going back in, but no one is talking about New Orleans East or 
the Lower Ninth Ward, and just how devastated those areas are. 
The fact that we have been displaced will dramatically change 
the racial composition of that particular city, a city that I, 
where I can trace my ancestry back to Free Coloreds. Me and my 
family have lived there all my life, and never planned to 
leave. We have now been forced out.
    One of the real concerns that I have is what is happening 
as it relates to persons going back into the city to try to 
recoup any or all of what they can of their lives. For example, 
my mother passed away in April. I was in the process of 
collecting all of her pictures from childhood, and those 
pictures have been destroyed completely. I have nothing left of 
her. So, when you hear people talk about wanting to go home, 
even when things are dangerous, you have to understand the 
emotions that go along with trying to get back to your house. I 
am concerned, because no one seems to be telling people how 
dangerous it is. The reports of the mold are unbelievable, 
reports of mold are unbelievable. I mean, they have completely 
consumed our homes, and it is now climbing upstairs. If you had 
a two story house, it is moving upstairs. It is covering every 
piece of furniture, and the mold is of every color that you can 
imagine. And of course, we are wondering about black mold.
    People in New Orleans will be returning there on the 5th of 
September. I believe that is part of this supposed organized 
plan, I can tell you that plan is chaotic. There are meetings 
once a week at the City Capital and people are just turning up 
at those meetings in hundreds, trying to find out when they can 
get in, how they can get in, but no one is giving them any real 
scientific information about what the place is like. I am 
hearing words of people who are going in and then becoming 
extremely depressed, because they are going in expecting to see 
what they saw after Betsy, because as you know, people in New 
Orleans are kind of used to hurricanes and water rising, but 
this is not like anything that we have ever seen.
    I am very concerned that people will become ill. People are 
taking out clothing covered with mold. They are finding back 
ways into the city. Any way that they can get in, they are 
going. We really and truly need to have some kind of Katrina 
survivor kit, or something that people are given before they go 
into the communities. I am told that they are given a handout. 
I have not seen it. Nobody has any information that I know. 
People that I know have nothing to warn them about what is 
going on, what the hazards are when they get there, or what 
they should do once they are inside.
    There is almost terror in the eyes of so many people, when 
they, in fact, think about never returning home. Some kind of 
structured response needs to go forward, and African-Americans 
in the city of New Orleans, those of us who have worked all our 
lives for what we have, and we have lost it, need to be told 
something. I am really begging the Environmental Protection 
Agency to do a better job than what it is doing. I have worked 
with EPA for years. I have fought with them, and fought with 
them. On this particular issue, I have to tell you I am very 
disappointed.
    I hear words about Lake Pontchartrain. Well, you know, that 
is a really big lake, and so if a lot of nasty stuff flows into 
it, it may survive, but my house won't. And so, all of those 
chemicals that were going into a huge lake that is a lot of 
water, have also gone through my house, and I have nothing to 
wash it away. There is nothing to decrease the amounts of the 
contaminants in my house, or the houses of those people that I 
love.
    I know I am forgetting something really important, because 
I am getting a little emotional, but I thank you for allowing 
me to speak. And this one last thing: I almost forgot. There 
are counties in Mississippi, and we have been getting calls 
from them, who have not received any help from the Red Cross or 
anybody. They have no electricity. They have no water. They 
have no ice. They have no food. And we are getting these calls, 
and people are trying to respond. We would like to know how we 
can advocate on their behalf, to make sure that these 
communities in Mississippi, rural communities, that are sitting 
way back someplace that most people don't know about, trees are 
down, wires are down, and they are really suffering.
    Mississippi was hit very hard, just as Louisiana was, and 
so was Alabama. New Orleans was hit in a different kind of way, 
one that is really devastating for us, but all of the people of 
the Gulf Coast need to have better attention made, given to 
them, especially as it is related to them, their being able to 
return home.
    Thank you.
    [The prepared statement of Beverly Wright follows:]
 Prepared Statement of Beverly Wright, Director, Deep South Center for 
   Environmental Justice and Co-Chair, National Black Environmental 
                            Justice Network
    Good morning Mr. Chairman. I am Dr. Beverly Wright, Director of the 
Deep South Center on Environmental Justice at Dillard University, 
formerly at Xavier University. Regrettably, both of these Historically 
Black Colleges are underwater now and temporarily closed due to 
Hurricane Katrina. I am also here today representing the National Black 
Environmental Justice Network (NBEJN), which was founded in New 
Orleans, LA in December 1999. People of African descent in the United 
States organized ourselves in response to what we know is a State of 
Emergency in Black America.
    NBEJN members founded the organization in New Orleans because we 
felt then, as now, that Louisiana and the Chemical Corridor between the 
City and Baton Rouge are under siege from and epitomize environmental 
and economic assaults. These assaults are costing Black people their 
very lives. NBEJN believes in the sacred value of every human life 
regardless of race, ethnicity, religion or socioeconomic status. We see 
in the tragedy of Hurricane Katrina, Hurricane Rita and the aftermath a 
unique opportunity to shape the conversation and dialogue about 
rebuilding of New Orleans and the Gulf Coast region with the goals of 
environmental and economic justice for everyone.
    Thank you for the opportunity to testify before the Subcommittee on 
critical issues of concern in the aftermath of the hurricanes. My 
professional and personal experiences of growing up, living and working 
in the City of New Orleans greatly influence my perspective and 
testimony.
Who We Are
    The Deep South Center for Environmental Justice (DSCEJ), at Dillard 
University in New Orleans, formerly at Xavier University of Louisiana, 
is now temporarily relocated in Baton Rouge, Louisiana.
    The Deep South Center was launched in 1992 in collaboration with 
community environmental groups and other universities within the 
southern region to address environmental justice issues. DSCEJ provides 
opportunities for communities, scientific researchers, and decision 
makers to collaborate on programs and projects that promote the rights 
of all people to be free from environmental harm as it impacts health, 
jobs, housing, education, and general quality of life. A major goal of 
the Center is development of minority leadership in the areas of 
environmental, social, and economic justice along the Mississippi River 
Chemical Corridor. The Deep South Center for Environmental Justice is a 
powerful resource for environmental justice education and training.
    DSCEJ has developed and embraces a model for community partnership 
that is called ``communiversity.'' The essence of this approach is an 
acknowledgement that for effective research and policy-making, valuable 
community life experiences regarding environmental impacts must be 
integrated with the theoretical knowledge of academic educators and 
researchers. The Deep South Center for Environmental Justice has three 
components in terms of reaching our objectives: (1) research and policy 
studies, (2) community outreach assistance and education; and (3) 
primary, secondary, and university education.
Target Aea and Population Served
    DSCEJ is national in scope with emphasis on the Mississippi River 
Chemical Corridor and Gulf Coast Region and global emphasis on 
communities impacted by the petrochemical industry. The major 
populations served include people of color with special concentration 
on African Americans and the African Diaspora, students and faculty at 
Historically Black Colleges And Universities/Minority Serving 
Institutions (HBCU/MSI) and public school teachers in urban areas. 
DSCEJ has forged collaborations with other major research institutions 
and governmental agencies that can assist in the development and 
implementation of the center's work.
Center Objectives
    DSCEJ principal objectives include: (1) development of minority 
leadership in the field of environmental justice; (2) development of 
culturally sensitive training models for minority residents in at-risk 
communities; (3) development and distribution of culturally sensitive 
environmental justice education materials and training modules; (4) 
increasing environmental justice literacy among college students at 
HBCU/MSI's; (5) development of a pipeline creating a new generation of 
environmental justice leaders at HBCU/MSI's; (6) development and 
implementation of a K-12 teacher training program in environmental 
justice; (7) conducting research to determine the impact and extent of 
toxic exposure for minority communities as it affects health and the 
environment; (8) investigating means of addressing these problems 
(i.e., brownfields redevelopment, toxics use reduction, climate change, 
clean production and green chemistry, and economic development; and (9) 
creating linkages between impacted communities, scientific researchers, 
and government officials to address environmental justice issues as 
they impact health, jobs, housing, and overall quality of life.
Katrina Aftermath
    As the floodwaters recede in New Orleans and the Gulf Coast region, 
it is clear that the lethargic and inept emergency response immediately 
following this devastating storm was the real disaster that nearly 
overshadowed the actual storm. We were all left nearly paralyzed in 
front of our television sets completely unable to continue with our 
daily lives watching the unbelievable events unfold right before our 
eyes. Americans were shocked beyond belief that this could happen in 
America, to Americans. It also raised lingering questions and doubts 
about our overall security. Is government equipped to plan for, 
militate against, respond to, and recover from natural and manmade 
disasters? Can the public trust government's response to be fair? Does 
race matter?
    Examination of historical data reveals that emergency response 
reflects the pre-existing socioeconomic and political structures of a 
disaster area and is based on race and class differentials. Generally 
communities of color receive less priority in response time than do 
their white counterparts where emergency response is required.
Before Hurricane Katrina--Pre Existing Vuknerabilities
    Katrina struck a region that is disproportionately African American 
and poor. For example African Americans make up twelve percent of the 
United States population. New Orleans is nearly 68 percent black. The 
African American population in the Coastal Mississippi counties where 
Katrina struck ranged from 25 percent to 87 percent black. Some 28 
percent of New Orleans residents live below the poverty level and more 
than 80 percent of those are black. 50 percent of all New Orleans 
children live in poverty. The poverty rate was 17.7 percent in 
Gulfport, Ms. And 21.2 percent in Mobile, Al. in 2000. Nationally, 11.3 
percent of Americans and 22.1 percent of African Americans live below 
the poverty line in 2000.
    New Orleans is prototypical of environmental justice issues in the 
Gulf Coast region. Before Katrina, the City of New Orleans was 
struggling with a wide range of environmental justice issues and 
concerns. Its location along the Mississippi River Chemical Corridor 
increased its vulnerability to environmental threats. The City had an 
extremely high childhood environmental lead poisoning problem. There 
were ongoing air quality impacts and resulting high asthma and 
respiratory disease rates and frequent visits to emergency rooms for 
treatment by both children and adults. Environmental health problems 
and issues related to environmental exposure was a grave issue of 
concern for New Orleans residents.
    The African American community in New Orleans was already grappling 
with the nationally identified health disparities for minorities 
reported by the National Institutes of Health (NIH). These conditions 
were exacerbated by environmental conditions triggering asthma and 
exposing children to lead. High blood pressure, diabetes and cancer 
were also prevalent in the African American community.
Displacement Post Katrina
    Residents in the Gulf Coast region fled the hurricane zone. More 
than a million Louisiana residents fled Hurricane Katrina. An estimated 
100,000 to 300,000 Louisiana residents alone could end up permanently 
displaced. Nearly 100,000 Katrina evacuees are in 1,042 shelters 
scattered in 26 states and the District of Columbia. Katrina has left 
environmental contamination in Gulf Coast neighborhoods that will have 
to be cleaned up before residents can move back. An estimated 150,000 
houses may be lost as a result of standing in water from Katrina. We 
are still grappling with understanding the full impacts of both 
Hurricanes Katrina and Rita.
    Thousands of hurricane survivors along the Gulf Coast must now cope 
with the loss of relatives and friends, homes, and businesses and, what 
we term, loss of community. Katrina displaced just under 350,000 school 
children in the Gulf Coast. An estimated 187,000 school children have 
been displaced in Louisiana, 160,000 in Mississippi and 3,118 in 
Alabama. Katrina closed the entire New Orleans school system 
indefinitely. One hundred and twenty-five thousand New Orleans children 
alone are attending schools elsewhere. Over 93 percent of New Orleans 
schools students are African American. Evacuees' children are being 
enrolled in schools from Arizona to Pennsylvania, including almost 
19,000 who will be attending schools in Texas.
    For the survivors who lost everything, it involves coping with the 
stress of starting all over. Two weeks after Katrina struck, more than 
2,500 children were still separated from their families. One can only 
imagine the mental anguish these families are going through. On the 
heels of this disaster, Hurricane Rita struck the coastal areas again.
Environmental Damage
    New Orleans and outlying areas suffered severe environmental damage 
during Katrina, the extent to which has yet to be determined. The post-
Katrina New Orleans has been described as a ``cesspool'' of toxic 
chemicals, human waste, decomposing flesh and surprises that remain to 
be uncovered in the sediments. Massive amounts of toxic chemicals were 
used and stored along the Gulf Coast before the storm. Literally 
thousands of sites in the storms path used or stored hazardous 
chemicals, from the local dry cleaner and auto repair shops to 
Superfund sites and oil refineries in Chalmette and Meraux, La, where 
there are enormous stores of ultra-hazardous hydrofluoric acid. In the 
aftermath of the storm some sites were damaged and leaked. Residents 
across the Gulf Coast and the media reported, ``oil spills, obvious 
leaks from plants, storage tankards turned on end and massive fumes.''
    Short-term rebuilding objectives must not outweigh long-term public 
health protection for all Americans and the environment they depend 
upon. Some of the legislative proposals now under consideration in the 
aftermath of Katrina do not adhere to this principle. Congress must act 
now to protect our most vulnerable populations and preserve our most 
unique and irreplaceable resources. It is imperative that Congress 
responds quickly and effectively to the devastating aftermath of 
Hurricanes Katrina and Rita. It is also important, to temper our haste 
to rebuild with balance in our response to ensure appropriate respect 
for public health and the environment. Moreover, the public has a right 
to clean air and water and it must be protected.
    There is much speculation about what the new New Orleans will look 
like: whether the Mississippi Gulf Coast should now consider land-based 
Casinos versus riverboats; the social economic and political structure 
of ``New'' New Orleans; rebuilding a green and sustainable Gulf Coast 
region that embraces innovative green building technologies and 
principles; construction of a levee system that will protect New 
Orleans; and development of environmentally and economically 
sustainable communities must all be explored simultaneously. None of 
these concepts are relevant unless the cleanup in the region is 
properly conducted and completed. This conclusion is not based on 
speculation. The community of Agriculture Street Landfill in the City 
of New Orleans has lived the nightmare of discovering that their homes 
were built on top of a landfill that was reopened to dispose of the 
tons of debris resulting from Hurricane Betsy.
Hurricane Betsy--New Orleans, Louisiana
    Hurricane Betsy struck the State of Louisiana and the City of New 
Orleans in 1965. Betsy was then the ``most destructive hurricane on 
record to strike the Louisiana coast.'' <SUP>1</SUP> The damage and 
flooding throughout the State covered 4,800 square miles, killed 81 
persons, caused the evacuation of 250,000 persons, and disrupted 
transportation, communication, and utilities services throughout the 
eastern coastal area of Louisiana for weeks. Betsy hit the mostly Black 
and poor New Orleans Lower Ninth Ward especially hard. This is the same 
neighborhood that was inundated by floodwaters from Katrina and then 
suffered the indignity of a second flooding by Rita. Over 98 percent of 
the Lower Ninth Ward residents are Black and a third live below the 
poverty level.
---------------------------------------------------------------------------
    \1\ Craig E. Colten and John Welch. ``Hurricane Betsy and Its 
Effects on the Architecture Integrity of the Bywater Neighborhood: 
Summary.'' May 2003.
---------------------------------------------------------------------------
    Many Black New Orleans residents still believe that white officials 
intentionally broke the levee and flooded the Lower Ninth Ward to save 
mostly white neighborhoods and white business districts. In 1965, a 
disproportionately large share of Lower Ninth Ward residents did not 
receive adequate post-disaster financial assistance in the form of 
loans and other support to revitalize the area. Betsy accelerated the 
decline of the neighborhood and out-migration of many of its longtime 
residents. Debris from Betsy was buried in the Agricultural Street 
Landfill--located in a predominately Black New Orleans neighborhood. 
Over 390 homes were built on the northern portion of the site from 
1976-1986. The Agricultural Street Landfill neighborhood was added to 
the National Priorities List as a Superfund site in 1994.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ See Agency for Toxic Substances and Disease Registry, Public 
Health Assessment--Agriculture Street Landfill, New Orleans, Orleans 
Parish, Louisiana, Atlanta, GA: ATSDR (June, 1999); Alicia Lyttle, 
Agriculture Street Landfill Environmental Justice Case Study, 
University of Michigan School of Natural Resources, Ann Arbor, Michigan 
(January 2003).
---------------------------------------------------------------------------
New Orleans Agriculture Street Landfill Community
    Dozens of toxic time bombs along Louisiana's Mississippi River 
petrochemical corridor, the 85-mile stretch from Baton Rouge to New 
Orleans, make the region a major environmental justice battleground. 
The corridor is commonly referred to as Cancer Alley. Black communities 
all along the corridor have been fighting against environmental racism 
and demanding relocation to areas away from polluting 
facilities.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Robert D. Bullard, The Quest For Environmental Justice: Human 
Rights and the Politics of Pollution (San Francisco: Sierra Club Books, 
2005.
---------------------------------------------------------------------------
    Two largely Black New Orleans subdivisions, Gordon Plaza and Press 
Park, have special significance in terms of environmental justice and 
emergency response. Both subdivisions are built on a portion of land 
that was used as a municipal landfill for more than 50 years. The 
Agriculture Street Landfill, covering approximately 190 acres, was used 
as a city dump as early as 1910. Municipal records indicate that after 
1950, the landfill was mostly used to discard large solid objects, 
including trees and lumber, and it was a major source for dumping 
debris from the very destructive 1965 Hurricane Betsy. It is important 
to note that the landfill was classified as a solid waste site and not 
a hazardous waste site.
    In 1969, the federal government created a home ownership program to 
encourage lower income families to purchase their first home. Press 
Park was the first subsidized housing project of this program in New 
Orleans. The federal program allowed tenants to apply 30 percent of 
their monthly rental payments toward the purchase of a family home. In 
1987, seventeen years later, the first sale was completed. In 1977, 
construction began on a second subdivision, Gordon Plaza. This 
development was planned, controlled, and constructed by the U.S. 
Department of Housing and Urban Development (HUD) and the Housing 
Authority of New Orleans (HANO). Gordon Plaza consists of approximately 
67 single-family homes.
    In 1983, a portion of the Agriculture Street Landfill site was 
purchased by the Orleans Parish School Board as a site for a school. 
The fact that this site had previously been used as a municipal dump 
prompted concerns about the suitability of the site for a school. The 
school board contracted engineering firms to survey the site and assess 
it for contamination and hazardous materials. Heavy metals and organics 
were detected.
    Despite the warnings, Moton Elementary School, an $8 million state-
of-the-art public school opened with 421 students in 1989. In May 1986, 
EPA performed a site inspection (SI) in the Agriculture Street Landfill 
community. Although lead, zinc, mercury, cadmium, and arsenic were 
found at the site, based on the Hazard Ranking System (HRS) model used 
at that time, the score of 3 was not high enough to place them on the 
National Priority List (NPL).
    On December 14, 1990, EPA published a revised HRS model in response 
to the Superfund Amendments and Reauthorization Act (SARA) of 1986. At 
the request of community leaders, in September 1993, an Expanded Site 
Inspection (ESI) was conducted. On December 16, 1994, the Agriculture 
Street Landfill community was placed on the NPL with a new score of 50.
    The Agriculture Street Landfill community was home to approximately 
900 African American residents. The average family income is $25,000 
and the educational level is high school graduate and above. The 
community pushed for a buy-out of their property and to be relocated. 
However, this was not the resolution of choice by EPA. A cleanup was 
ordered at a cost of $20 million, the community buy-out would have cost 
only $14 million. The actual cleanup began in 1998 and was completed in 
2001.<SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Alcia Lyttle, ``Agricultural Street Landfill Environmental 
Justice Case Study,'' University of Michigan School of Natural Resource 
and Environment found at http://www.umich.edu/snre492/Jones/
agstreet.htm. (Accessed on October 6, 2004).
---------------------------------------------------------------------------
    The Concerned Citizens of Agriculture Street Landfill filed a class 
action suit against the City of New Orleans for damages and relocation 
costs. It took nine years to bring this case to court.<SUP>5</SUP> The 
case was still pending before Katrina struck. It is ironic that the 
environmental damage wrought by Katrina may force the cleanup and 
relocation of the Agriculture Street Landfill community. But nothing 
can give them back their health and well being, or replace the family 
members and friends who might still be with them were it not for the 
health effects of living on a landfill.
---------------------------------------------------------------------------
    \5\ Robert D. Bullard, The Quest For Environmental Justice: Human 
Rights and the Politics of Pollution.
---------------------------------------------------------------------------
    Have we learned anything over the last 40 years, since Hurricane 
Betsy struck, that should guide our decisions after Hurricanes Katrina 
and Rita? Much of the proposed legislation concerning rebuilding the 
Gulf Coast region strongly suggests that we have not. In fact, it seems 
that some are using the crisis of Hurricane Katrina to advance their 
political and policy agenda, including weakening, waiving and rolling 
back public health, environmental justice and environmental laws and 
regulations.
    It is ironic that the tragedy of Hurricane Katrina is being used to 
justify sweeping waivers of public health, safety and environmental 
laws. S. 1711 would confer on the U.S. Environmental Protection Agency 
(EPA) sole and absolute authority to waive federal or state laws 
anywhere in the country for up to one and a half years. In addition, 
the waiver authority would extend well beyond environmental laws. EPA 
need only claim such waiver is in the public interest and is somehow 
linked to Hurricane Katrina. The Agency need not demonstrate that 
waivers are required to protect public health and safety, and there is 
no requirement that EPA provide any public health protection in 
exchange for granting waivers.
    Foremost, Senate Bill 1711 and other legislation of this ilk 
threatens the most vulnerable communities in the Gulf Coast, and those 
living in the shadows of oil refineries, by authorizing the elimination 
of protection that ensures that residents have clean water to drink, 
clean air to breathe, and the right to live in a toxic-free community. 
With the hurricane devastation disproportionately hurting poor and 
minority residents already, this bill adds insult to injury by allowing 
private industry to operate above the law and risks more suffering on 
the part of people most affected by the hurricane. Remember the lessons 
of Betsy and remember the Agriculture Street Landfill community.
    EPA Administrator Stephen Johnson told Congress on September 13, 
2005 that the Agency has all the authority needed under existing law to 
respond to Hurricane Katrina and has already used that authority to 
relax some environmental programs. Granting EPA unlimited waiver 
authority and opening the door to risking the health and safety of 
millions of Americans is not the way to help Gulf Coast states recover 
from Hurricane Katrina.
    According to EPA tests, the biological threats from the flood 
include elevated levels of E coli bacteria and toxic mold. 
Contamination from industrial facilities pose a more troubling long-
term concern with more than 40 oil spills recently reported in 
Louisiana by the Coast Guard and thousands of chemical containers 
spotted bubbling in the region's flood water. The oozing sediments that 
coat flood impacted areas may yield an even greater danger in the 
coming months as the ground dries, releasing airborne contaminants like 
harmful organic gases such as the highly toxic methane and fuel vapors. 
The potential health effects range from allergic reaction to organic 
damage.
    The U.S. Environmental Protection Agency has released test results 
for toxic chemicals in floodwaters for less than 30 sampling sites, all 
in downtown New Orleans, far from hot spots in outlying areas. Even 
these ``limited results were weeks old despite'' ever-increasing 
numbers of clean-up crews and residents pouring into surrounding 
parishes. EPA's Response to Katrina web page indicates only a ``few 
hazardous'' chemicals having been found in quantities over their 
acceptable limits none of which present a substantial risk to the 
public.
    Also, risk to human health posed by hazardous chemicals likely to 
be present in flood-ravaged areas is conspicuously absent from publicly 
available information. EPA's website provides no information that would 
help someone identify symptoms of potentially life threatening or 
debilitating exposures to hazardous chemicals as they do for bacterial 
contaminant exposures such as E coli.
    In closing, and speaking as a life long resident of the City of New 
Orleans, for the last fifteen years, I have fought for a better quality 
of life for New Orleans citizens and those living along the Mississippi 
River Chemical Corridor, infamously known as Cancer Alley. I have 
worked with government to ensure environmental protection for 
communities. I have fought against environmental racism and for 
environmental justice for all, and I am greatly concerned about what I 
have seen in response to Katrina. What local communities in the Gulf 
coast region need now from government agencies is the truth even if it 
hurts. Please level with the American people before we return to our 
homes or send our children back to school, so that we can make the best 
possible choices under these circumstances.
    The right thing to do is to expand chemical testing, provide more 
timely and forthcoming test results, and engage stakeholders, 
especially those from the impacted region. Under this approach, EPA and 
other government agencies might be successful this time in carrying out 
their charge of protecting the public. If Katrina has taught us nothing 
else, it has shown us how essential access to information is to our 
ability to deal with crises. By not being forthcoming with information 
and not providing transparency in the process, agencies endanger 
American lives and further tarnish their own credibility.
    In the wake of Katrina, there should be:

 Timely and accurate information about risk and a coherent plan to 
        address hazards;
 EPA and Congress should provide enhanced air and water quality 
        monitoring to both inform the clean-up process and to give 
        confidence to citizens and businesses returning and rebuilding 
        New Orleans and the Gulf Coast;
 Citizens should know that their health is being protected by EPA and 
        government agencies; and
 Citizens should be given clear and accurate instruction on procedures 
        for reentering the City and other areas in the Gulf Coast 
        region to protect their health.
    I have attached for your consideration a Resolution issued by the 
National Black Environmental Justice Network which outlines the full 
range of issues and recommendations that should be addressed in this 
post-hurricane cleanup and rebuilding process. We urge Congress to 
oversee federal agencies responding to the hurricanes in terms of: (1) 
prohibiting discrimination based on race, income, religion and national 
origin; (2) compliance with the Executive Order 12898 on Environmental 
Justice; and (3) compliance with Title VI of the 1964 Civil Rights Act 
which, in general, prohibits discrimination in programs funded by 
federal dollars.
    Finally, I to draw your attention to the many vulnerable 
communities of color that exist in the shadow of chemical and petro 
chemical facilities along the Alabama, Mississippi, Louisiana, and 
Texas Gulf Coast, who are especially in harms way at this time. Don't 
forget those places in assessing the devastating impacts of both 
Hurricanes Katrina and Rita. Too much focus is on the structural 
integrity of chemical plants, oil refineries, and oil rigs and 
insufficient attention is focused on the devastating impact that 
communities have suffered as a result of proximity to these facilities. 
These people may never be able to return to their homes. These 
communities warrant our attention, our resources, and the full efforts 
of all branches of government to ensure their survival and protection 
in the future.
              NATIONAL BLACK ENVIRONMENTAL JUSTICE NETWORK
  Resolution On Environmental and Economic Justice In The Gulf Coast 
 Region Environmental Cleanup, Restoration And Rebuilding Sustainable 
  Communities Post-Hurricane Katrina and Beyond<SUP><dbl-dagger></SUP>
    The National Black Environmental Justice Network (NBEJN) was 
founded in New Orleans, Louisiana in December 1999 in response to a 
State of Emergency in Black America. New Orleans was selected as the 
ideal location to launch NBEJN since the City of New Orleans, Louisiana 
and the Chemical Corridor, encompassing the area up to Baton Rouge, are 
under siege due to wide ranging environmental and economic assaults. 
These assaults are costing Black lives.
    NBEJN values as sacred every human life regardless of race, 
ethnicity, religion or socio-economic status. We view the tragedy of 
Hurricane Katrina and its aftermath as a unique opportunity to shape 
the conversation and dialogue about rebuilding the Gulf Coast region 
including Gulf Coast states and Greater New Orleans in ways that 
provide environmental and economic justice for the entire affected 
population.
    WHEREAS, race and class intersected with the Katrina disaster in 
ways that compound the impacts on Black communities and issues of race 
and class will affect environmental cleanup and restoration, public and 
environmental health, regional equity, community development and 
economic recovery;
    WHEREAS, NBEJN is committed to alleviating and remedying the 
impacts of Hurricane Katrina on Black families, in particular, 
environmental, public health and economic consequences of the storm and 
its aftermath on the health and well being of survivors;
    WHEREAS, the NBEJN post-hurricane focus centers on research, policy 
development and education advocacy, communications and media, outreach 
and networking in the areas of environmental justice; economic justice; 
environmental health; protection of public health; regional equity, 
sustainable development; cultural preservation; climate justice; 
homeland insecurity; and emergency responses;
    WHEREAS, NBEJN and its members will monitor hearings and 
investigations convened by Congress, state legislatures and 
governmental agencies about Hurricane Katrina to ensure that the 
environmental and economic justice aspects of the disaster are 
prominent;
    WHEREAS, there are urgent needs in hundreds of Black communities 
throughout the Gulf Coast region in terms of moving forward on 
environmental cleanup, habitability, restoration and rebuilding those 
areas devastated and/or destroyed by Hurricane Katrina and the Lake 
Pontchatrain levee breaches;
    WHEREAS, worker safety and health and public safety and health and 
public security are essential;
    WHEREAS, concern about homeland insecurity among African American 
communities pre-dates Hurricane Katrina and these communities are 
uniquely affected due to their close proximity to petrochemical and 
chemical plants and other environmentally harmful facilities;
    WHEREAS, all local, state and regional emergency preparedness plans 
must be designed to address the needs of people with low-incomes who 
don't have resources to evacuate themselves and their families in the 
event of natural and other disasters;
    WHEREAS, there must be a governmental inventory, assessment of and 
response to the impacts of Hurricane Katrina on potentially hazardous 
permitted and non-permitted operations including treatment, storage and 
disposal facilities, Superfund sites, chemical weapons stockpiles, 
pesticide and chemical storage facilities, refineries and manufacturing 
plants, and other existing and potential environmental hazards in the 
Gulf Coast region;
    WHEREAS, local zoning ordinances must be promulgated to prohibit 
siting, permitting and operation of heavy industrial facilities 
adjacent to, in or near residential areas,
    WHEREAS, there must be continuous testing and monitoring of 
drinking water and water quality in and around Greater New Orleans and 
the Gulf Coast region and testing must occur short- medium- and long-
term;
    WHEREAS, global warming and climate change have dire health and 
environmental consequences in vulnerable African-American communities 
in the Gulf Coast region and elsewhere;
    WHEREAS, wetlands preservation, restoration and erosion control 
must be accelerated to protect the Gulf Coast Region and in the 
Mississippi River chemical corridor;
    WHEREAS, in consultation with affected communities, the U.S. Army 
Corps of Engineers and engineering experts should be delegated the 
responsibility of designing, constructing and maintaining a better, 
more effective system of levees, improved drainage, and rerouting of 
the flood control systems that continually inundate the lower 9th Ward 
community;
    WHEREAS, the U.S. Congress, the U.S. Department of Homeland 
Security, the U.S. Department of Defense, U.S. Department of Interior 
and the U.S. Environmental Protection Agency should ensure that these 
re-engineering, wetlands preservation and restoration, and flood 
prevention and drainage efforts are fully funded;
    WHEREAS, expediency in the aftermath of Hurricane Katrina cannot be 
a pretext to weaken or waive environmental authorities in the Gulf 
Coast region or elsewhere in the United States including all existing 
local, state, regional and federal environmental laws and regulations;
    WHEREAS, environmental cleanups must be conducted fairly and 
equitably in every affected community including decisions about areas 
wherein the most stringent cleanup levels will be applied during 
restoration, redevelopment and rebuilding;
    WHEREAS, the Federal Emergency Management Agency (FEMA) and the 
U.S. Department of Homeland Security must comply with Executive Order 
12898 on Environmental Justice including immediate action on new 
disaster preparedness models that address the needs and challenges of 
the lowest income person in every community;
    WHEREAS, fair and equitable access to and distribution of resources 
is paramount in all post-hurricane operations and activities, minority 
businesses in the environmental, community development and construction 
sectors must be utilized in the short- medium- and long-term cleanup 
and rebuilding efforts;
    WHEREAS, there must be a public process to develop a broad, 
socially and equitably just vision for a new, revitalized Gulf Coast 
region and Greater New Orleans, encompassing prominent roles for poor, 
low and moderate income African-Americans in designing and implementing 
the vision and the rebuilding plans;
    WHEREAS, economic parity is a cardinal objective in a revitalized 
and renewed Gulf Coast region and Greater New Orleans, cultural 
preservation, poverty alleviation and sustainable development are 
highly valued, central facets of every revitalization strategy;
    WHEREAS, local jurisdictions in the Gulf Coast region must not use 
eminent domain in the rebuilding process in ways that result in taking 
of properties in Black communities in order to convert them to public 
or other uses;
    WHEREAS, redevelopment and revitalization plans and rebuilding 
infrastructure must benefit those communities most affected by the 
hurricane, these efforts cannot exacerbate gentrification in ways that 
result in more residential and commercial displacement for Black 
people, many or whom are poor;
    WHEREAS, rebuilding activities in the Gulf Coast region must first 
deploy local businesses and hire local Black workers and local low-
income workers to participate in the rebuilding efforts;
    WHEREAS, jurisdictions in the Gulf Coast region must focus on 
creating sustainable low and moderate income housing (concentrating on 
historic and cultural preservation), and address the fair housing 
issues embedded in the temporary and long-term resettlement of 
surviving evacuated Black families;
    WHEREAS, the private sector must exercise caution in real estate 
and business financing and property-casualty insurance practices to 
prevent insurance and lender redlining and price-gouging and to ensure 
that insurance claims are paid fairly and equitably;
    WHEREAS, local, state, regional and federal government agencies 
must exercise oversight to ensure that post-hurricane insurance and 
banking practices are fair and equitable;
    WHEREAS, continuing the education of the young survivors of the 
hurricane, children and youth, must be a priority at the levels of pre-
kindergarten, elementary, high school, secondary and post secondary 
education;
    WHEREAS, full employment, job placement, job training and worker 
re-training programs are key to restoring the lives of Gulf Coast 
survivors and achieving economic justice;
    WHEREAS, a Reparations And Victims Compensation Fund should be 
established to benefit all persons displaced by Hurricane Katrina and 
African-Americans should receive just and equitable compensation from 
such a fund;
    WHEREAS, special outreach efforts must address and assist 
undocumented persons and other immigrants in a time of disaster 
including those who don't speak English;
    THEREFORE BE IT RESOLVED that the National Black Environmental 
Justice Network (NBEJN) is committed to rebuilding the Gulf Coast 
Region including Greater New Orleans in collaboration with 
stakeholders, local, state, regional and federal elected officials, 
governmental agency officials and other entities in the public and 
private sectors;
    BE IT FURTHER RESOLVED that the National Black Environmental 
Justice Network calls on stakeholders, local, state, regional and 
federal elected officials, governmental agency officials and other 
entities in the public and private sectors to adopt environmental and 
economic justice principles and approaches in the Gulf Coast Region 
cleanup, restoration and rebuilding efforts; and
    BE IT FURTHER RESOLVED that all federal and state efforts should 
comply with Title VI of the 1964 Civil Rights Act, the Executive Order 
12898 on Environmental Justice, and United Nations directives on 
displaced persons.

Copyright 2005 All Rights Reserved.

    Mr. Bass. Thank you, Dr. Wright. Mr. Verchick.

                STATEMENT OF ROBERT R.M. VERCHICK

    Mr. Verchick. Thank you, Mr. Chairman, and members of the 
subcommittee. Thank you for the opportunity to be here today. I 
testify as an expert in environmental law and policy, a 
resident of New Orleans, and a board member of the Center for 
Progressive Reform.
    Last week, or rather, earlier this week, the Center 
released a 56 page report titled ``An Unnatural Disaster: The 
Aftermath of Katrina,'' along with a separate report on the 
Army Corps' proposed barrier project, which was talked about 
earlier in the first panel. I ask that both of these reports, 
along with my oral testimony today, be entered into the 
Congressional Record.
    I am an evacuee, like Dr. Wright, and lost part of my 
house. I am teaching in Houston now, my family is in Washington 
State, and I am hoping to return in January. I have three young 
boys, and I am not sure they will be able to. And part of that 
is what is motivating me to be here today.
    The first thing I would like to do is talk about something 
that occurred in the panel just before, because as a law 
professor, I am especially sensitive to legal inaccuracies, and 
I want to just make one thing perfectly clear. It is, I think, 
false to suggest, in terms of the Army Corps' sea gate barrier 
project, it is false to suggest that a small, grassroots 
organization in the 1970's overturned the will of the 
Department of Defense and the Army Corps of Engineers. I want 
to explain exactly, as a legal matter, what happened about 
that. It involved a 1977 lawsuit against the Army Corps of 
Engineers, in a proposal to build a sea gate. They were 
required, the Army Corps was, to have an environmental impact 
statement. Their impact statement was based on models 10 years 
old. All of its biological analysis was based exclusively on a 
phone call with a single marine biologist, and the Corps' chief 
engineer himself wanted more information about the sea gates 
and the models. Based on this information, a court in 1977 
struck the EIS, the environmental impact statement, and invited 
the Corps to update the hydrological models so that the plan 
could move forward. Then, instead of fixing the EIS, the Corps 
in the 1980's, under a different Administration, dropped the 
barrier plan entirely in favor of an upgraded levee plan 
because, among other reasons, it was, and this is according to 
the GAO, it was: ``It would cost less to do the levee system 
instead.'' I simply want to make the point that whether or not 
you favor sea gates, one has to understand that the decision 
about sea gates belonged to the Army Corps of Engineers and no 
one else. And if Congress is interested in more sea gate 
technology, it should know that the Army Corps last year, in 
fact, has another sea gate proposal, that it is working on 
planning, and it may or may not be something that the Congress 
wants to fund. But I simply want to point that out.
    I want to move on now to what I originally planned on 
talking about, which is points having to do with the toxins, 
and I have three points that I want to make. One, the 
environmental contamination left in the wake of Katrina is 
extremely serious. It must be investigated thoroughly, and 
remedied adequately before people are allowed to occupy the 
city again.
    My second point is that to have credibility, and to 
accomplish this difficult task, the investigation must ask 
questions that are conducted by an independent, bipartisan 
taskforce, similar to the September 11 commission.
    And third, now is not the time to repeal, roll back, waive, 
any of our crucial environmental laws, as some members of 
regulatory industries have suggested. This is not a time for 
anti-regulatory profiteering at Louisiana's expense. We need 
the Clean Air Act, the Clean Water Act, the Safe Drinking Water 
Act, RCRA, Superfund, and so on, and we need them funded. The 
problem with the floods has something to do with the fact that 
a lot of the controlled industries in that area did not 
adequately have charge of the contaminants to begin with. To 
talk just a little bit about the contaminants, in the small 
time that I have left, I want to just point out a few things. 
There is no way for anyone to know if the risk is tolerable or 
safe at this point. I know this, because Dr. Falk and Mr. 
Peacock said as much. In fact, there has been little or no 
testing on long-term contaminants, so it doesn't do any good to 
say the mayor and the Governor and Mr. Allen will get together 
and decide if it is safe. They can't, because we don't have the 
information yet, and until we have that information, with a 
city that had a population of a quarter disabled, we should not 
bring those people back into the city, when there is no 
information.
    I have been there. I have unloaded basements, helped my 
neighbors. Nobody knows anything about what is going on. No one 
has the gear. A lot of people can't afford the gear. You go to 
Wal-Marts up and down the state, you won't find rubber boots 
and rubber gloves. There is no way to do it. My time is up, but 
I simply want to reinforce the idea that I desperately, along 
with many others, want to go back to my city with my children, 
and I have no idea whether it is safe or not, because the 
government has no idea whether it is safe or not, and they owe 
that explanation to the people before they allow or encourage 
people to move into the city of New Orleans.
    Thank you.
    [The prepared statement of Robert R.M. Verchick follows:]
Prepared Statement of Robert R.M. Verchick, Gauthier-St. Martin Eminent 
   Scholar Chair in Environmental Law, Loyola University New Orleans
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to testify on Hurricane Katrina, 
its historic roots, and its current status. I testify today as an 
expert in environmental law and policy and a resident of New Orleans.
    As you know, I am an evacuee. My wife and children are living this 
fall in the state of Washington, and I have taken up temporary 
residence in Houston, Texas, where my Law School, Loyola New Orleans, 
is about to begin its fall semester in space donated by the University 
of Houston. Several days ago, I was lucky enough to be able to return 
to New Orleans to check on our house (partially flooded, but remarkably 
intact) and my university's campus (now partially occupied by the 
National Guard). I do not know when my family or I will be able to 
return, nor do I know for certain when the Law School will be able to 
resume its mission in its own building.
    Like most New Orleans evacuees, my heart and my mind remain with 
the City. I monitor the worldwide Web constantly, I speak on the phone 
or e-mail with people who have remained in the area several times a 
week, and I regularly read the local blogs, including those associated 
with my city's newspaper, television stations, and schools. This is a 
tragedy that will stay with my family and me for quite a long time and, 
it now appears, with the country.
    My testimony today focuses on the environmental ramifications of 
Katrina that involve the dispersal of toxic chemicals throughout the 
environment. Although I understand you want and need a briefing on 
conditions as they stand today, I am also going to trace some of the 
history of how we ended up in this mess. Mother Nature is 
overwhelmingly powerful, to be sure, but we made mistakes that rendered 
the situation much worse, and that must be corrected before we rebuild 
the city. My message today boils down to three points:
    One. The environmental contamination left in the wake of Katrina is 
very serious and must be investigated thoroughly and remedied 
adequately before people are allowed back into affected areas of New 
Orleans. We cannot afford to repeat the mistakes of the past, many of 
which were rooted in the policies of neglect and racial and economic 
discrimination that were on full display in the immediate aftermath of 
the hurricane.
    Two. To have credibility and to accomplish this difficult task, the 
investigation must ask the right questions and be conducted by an 
independent, bipartisan taskforce modeled along the lines of the 
September 11 Commission. A major goal of my testimony is to suggest the 
critical questions such an investigation must address.
    Three. Now is not the time to repeal, roll back, or waive any of 
our crucial environmental laws, as some opportunistic members of 
regulated industries have suggested. We need the Clean Air Act, the 
Clean Water Act, the Safe Drinking Water Act, the Resource Conservation 
and Recovery Act, and the Superfund law more than ever to make sure 
that people and natural resources are safe as New Orleans is rebuilt.
Katrina's Environmental Aftermath
    Katrina left nine categories of environmental problems in her wake:

1. flooded and contaminated drinking water supplies;
2. several oil spills, typically from above-ground tanks;
3. leaking underground tanks containing fuel and other chemicals;
4. flooded sewage treatment plants;
5. flooded buildings, lagoons, lots, and individual containers 
        containing a wide array of toxic chemicals that were washed out 
        into the ambient environment;
6. the concentrated residue of many fires spread into the environment;
7. building debris that is cultivating harmful molds;
8. contaminated sediment and other sludge throughout the city; and
9. toxic exposure of cleanup and other workers as a result of this 
        pollution.
    On September 19, 2005, EPA estimated that in Louisiana, 498 of 683 
drinking water facilities are operational and meeting EPA standards; 26 
are operating on a ``boil water notice''; and 159 are either inoperable 
or their status is unknown.<SUP>1</SUP> Together, the 683 facilities 
serve 2.5 million people. In Mississippi, 1,073 of the 1,368 drinking 
water systems are operational; 231 are operating on a boil water 
notice; and 64 are either inoperable or their status is unknown. The 
1,368 systems serve 3.2 million people. In Alabama, 72 drinking water 
systems serve approximately 960,000 people. Seventy-one are 
operational, and one is operating on a boil water notice.
---------------------------------------------------------------------------
    \1\ All of the figures in this paragraph were reported in EPA, 
Response to Hurricane Katrina Update (Sept. 19, 2005), available at 
http://www.epa.gov/katrina/activities.html#sep13 [hereinafter EPA, 
Response Katrina].
---------------------------------------------------------------------------
    EPA estimates that there were five major oil spills in the New 
Orleans area to date; <SUP>2</SUP> one newspaper reported that six 
spills had occurred.<SUP>3</SUP> The Coast Guard has estimated that the 
spills involved 160,000 barrels, and that it has recovered 50,000 
barrels to date (a barrel holds 42 gallons).<SUP>4</SUP> Additional 
petroleum contamination has resulted from the flooding of an estimated 
350,000 vehicles. The Louisiana Department of Environmental Quality 
reported that oil storage tanks located near the Mississippi River, 
with a combined capacity of two million barrels, appeared to be 
leaking.<SUP>5</SUP> The Coast Guard has estimated that more than seven 
million gallons of oil may have been spilled from industrial plants, 
storage depots, and other facilities in southeastern Louisiana as a 
result of Katrina.<SUP>6</SUP> These spills have caused as-yet unclear 
damage to the Gulf and the River.
---------------------------------------------------------------------------
    \2\ Id.
    \3\ Marla Cone and Ashley Powers, EPA Warns Muck Left by 
Floodwaters Is Highly Contaminated, L.A. Times, Sept. 16, 2005, 
available at http://www.latimes.com/news/nationworld/nation/la-
091605nola--lat,0,5316762.story?coll=la-home-headlines (last visited 
Sept. 21, 2005).
    \4\ Id.
    \5\ Ryan Parry, Mississippi Burning: Pollution Hells as Fires, 
Explosions and Oil Spills Follow, The Daily Mirror (U.K.), Sept. 3, 
2005, at 6, 7; see also Sewell Chan & Andrew Revkin, Water Returned to 
Lake Pontchartrain Contains Toxic Material, N.Y. Times, Sept. 7, 2005, 
at A1. The two spills occurred at a Bass Enterprise storage depot in 
Venice and at a Murphy Oil facility in Chalmette. The Bass spill was 
estimated at about 68,000-78,000 barrels and the Murphy spill at about 
10,000 barrels. See Reuters, Jim Loney, It's Almost Unimaginable, the 
Things We Are Going to Have to Deal With, Sept. 6, 2005, available at 
http://hartmannwatchwatch.blog
spot.com/2005/09/its-almost-unimaginable-things-we-are.html (last 
visited Sept. 21, 2005); Susanne Pagano, EPA Finds Louisiana 
Floodwaters Contaminated with Lead, Coliform, 36 Env't Rep. (BNA) 1870 
(Sept. 9, 2005).
    \6\ Associated Press, Katrina and the Environment, Sept. 16, 2005, 
available at http://www.cbsnews.com/stories/2005/09/16/katrina/
main855409.shtml (last visited Sept. 21, 2005).
---------------------------------------------------------------------------
    As for the floodwaters that swept New Orleans and coastal 
communities in Mississippi and Alabama, the most immediate threat to 
human health is biological contamination.<SUP>7</SUP> Experts have 
likened the bacterial concentrations in the floodwaters to untreated 
sewage.<SUP>8</SUP> EPA also stated on September 19, 2005 that E. coli 
levels in flood waters are ``greatly elevated'' and remain ``much 
higher'' than EPA's recommended levels for contact. Those exposed to 
the bacteria-laden floodwaters could contract diseases such as 
hepatitis-A and salmonella poisoning.<SUP>9</SUP> Intestinal diseases 
can be transmitted by ingesting sewage or simply by being in the water 
without adequate protective clothing.<SUP>10</SUP> These risks are 
particularly acute for children, the elderly, or those with compromised 
immune systems.
---------------------------------------------------------------------------
    \7\ The Administrator of the federal Environmental Protection 
Agency (EPA) has indicated that all tests conducted by EPA of waters in 
the flooded residential areas of New Orleans exceed by at least ten 
times the levels determined by EPA to be safe for human exposure for 
bacteria that include E. coli and fecal coliform. See Pagano, supra 
note 5 (indicating that EPA stopped measuring the amount of bacteria in 
the water when the levels reached the ten-fold point). See also Press 
Release, EPA, EPA and LDEQ Report Potential Health Risks from Sediments 
(Sept. 16, 2005), http://yosemite.epa.gov/opa/admpress.nsf/
d9bf8d9315e942578525701c005e573c/387f
99c6a7a0b7808525707e0062479d!OpenDocument. By some accounts, fecal 
coliform has been found in some of the floodwaters at levels thousands 
of times higher than the levels designated by EPA as safe. Dina 
Cappiello, Tainted Water, Hous. Chron., Sept. 13, 2005, available at 
http://www.chron.com/cs/CDA/ssistory.mpl/nation/3351081 (last visited 
Sept. 21, 2005). Several people have already died from exposure to 
bacteria closely linked to cholera and some people have fallen ill with 
Vibrio vulnificus, a common marine bacteria. Genevieve Roberts, 
Bacteria in Floodwater Blamed for Three Deaths, The Independent, Sept. 
8, 2005, available at http://news.indephttp://www.ezilon.com/
information/article--9255.shtml (last visited Sept. 21, 2005); CNN, At 
Least 30 Found Dead in Nursing Home, Sept. 8, 2005, available at http:/
/www.cnn.com/2005/US/09/07/katrina.impact/index.html (last visited 
Sept. 21, 2005); Pagano, supra note 5.
    \8\ See Cappiello, supra note 7.
    \9\ Marla Cone, Floodwaters a Soup of Pathogens, EPA Finds, L.A. 
Times, Sept. 8, 2005, at A18, available at http://www.latimes.com/
features/health/medicine/la-me-bacteria8sep08,1,7707135.
story?coll=la-health-medicine (last visited Sept. 21, 2005).
    \10\ Pagano, supra note 5.
---------------------------------------------------------------------------
    The bacterial contamination that creates these risks of infectious 
disease resulted in part from damage to sewage treatment plants located 
in the three states most directly affected by the storm, hundreds of 
which were damaged or rendered inoperable. Leaking sewage lines added 
to the problem.<SUP>11</SUP> The decomposition of dead people and 
animals contributed still further bacterial contamination to the 
floodwaters.
---------------------------------------------------------------------------
    \11\ Cone, supra note 9.
---------------------------------------------------------------------------
    The waters covering New Orleans' streets are also contaminated by a 
range of toxic chemicals, <SUP>12</SUP> posing significant health and 
safety risks. Significant amounts of lead, a heavy metal that creates 
risk of brain damage in young children, have been detected in the 
floodwaters. At one location, lead was detected at concentrations 
nearly 700 times higher than EPA standards for safe drinking 
water.<SUP>13</SUP> Tests conducted by EPA and the Louisiana Department 
of Environmental Quality also found high levels of arsenic and 
hexavalent chromium.<SUP>14</SUP> Other chemicals discovered in the 
floodwaters have been a variety of heavy metals and polycyclic aromatic 
hydrocarbons, all of which have been linked to cancer risk or 
developmental problems.<SUP>15</SUP> Some experts have stated that they 
would be surprised if continued testing fails to detect unsafe levels 
of some of these contaminants.<SUP>16</SUP>
---------------------------------------------------------------------------
    \12\ E.g., Andrew Gumbel & Rupert Cornwell, After Katrina: The 
Toxic Timebomb, The Independent, Sept. 7, 2005, available at http://
www.commondreams.org/headlines05/0907-03.htm (last visited Sept. 21, 
2005).
    \13\ See Cappiello, supra note 7.
    \14\ Associated Press, EPA: Bacteria, Lead in New Orleans 
Floodwaters, Sept. 15, 2005, available at http://www.cnn.com/2005/TECH/
science/09/14/katrina.environment.ap/ (last visited Sept. 21, 2005).
    \15\ Juliet Eilperin, Flooded Toxic Waste Sites Are Potential 
Health Threat, Wash. Post, Sept. 10, 2005, at A15.
    \16\ Cone, supra note 9. Some of these chemicals are known to cause 
or are suspected of causing adverse health effects such as cancer, 
birth defects, and neurological problems. Rebecca Claren, ``The Entire 
Community Is Now a Toxic Waste Dump,'' Salon, Sept. 9, 2005, available 
at http://www.salon.com/news/feature/2005/09/09/wasteland/index.html 
(last visited Sept. 21, 2005).
---------------------------------------------------------------------------
    Some of these contaminants came from the kinds of products found in 
most homes and commercial businesses, such as chemical cleaners, 
bleach, and pest control products.<SUP>17</SUP> EPA reports that it has 
collected 20,934 ``orphan'' containers with unknown contents--barrels 
lying in common areas with no apparent owner--throughout the affected 
region.<SUP>18</SUP> Others undoubtedly originated from inundated 
industrial facilities subject to environmental regulatory programs or 
from sites that managed hazardous chemicals improperly in the 
past.<SUP>19</SUP>
---------------------------------------------------------------------------
    \17\ Sewell Chan & Andrew Revkin, Water Returned to Lake 
Pontchartrain Contains Toxic Material, N.Y. Times, Sept. 7, 2005, at 
A1.
    \18\ EPA, Response Katrina, supra note 1.
    \19\ A few days after the hurricane hit New Orleans, an explosion 
occurred at a chemical factory located 15 blocks from the French 
Quarter and two miles from the Superdome and the Ernest N. Morial 
Convention Center, which housed the bulk of the city's refugees. Ryan 
Parry, Mississippi Burning: Pollution Hells as Fires, Explosions and 
Oil Spills Follow, The Daily Mirror (U.K.), Sept. 3, 2005, at 6, 7.
---------------------------------------------------------------------------
    These problems are daunting, and will take months, even years, to 
clean up. Chemical contamination in many areas is likely to return 
existing hazardous waste sites to ``imminent endangerment'' status, and 
create brownfield sites that are unsuitable for redevelopment. Although 
our immediate focus is properly on the significant risks to human 
health and safety, it is worth noting that in the ensuing months, we 
will have to also confront the environmental impacts of this 
contamination: reports of a toxic plume moving through the Gulf of 
Mexico are already raising serious concerns about the environmental 
consequences for pristine and fragile resources surrounding south 
Florida, including its coral reefs and areas surrounding the Dry 
Tortugas.
    Government officials responsible for removing the floodwaters from 
the city face a Hobson's choice: they could wait to pump the water out 
of the city until a mechanism was put in place to remove at least some 
of the contamination, or they could pump the contaminated water back 
into Lake Pontchartrain and the Gulf of Mexico. Both the risks that 
would result from waiting to remove the water until it could be 
decontaminated and the costs of constructing the necessary 
bioremediation facilities were deemed unacceptably high.<SUP>20</SUP> 
The pumping of floodwater with so much bacterial waste, however, is 
likely to lower the dissolved oxygen content of the Lake and the Gulf, 
creating a risk that many fish and other water-dependent organisms will 
die.<SUP>21</SUP> Moreover, the intentional discharge of this 
contamination is a sad sequel to hard-won success in cleaning up Lake 
Ponchartrain to the point that portions were recently deemed safe for 
swimming.<SUP>22</SUP>
---------------------------------------------------------------------------
    \20\ See Reuters, Jim Loney, Few Choices to Rid New Orleans of 
Poisoned Water, Sept. 6, 2005.
    \21\ Gumbel & Cornwell, supra note 70.
    \22\ Amy Althans, Presentation to Focus on Revival of Lake Basin 
Foundation, Chief Talks to AAUW, Times Picayune (New Orleans), Jan. 13, 
2005; Leslie Williams, Beach Group Has Game Plan, Natural Feel Desired 
for Area Along Lake, Times Picayune (New Orleans), Sept. 6, 2004.
---------------------------------------------------------------------------
    EPA has deployed hundreds of workers to the Gulf Coast and is 
working against the clock to test floodwaters, soil, air, and drinking 
water sources to determine whether they pose unreasonable risks to the 
environment. When the Agency discovers hazardous conditions, it will 
face the challenging tasks of figuring out to remove, neutralize, or 
contain the contamination before people return to the area. All 
decisionmakers should defer to this expert judgment.
                environmental enforcement and superfund
    Two fundamental issues warrant serious investigation in the wake of 
this disaster: first, could any of the harm to health and the 
environment have been avoided; and second, how to conduct and fund an 
adequate cleanup of the contamination.
Compliance Issues
    On the first question, one important inquiry is into the degree of 
compliance with the Clean Water Act requirement that facilities that 
store petroleum products in above-ground containers prepare Spill 
Prevention Control and Countermeasure Plans. Such plans must include 
physical containment, as necessary, to prevent oil spills because, 
among other things, it is a civil and criminal violation of the Act to 
allow such spills either intentionally or negligently. Similarly, the 
Resource Conservation and Recovery Act requires virtually all 
facilities that manage, store, or dispose of hazardous waste to have 
emergency plans that prevent the waste from escaping into the 
environment in the event of an accident, including foreseeable events 
like a hurricane. Once again, the aftermath of Katrina must include an 
investigation of the compliance by New Orleans businesses with these 
important requirements.
    With hindsight, it also seems appropriate to consider questions 
such as: Were factories and oil storage facilities located too close to 
the Coast? Did responsible industries secure them sufficiently in 
anticipation of a natural disaster that had been predicted for years? 
Were efforts to clean up toxic waste dumps before the hurricane 
adequate, or did superficial cleanups leave these dangerous sites 
vulnerable to the inevitable floods? The Clean Water Act and the 
Resource Conservation and Recovery Act could have prevented the 
environmental damage caused by Katrina if they had been implemented 
effectively,
Superfund Sites
    Finally, there is the troubling question of flooded Superfund 
sites, with damage that was exacerbated by poor initial cleanups. There 
are three National Priorities List sites that lay in the path of the 
hurricane, and the Washington Post reported on September 10, 2005 that 
one site in the northeast section of New Orleans is submerged in water 
and that two sites are flooded, with their dangerous contents joining 
the sewage and household hazardous chemicals in the water that will 
soon be pumped into the Gulf of Mexico or Lake 
Ponchartrain.<SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ Eilperin, supra note 15.
---------------------------------------------------------------------------
    As you are well aware, the National Priorities List (NPL) is 
limited to the 1238 worst abandoned toxic waste sites in the country. 
In an interview with CPR, long-time Louisiana environmental consultant 
Wilma Subra confirmed the accuracy of the Post story, as well as the 
following analysis of its implications.<SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ Ms. Subra is a nationally recognized expert who testified 
before the U.S. Senate Environment & Public Works Committee on 
Superfund Reauthorization in 1997. The testimony is available at http:/
/epw.senate.gov/105th/sub--9-04.htm. She can be reached at either (337) 
367-2216 or (337) 578-3994.
---------------------------------------------------------------------------
Agriculture Street Landfill--The Black Love Canal
    The site that was the hardest hit by Katrina is the Agriculture 
Street Landfill, sometimes referred to as the ``black Love Canal.'' The 
95-acre site, located three miles south of Lake Pontchartrain in a 
community that is 60-80 percent African-American, is an old municipal 
landfill where ordinary garbage was mixed together with liquid 
hazardous waste to a depth of between two and 32.5 feet.<SUP>25</SUP> 
In 1969, the City of New Orleans built a low-income housing project on 
top of the site, as well as the Moton Elementary School.<SUP>26</SUP> 
In 1993-94, after community leaders demanded that EPA conduct a full 
investigation of the site, the Agency decided that contamination at the 
site warranted an emergency cleanup and placement on the NPL.
---------------------------------------------------------------------------
    \25\ It operated from 1912 until 1959, but was reopened in 1965 to 
receive debris created by Hurricane Betsy. The combination of garbage 
and service station oil waste often caused fires at the site, and 
during that period, local residents called it ``Dante's Inferno.''
    \26\ Among the issues surrounding the site, in addition to the 
inadequacy of the remedy, explains Darryl Malek-Wiley, an environmental 
justice organizer with the Sierra Club, is the government's role in the 
1970s in ``encouraging first-time black homebuyers'' to settle in a 
development that residents later learned to be on top of the former 
landfill. Eilperin, supra note 15.
---------------------------------------------------------------------------
    In a health assessment prepared for the site by the Agency for 
Toxic Substances and Disease Registry (ATSDR), a unit of the Centers 
for Disease Control, experts concluded that the undeveloped portions of 
the site posed a ``public health hazard'' and that if the land was ever 
used for residential housing, exposure to lead, arsenic, and polycyclic 
aromatic hydrocarbons (PAHs) in the soil could pose an ``unacceptable 
health risk.'' <SUP>27</SUP> All of those toxic materials are now 
floating through the streets of New Orleans.
---------------------------------------------------------------------------
    \27\ Agency for Toxic Substances and Disease Registry, Public 
Health Assessment: Agriculture Street Landfill, available at http://
www.atsdr.cdc.gov/HAC/PHA/agriculturestreet/asl--p1.html.
---------------------------------------------------------------------------
    EPA's choice of a remedy for the site has significantly exacerbated 
this damage. Instead of excavating the site, treating contaminated soil 
in situ, or even installing a liner that would prevent the landfill's 
contents from washing away, EPA decided that its final remedy would be 
limited excavation of less than two-thirds of the site and the 
placement of two feet of ``clean fill'' on top of the buried 
waste.<SUP>28</SUP>
---------------------------------------------------------------------------
    \28\ EPA picked up 52,615 tons of soil, or an average of 86 tons 
per acre, and put down 177,293 cubic yards of clean fill in its place. 
See EPA, Agriculture Street Landfill NPL Update (Sept. 2005), available 
at http://www.epa.gov/earth1r6/6sf/pdffiles/0600646.pdf.
---------------------------------------------------------------------------
    Residents asked to be relocated from their housing on top of the 
site, a project that would have cost approximate $12 million, and have 
even filed suit demanding that relocation. EPA refused and has instead 
spent $20 million on the cleanup described above. In desperation, a 
delegation traveled to Geneva Switzerland in 1999 to ask for help from 
the U.N. Commission on Human Rights.<SUP>29</SUP>
---------------------------------------------------------------------------
    \29\ For an account of the trip, see http://www.ejrc.cau.edu/
unchr--ej.htm. For further information about environmental justice 
issues at Superfund sites, see infra The Two Americas: Race, Class, and 
Injustice; Alicia Lyttle, Agriculture Street Landfill: Environmental 
Justice Case Study (U. Mich., Jan. 2003, available at http://
www.umich.edu/snre492/Jones/ag
street.htm; http://www.ejrc.cau.edu/POCEG-02.PDF; and Robert D. 
Bullard, Environmental Justice in the 21st Century (Envtl. Justice Res. 
Ctr.), available at http://assets.cambridge.org/052166/0629/sample/
0521660629ws.pdf.
---------------------------------------------------------------------------
Bayou Bonfouca
    This 54-acre site located in Slidell, Louisiana, was a wood 
treatment facility using creosote that operated since the late 1800s. 
Some 26,000 people live in the community, and the house nearest the 
site is 400 feet away.<SUP>30</SUP> Even though the site is supposedly 
cleaned up, the Louisiana Department of Environmental Quality warns 
citizens not to swim, and to avoid contact with over seven miles of 
Bayou Bonfouca, identifying the pollutant of concern as 
creosote.<SUP>31</SUP> The ATSDR health assessment concluded that the 
site is a ``public health hazard'' and worries that because swimming 
advisories are ``voluntary,'' the potential for immediate skin burns 
and long-term illnesses is ongoing.<SUP>32</SUP> The companies that 
created the site paid to install a fence around it. EPA then used the 
site to burn hazardous wastes from another nearby Superfund site, 
ultimately burying the concentrated ash from that process in Bayou 
Bonfouca. The only ``remedy'' installed at Bayou Bonfouca was the 
construction of a plastic and clay cap over the top of the creosote 
piles, the remnants of which were likely washed out in the flooding.
---------------------------------------------------------------------------
    \30\ See EPA, Madisonville Creosote Works NPL Update (Sept. 2005), 
available at http://www.epa.gov/region06/6sf/pdffiles/0600653.pdf 
[hereinafter EPA, Madisonville Creosote Works].
    \31\ See LA Dep't of Envtl. Quality, Fish Consumption and Swimming 
Advisories (Jan. 11, 2005), available at http://www.deq.state.la.us/
surveillance/mercury/fishadvi.htm#table.
    \32\ See Agency for Toxic Substances and Disease Registry, Public 
Health Assessment: Bayou Bonfouca, available at http://
www.atsdr.cdc.gov/HAC/PHA/bonfouca/bon--p3.html.
---------------------------------------------------------------------------
Madisonville Creosote Works
    This 29-acre site is also a former wood treatment 
facility.<SUP>33</SUP> EPA excavated some contaminated soil, treated 
it, and put it back down at the site. To cope with the thousands of 
gallons of creosote waste still under the surface, the Agency installed 
``recovery'' trenches beneath the surface that would capture the 
creosote waste, keeping it out of local drinking water supplies. 
Flooding is likely to have disrupted those trenches, potentially 
spreading contamination into the community's water.
---------------------------------------------------------------------------
    \33\ See EPA, Madisonville Creosote Works, supra note 30.
---------------------------------------------------------------------------
    Why did the cleanup of these three sites turn out to be so 
vulnerable to a foreseeable and foreseen natural disaster like Katrina? 
The Superfund created under that statute was intended to provide the 
necessary legal authority to enable an adequate response to releases of 
hazardous substances into the environment. However, the Superfund 
program has been critically weakened in recent years, just when it must 
play a central role in cleaning up after the disaster.
    Among the sources of revenue for the Superfund toxic waste cleanup 
program were taxes on the production of crude oil and the manufacture 
of feedstock chemicals, as well as general tax revenues. The industry 
taxes that provide the bulk of the program's funding expired in 1995. 
Since the taxes expired, the program has limped along on limited funds 
from general tax revenues and cost recovery actions against companies 
that created the sites.<SUP>34</SUP> The industry taxes provided about 
$1.45 billion in annual funding from 1990-1995.<SUP>35</SUP> Current 
levels of general revenue funding are $1.3 billion.<SUP>36</SUP> The 
cost of the remediation of toxic waste washed out by Katrina remains to 
be determined.
---------------------------------------------------------------------------
    \34\ Unfortunately, there are no ``deep pocket'' corporations in 
evidence around the three sites described above, and the only 
alternative is for the Superfund to pick up the tab.
    \35\ Meredith Preston & Susan Bruninga, Amendment to Reinstate 
Industry Tax to Support Trust Fund Defeated in Senate, 35 Env't Rep. 
(BNA) 536. For more information on the battle to reinstate the tax, see 
Dean Scott, Senators Criticize Cut in EPA Water Fund, Challenge Pace 
for Superfund Cleanups, 36 Env't Rep. (BNA) 263.
    \36\ President Bush has recommended holding Superfund spending 
level, adding only $32 million to the program in his most recent 
budget. Because of the missing money, EPA will only be able to address 
40 sites in the upcoming year, down from an average of 80 during the 
Clinton Administration. Id.
---------------------------------------------------------------------------
    The result of this disastrous set of policies has been to shift a 
significant share of the burden of financing hazardous substance 
cleanups away from the industries that generate the bulk of the 
substances found at contaminated sites and onto the shoulders of the 
taxpaying public. The limited funds available in the Superfund have 
unintended consequences, it can delay cleanups and lead EPA to choose 
remedies that are not adequately protective of human health. With 
reduced funding, EPA may be tempted to reduce its expenses by choosing 
remedies that are temporary and very vulnerable to bad weather along 
the Gulf Coast. Indeed, the remedies installed at the three sites in 
the New Orleans area were fated to fail.
              the two americas: race, class, and injustice
    The devastating effects--the lost lives, the demolished homes, the 
shattered communities, the affronts to dignity--were suffered 
disproportionately by people of color and low-income people in New 
Orleans. ``Natural disasters'' such as hurricanes, earthquakes, and 
floods are sometimes viewed as ``great social equalizers:'' they strike 
unpredictably and at random, affecting black and white, rich and poor, 
sick and well alike. However, as Katrina has laid bare, the harms are 
not visited randomly or equally in our society. A reporter for The New 
York Times put it bluntly: ``The white people got out. Most of them, 
anyway . . . it was mostly black people who were left behind.'' 
<SUP>37</SUP>
---------------------------------------------------------------------------
    \37\ Jason DeParle, Broken Levees, Unbroken Barriers: What Happens 
to a Race Deferred, The New York Times, Section 4, Page 1 (Sunday, 
Sept. 4, 2005).
---------------------------------------------------------------------------
    Twenty-eight percent of people in New Orleans live in 
poverty.<SUP>38</SUP> Of these, 84 percent are African-
American.<SUP>39</SUP> Twenty-four percent of the adults living in New 
Orleans are disabled.<SUP>40</SUP> An estimated 15,000 to 17,000 men, 
women and children in the New Orleans area are homeless.<SUP>41</SUP> 
The lowest lying areas of New Orleans tend to be populated by those 
without economic or political resources.<SUP>42</SUP> The city's Lower 
Ninth Ward, for example, which was especially hard hit and completely 
inundated by water, is among its poorest and lowest lying 
areas.<SUP>43</SUP> Ninety-eight percent of its residents are African-
American.<SUP>44</SUP> As Craig E. Colten, a geologist at Louisiana 
State University and an expert on New Orleans' vulnerable topography 
explains: ``[I]n New Orleans, water flows away from money. Those with 
resources who control where the drainage goes have always chosen to 
live on the high ground. So the people in the low areas were the 
hardest hit.'' <SUP>45</SUP>
---------------------------------------------------------------------------
    \38\ U.S. Census, ``Louisiana Quick Facts,'' (2000), available at 
http://quickfacts.census.gov/qfd/states/22/2255000.html.
    \39\ U.S. Census, ``Poverty Status in 1999 by Sex by Age,'' (2000), 
available at http://factfinder.census.gov/servlet/DTTable?--
bm=y&context=dt&-re . . . -geo--id=16000US2255000
&-search--results=01000US&-format=&---lang=en.
    \40\ U.S. Census, ``Social Characteristics: 1990,'' available at 
http://factfinder.census.org/servlet/QTTable?--bn=n&lang=eng&qr--
name=DEC--1990--STF3--DP2&ds--name=DEC-1990--STF3&geo--id=05000US22071.
    \41\ City of New Orleans Health Department, ``Homeless 
Healthcare,'' available at http://www.cityofno.com/
portal.aspx?portal=48&tabid=6.
    \42\ Jason DeParle, supra note 37 (quoting Craig E. Colten, 
Louisiana State University).
    \43\ Id.; Greater New Orleans Community Data Center, ``Lower Ninth 
Ward Neighborhood: Income & Poverty,'' available at http://gnocdc.org/
orleans/8/22/income.html (poverty rates in the Lower Ninth Ward ten 
percent higher than in Orleans Parish generally).
    \44\ Greater New Orleans Community Data Center, ``Lower Ninth Ward 
Neighborhood: People and Household Characteristics,'' available at 
http://gnocdc.org/orleans/8/22/people.html.
    \45\ Jason DeParle, supra note 37.
---------------------------------------------------------------------------
    Moves to eviscerate government protection of health, safety--and 
the environment are most tenable where those burdened can be viewed as 
``other'' or where their--circumstances are not lived or imagined--by 
many Americans.<SUP>46</SUP> The current Administration in particular 
has endorsed a shift in responsibility for basic health, safety and 
environmental protections. It has sought to diminish the government's 
role in assuring even minimally healthful conditions for all, leaving 
it to those at risk to protect themselves. The effect of this shift is 
to burden people of color and the poor--because these groups are 
disproportionately the ones who are most exposed and most vulnerable, 
they will be the ones left to fend for themselves.<SUP>47</SUP> They 
are also the ones with the fewest resources to do so.
---------------------------------------------------------------------------
    \46\ See, e.g., Catherine A. O'Neill, Risk Avoidance, Cultural 
Discrimination, and Environmental Justice for Indigenous Peoples, 30 
Ecology L. Q. 1 (2003).
    \47\ Id.
---------------------------------------------------------------------------
    Katrina also raises questions of justice in cleanup and rebuilding. 
Community members and environmental justice leaders have raised 
concerns about when and how these contaminants will be cleaned up, 
citing evidence of inequities in environmental cleanups more generally. 
They and others have also questioned the rush to waive standard health, 
safety, environmental and social protections. While it might have been 
important to waive normal Clean Water Act permits to allow the waters 
to be pumped out of a flooded city as quickly as possible, other 
waivers are unjustified.<SUP>48</SUP>
---------------------------------------------------------------------------
    \48\ See, e.g., Michael Janofksy, Bill Would Let E.P.A. Relax Rules 
for Cleanup, N.Y. Times, Sept. 16, 2005, at A18 (national edition).
---------------------------------------------------------------------------
                               conclusion
    In the aftermath of Katrina, we must rethink our past policies and 
priorities in order to avoid similar disasters in the future. We must 
be sure that EPA and other relevant agencies have adequate resources to 
respond to the unavoidable consequences of future disasters. We urge 
the Committee to support the creation of an adequately funded, 
bipartisan, and independent commission to address the following 
critical questions:
                           Critical Questions
    1. Katrina caused serious damage to the infrastructure that 
supports oil and gas production, as well as hundreds of facilities 
handling significant quantities of hazardous chemicals.

a. How does EPA plan to conduct an independent assessment of the 
        environmental releases that occurred at such facilities, 
        including air emissions, spills of chemical product and waste, 
        and fires caused by such events?
b. What monitoring is being undertaken and what additional monitoring 
        should be planned to adequately determine the nature and extent 
        of hazards to health and environmental contamination?
c. Is information from all appropriate government and non-governmental 
        sources being incorporated into assessment of the releases?
    2. What are the protocols for testing drinking water for the 
broader suite of chemicals likely to have migrated into supplies as a 
result of the storm and how are federal and state authorities ensuring 
that such testing gets done?
    3. What plans have been made to rebuild the area's publicly owned 
treatment works so that they can deliver adequate services before the 
city is re-populated?
    4. How will EPA ensure that the re-habitation of New Orleans, 
Mississippi, and other areas affected by Katrina is safe in light of 
remaining toxic deposits in soil and water?
    5. Is all information relevant to public health and safety being 
shared with the public in a timely fashion?
    6. To what extent did the chemical and biological contamination 
that has been discovered in New Orleans since Katrina result from 
noncompliance with or inadequate enforcement of the federal 
environmental laws described above?
    7. Have the EPA and Congress undertaken the necessary assessment of 
the funding needed to fully implement and enforce federal environmental 
laws in order to protect public health and the environment in cases of 
natural and manmade disasters and reduce potential future cleanup 
costs?
    8. Had state and local officials complied with their planning 
responsibilities under EPCRTKA, and, if not, did inadequate planning 
exacerbate the risks to health and safety now facing New Orleans?
    9. A long, intentional, and successful effort to weaken the 
Superfund program has left it without adequate funds to address the new 
dimensions of risk posed by Superfund sites that Hurricane Katrina has 
made apparent. In addition, the aftermath of the hurricane has created 
need for an emergency response and may produce new sites that warrant 
cleanup under Superfund.
a. What is the vulnerability of all Superfund sites, including those 
        near waterbodies, to natural and manmade disasters? Does EPA 
        have adequate funding to undertake such an assessment?
b. How will EPA and the states deal with the potentially responsible 
        parties who created the sites in the first place, and either 
        never stepped forward to pay for cleanup, or paid for a remedy 
        that now appears inadequate?
c. What sources of funding will EPA employ in its broader response to 
        the contamination in the wake of the hurricane?
    10. What steps must be taken to ensure that race or class 
disparities don't affect the cleanup methods selected and used in 
different areas?
    11. What steps are being taken to ensure that the affected 
communities have adequate opportunities to participate in the relevant 
decision-making processes?
    Thank you, Mr. Chairman and members of the Subcommittee for the 
opportunity to appear before you today.
[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

    Mr. Bass. Thank you very much, Mr. Verchick. You asked for 
unanimous consent to add some information to the record. Is 
there objection? Without objection, so ordered.
    I am going to ask just one question. Mr. Verchick has 
already answered it. I would like to ask it of Mr. Olson, Dr. 
Wright, and Secretary Gautreaux. Is it safe for people to move 
back into New Orleans today? Mr. Olson?
    Mr. Olson. Well, I would agree. I would agree with what Mr. 
Verchick said just moments ago, which is that for many areas, 
there is no data available at all to answer that question. For 
some areas, the data available suggests that it is not safe, 
for example, some of the air monitoring data that is in my 
testimony shows that for someone to stay for more than 2 weeks 
is not safe, according to Federal guidelines. So, some areas, 
maybe it is, if we did additional testing, but we are not.
    Mr. Bass. Dr. Wright.
    Ms. Wright. Based on the information that I have, which is 
none, I would have to say it is not safe, because we don't 
know. And also, the fact that there is so much mold around, 
just growing everywhere, I think that that is a problem in 
homes across the river in Algiers, where people, some people 
never left, and people are still there. I have a distant 
relative there, and her house just reeks of mold, and she 
didn't even get the water that others got. That can't be a good 
thing. I don't believe it is.
    Mr. Bass. Secretary Gautreaux.
    Ms. Gautreaux. I would just say that in general, where you 
don't have potable drinking water and wastewater treatment, 
there are health risks associated with that. There are some 
areas where that is available, and I think you have to consider 
that, as well as individual risk factors, respiratory problems, 
pregnancy, anyone who immuno-compromised. If you are going for 
health reasons, consider those things, and I think the 
population should also consider things like the communications 
911 network, available hospitals, and other factors. I read a 
statistic the other day that 75 to 70 percent of hurricane 
injuries are typically associated with the recovery. So, I 
think all of that has to be considered.
    Mr. Bass. Thank you very much, Secretary Gautreaux. The 
Chair now recognizes the ranking member, the gentlelady from 
California, for 5 minutes.
    Ms. Solis. Thank you very much. Sorry I came in late to 
hear some of your testimony, but I know that the concerns that 
you have are very similar to what some of the members I know on 
our side of the aisle have as well. I am interested to get your 
opinion on quality and access of information from EPA. Either 
one of you on the panel can respond. EPA talked about getting 
out information, they handed out 3,500 fact sheets in the first 
2 weeks, conducting interventions that removed more than 850 
workers from serious, life-threatening hazards. I am wondering 
if there was any other materials or outreach efforts on the 
part of EPA regarding households, not just the workplace, but 
households, and what kind of information are you aware of that 
was put out there? I know they have a website. I don't know how 
many people are able to access that website, and second, have 
you seen any of these handouts or kits that were given out? Dr. 
Wright, why don't you start?
    Ms. Wright. Yes. I would just like to say that there is a 
serious problem with communication, especially for many of the 
200,000 people who have been scattered across the United 
States, who also would like to have some information about what 
is going on at home. We haven't gotten any. Now, I am a little 
more mobile than most people that I know, and so, I am here in 
Washington, D.C. I am on the phone with enviros every day, so 
yes, I have seen one flyer put out by our Governor, but that 
was given to me by one of the enviros, and I was able to pull 
it down off of the website.
    There are a lot of people who don't have access to any of 
those kinds of things. Another important thing that I would 
like to say is that there are some cultural differences between 
blacks and whites, and sometimes, the way that information is 
delivered determines whether or not it is received properly. I 
haven't seen any what I would consider culturally sensitive 
materials delivered on Katrina. I do know, because of the 
groups that we work with, that local organizations have been 
working to develop information. The Deep South Center, and the 
National Black Environmental Justice Network are, in fact, as 
we speak, trying to develop flyers to disseminate in different 
places where large numbers of evacuees are.
    I would say that is a real weakness of the whole rebuild, 
return, come back home project, whatever you would like to call 
it.
    Mr. Verchick. My experiences reflects what Dr. Wright would 
say. I would simply say walking the city, as I have been, in 
many different areas, and talking to lots of people who have 
been there, no one really has any idea of the type of 
environmental contamination, especially the kind that could be 
airborne, when it dries up, on that sludge, and then floats 
around.
    A really good indication, if you want, is to look at the 
local blogs, which I do daily. Channel 4, a local TV station, 
and the Times-Picayune both have excellent blog sites. You can 
look and see what people are talking about. That is where they 
trade all kinds of information about what they do in the city. 
It is rarely talked about. The people that do talk about 
contamination are very misinformed much of the time. They are 
misinformed about a lot of things, incidentally, on those 
blogs. And I look at it, and it makes my blood run cold, 
because I know that people are operating a set of instructions. 
Whether or not that stuff is on EPA's site, I have seen it. It 
takes me a while to find it. I am not convinced that many 
people are getting it. What does trouble me about the CDC, EPA 
sites is sometimes, they will say things like we have no 
evidence of X, but what they don't say is we haven't tested for 
it yet. And that is a very misleading statement to say there is 
no evidence of long-term health risks when they haven't tested 
for long-term health risks.
    Ms. Solis. My time is running short, but I want to throw 
this out there as well. We heard earlier from the EPA 
representative that about 80 percent of the drinking water 
system is back. However, 2.3 million people still don't have 
access, so my question is directed at our water experts here, 
was our system adequate before Katrina, and what is it that we 
could have done to help, knowing that Katrina was coming?
    Mr. Ragone. Well, I think the real reason, as I said in the 
last paragraph of my written testimony, for being here, is to 
start thinking proactively about the next one. Certainly, 
Katrina is a terrible disaster. We have to take advantage of 
what we have learned there, and get a proactive strategy in 
place that prevents these things from happening anywhere in the 
country, be it natural disaster or terrorist act. We have to 
think proactively.
    One of the concerns in many places in the country, with 
regard to household wells, is that poor people living in old 
houses have inadequate wells. What we have to do as a proactive 
measure is provide poor people with adequate wells, and some 
understanding of how to maintain them. If we do that, if we 
could keep people in their place, if they had drinking water, 
the catastrophe in the Katrina-affected area would have been 
lessened.
    We don't want to make vagrants of our communities if we 
don't have to. If we installed a deep well in a firehouse, with 
a stand alone generator that was safe from floodwaters, raised 
up some way, we could have provided a water resource for these 
people, and we wouldn't have people migrating, swimming for 
tens of miles through muck and this contaminated sediment, to 
get somewhere that was nowhere.
    We just have to start thinking proactively. And the last 
point is, we have two types of water in this country that are 
managed differently, surface water, and groundwater. If you put 
them together, they have a complementary function that can save 
us during disasters. If we use ground water when surface water 
is contaminated, we benefit. If there is excess surface water, 
we can put it in the ground. We benefit. We have a bureaucracy 
now, a national and local bureaucracy, that separates those 
functions, and takes away that complementary benefit, and that 
is put at risk in places.
    Ms. Solis. They even compete with each other.
    Mr. Ragone. They can help each other.
    Ms. Solis. Yes. Yes.
    Mr. Ragone. And right now, they are not. They are competing 
with each other.
    Mr. Bass. The time of the gentlelady has expired. The Chair 
recognizes the gentleman from Pennsylvania, Dr. Murphy, for 5 
minutes.
    Mr. Murphy. Thank you, Mr. Chairman. I am certainly moved 
by your testimony, Dr. Wright. My dad was born in Louisiana, 
and when I traced the Murphy family roots, I look back in the 
19th Century, the thousands of Irish that came to New Orleans 
and died, because they were seen as animals, and even lower 
than slaves, as they helped to build that city in the list of 
the thousands who died there trying to do that. So, my heart, 
and that of Pennsylvanians, also go out to all of you, in as I 
want to make sure that we don't re-victimize the victims, and 
by that, I mean that we look to the people throughout the 
entire area affected by Hurricane Katrina as survivors and not 
victims. And to me, it is important, the way we don't re-
victimize them is to turn this into a political game of who is 
to blame. And let us attack, and let us talk about it has to be 
an independent commission, as opposed to something Congress can 
do? Because I believe that automatically assumes that people in 
Washington, or Members of Congress, do not have the care and 
compassion to do that. And I would like to get that away from 
politics, and let us just talk about finding the right answers 
here, because I think you both are from Jesuit universities, 
too, which I am, as well, and I respect that, because of a need 
to ask questions.
    But let me ask a very tough question on this, of this 
panel. Well, some of you have said the health problems are so 
bad, it is no way habitable now, and I believe I am not sure 
when it will be in a situation to be habitable. In the North, 
we have areas of brownfields, where mills have been for years, 
where perhaps some oil and gas work have done, and basically, 
the EPA and the Department of Environmental Protection in 
Pennsylvania comes in and says you know what, it is never 
habitable for homeowners. Maybe you can do an industrial site 
here, maybe you can do some commercial development here, and 
pave it all over, but it is never going to be right for 
homeowners again, so don't consider that. If it is so serious, 
I mean, I think of the, what, hundreds of thousands of 
vehicles, that as the water came into the gas tanks, the gas 
flowed out. As the chemicals leaked from there, and all of the 
everything else, is it really to the point where someone has to 
ask that question, will it ever be habitable? I open it up to 
the panel.
    Ms. Wright. Well, I have been working in this area with 
people who have lived on top of hazardous waste site, Superfund 
sites, and all kinds of sites, and each time, we have been told 
by EPA that there is a possible cleanup for these types of 
sites. So, I don't believe that the city of New Orleans is so 
contaminated that it will never be habitable again. But I do 
know that if we don't clean it up right, we will end up with 
two thirds of the city being a Superfund site, as we have, in 
fact, experienced with the Agriculture Street Landfill 
community in the city of New Orleans, that was built on top of 
the New Orleans Landfill, where all of the debris from 
Hurricane Betsy was put. And 20 years later, you know, it is a 
Superfund site, with people sick and dying. So, my real concern 
is that the appropriate testing is done, and the right 
remediation is put in place and completed, and that there are 
no differentials in the way that is done, based on race and 
class. Those things, I am very interested in.
    Mr. Murphy. Are you suggesting Congress would act that way, 
based on race and class?
    Ms. Wright. No, I am not. I am saying that things have been 
done that way where I live.
    Mr. Murphy. Well, we want to make sure that doesn't----
    Ms. Wright. I wasn't talking about Congress.
    Mr. Murphy. Well, I want to make sure we don't do that, but 
part of it, as we are looking at tens of billions of dollars 
here, I am real concerned, as you are, about the safety of the 
folks, and I want to make sure we protect them, and part of the 
question is, and people are raising it around the country, and 
because you are there, it is so important for me to hear 
directly from you on this, all of you on this. Are we better 
off relocating the city, rather than rebuilding it there? I am 
opening it----
    Ms. Wright. Are you asking me that?
    Mr. Murphy. Well, I am asking all of you that. I mean, 
certainly, if I lived there, I would say I want to go home, but 
part of it is I am really very concerned about the public 
health issue you are raising, and what it would take, and if it 
is not--I don't know. I am asking you as experts in these 
issues, if it is solvable, asking all of you that. And that is 
a question Congress has to ask. How do we make it safe for the 
public, so people go home there, but we are not just simply 
saying--because here is the thing: I would think there is a 
couple issues. We would be wrong if we simply said well, we 
will fix it up, but go back there. We know you are going to get 
sick again. I think that would be a terrible thing. Or what is 
it going to take to fix it to the level where people can be 
protected, or their health. I need to know the answers----
    Ms. Wright. Are we asking everyone in California to leave, 
because of earthquakes and all of these things that we deal 
with every year? I mean, that is really a strange question to 
me.
    Mr. Murphy. Let me answer this, because I mean no harm in 
this. I am trying to find out--it is much like when people live 
along the Mississippi River and it floods, and FEMA comes in 
and pays them, and it floods again, and FEMA says you are in 
high-risk area. We can't keep doing this. It is a matter, 
because we have such a huge public health concern there, I want 
to make sure we are not sending back to an area where they are 
going to get harmed. I think that would be the worst thing that 
we could put them in a harmful situation, and yet, we want to 
be compassionate, because they want to go home. I would love to 
see that. I am trying to find the balance. I don't mean harm in 
that. Please understand. I want to find how we can solve that.
    Mr. Verchick. I think the short answer is we have to save 
New Orleans, and that we can. We can protect it through 
engineering from the floods. We can scoop up, change, pull up 
the contaminated areas, and over time, as we learn more, we 
will know what we are dealing with, and I think we will be able 
to do it.
    One difference between the Mississippi coast and the 
Alabama coast and New Orleans is that New Orleans is a city 
over 300 years old, a cultural gem in the world, just like 
Venice, and just like the Netherlands, both of which are also 
sinking. We have the technology to save it.
    Mr. Bass. The time of the gentleman from Pennsylvania has 
expired. The Chair would----
    Ms. Wright. Mr. Chairman.
    Mr. Bass. Yes, ma'am.
    Ms. Wright. I would like to be excused. I have to catch a 
plane at 5.
    Mr. Bass. Absolutely.
    Ms. Wright. Thank you.
    Mr. Bass. The Chair will excuse Dr. Wright. Thank you very 
much for your testimony. I would also like to ask unanimous 
consent for members to submit questions to witnesses in 
writing. If there is no objection, so ordered. And the Chair 
recognizes the gentleman from Maine, Mr. Allen, for 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank all of you 
for being here today. A special thanks to Secretary Gautreaux 
and Mayor Rutledge. I have done what you are doing today. 
Sometimes, it is like watching grass grow, to not be in the 
room during this kind of conversation. I very much appreciate 
your being here.
    I would like to ask some questions growing out of Mr. 
Olson's testimony, about EPA's role and how EPA is acting, and 
whether or not it is living up to its responsibility, to 
basically make sure that you all are safe, and the public is 
safe. EPA has said that it is doing testing, but the decision 
on whether or not it is safe to return will be left to local 
authorities. It is unclear, from Mr. Peacock's testimony, who 
would do the analysis upon which to base those decisions.
    I mean, is this a case where we have multiple people out 
trying to analyze a smattering of data, or what? I mean, how 
are we going to get there? And built into this question is 
really another question about, I guess this is probably for the 
mayor and Secretary Gautreaux, what your experience has been 
dealing with the EPA in the course of your efforts to get your 
feet back on the ground. And so, I guess maybe, Ms. Gautreaux, 
why don't we begin with you?
    Ms. Gautreaux. Okay. Well, today, again, repeating what we 
said earlier, when you can officially come back in, a complex 
one that involves a lot. I will tell you from our perspective 
in Louisiana, EPA has been very helpful to us. We have decided 
on long and short-term sampling strategies. We are coordinating 
on information, and these are the types of things that we are 
providing to the public officials. We have the same concerns 
that have been expressed earlier about the water, drinking 
water systems down. People do need to be careful, especially if 
they are sensitive, when they go in the areas. From our 
perspective, EPA has not only helped in terms of strategizing 
and helping carrying out sampling, they also provided 
equipment, such as the TAGA monitoring vehicles that go through 
neighborhoods, planes that are able to fly over and detect 
leaks in facilities, and also, different components in fires. 
Actually, we have about 100 EPA employees over here, and we 
meet, and it is not just a meeting. We have them throughout the 
day, but every day, we get together with our other State and 
Federal partners, and say what is the issue, how are we going 
to approach it? How are we making progress in the areas that we 
think are directly related to public health and safety?
    So, I hope that answers some of your questions.
    Mr. Allen. Thank you very much. Mayor Rutledge, I don't 
know if you have had similar kind of contact, but can you 
comment on what it is like from your community?
    Mr. Rutledge. Well, sir, the monitoring is very important. 
The key to it is, is we are getting those tests back, or those 
results back. It is important for us to know what they are, 
because we can turn around and share that with the public. What 
is happening right now, there is a gap, because the people, 
they are looking for somebody to give those answers. And of 
course, what they are doing, they are calling the local 
officials, and they are calling their local people, saying 
well, where are they? How safe are we? No one is going to allow 
anyone to go back in their home. No one is going to allow 
anyone to go back into the community unless it is safe. And I 
think we all need to be thinking about that, No. 1, but you 
know, when you talk about people that don't have a home any 
more, that don't have a place to go, then it is going to be 
hard for you to keep that person out of that little block of 
land. It belongs to that person. Because a lot of times, you 
know, you adapt to the situation regardless if you want to or 
not.
    Mr. Allen. Okay. Thank you. Other panelists here, any 
reaction to that? Mr. Olson?
    Mr. Olson. Well, I will just say a couple things. One is 
that I don't think there is anybody that would argue that EPA 
should not be much more comprehensive testing. Well, there 
probably are people that would argue that. But that there needs 
to be fair testing, wherever people are going to be returning. 
And that testing needs to not just be released on a website. 
Most of the folks that have been displaced can't log onto the 
web, and even if you read what is on their website, you know, 
you would practically have to have a Ph.D. in chemistry to 
understand some of what is in there. So, it is important to 
have understandable information accessible to people, and to be 
public with that, and much more comprehensive in the testing.
    And we believe EPA, under the National Contingency Plan and 
other legal requirements, does have a legal obligation to 
decide whether it is safe or not. If you have got 2.3 million 
people with unsafe drinking water and no sewage treatment, I 
mean, is it really safe to be sending people into that with 
toxic muck, we have heard, four feet deep in many communities. 
You know, is that really a place people should be returning. 
Maybe you don't block them, but certainly, you give them 
protective gear, and you give them the information they need.
    Mr. Allen. So your bottom line is you don't think EPA is 
fulfilling all those responsibilities.
    Mr. Olson. Well, they certainly have been trying, and I 
don't want to say that they are not doing anything. They 
certainly have got a lot of people there that are working very 
hard. The problem has been communications and extent of the 
testing, and making sure the information is getting put forward 
in an accurate way, and ultimately, stepping up to the plate 
and saying, yes, it is safe, or no, it is not. And we don't 
think they have really been fulfilling that obligation.
    Mr. Allen. Mr. Chairman, my time is up, but I wondered if 
any of the other panelists could just answer the question?
    Mr. Ragone. Just one thing. I think there is a matter of 
distribution of labor here that has to be considered. I used to 
be with U.S. Geological Survey, and I was happy to know that we 
provided information to the benefit of society. EPA's research 
has to do the same kind of thing, and one of the limitations of 
funding with EPA is maybe what are the health implications of 
compounds A, B, C, D, and that list gets longer and longer. I 
think EPA has a major responsibility to know health 
implications of a variety of contaminants that we are facing 
all over the world. I think, in terms of distribution of labor, 
it should be the local communities, the health departments.
    Mayor Rutledge said this. He wants his own people and his 
own communities solving the problems, but that requires 
training and opportunities to gain knowledge, and to exchange 
that research caliber information with EPA, it is just another 
organization, CDC and the like, and put it on the ground 
locally, so those communities can solve the problems in the 
context of their community. You will never get enough money to 
any Federal agency or to any community.
    Mr. Allen. Thank you. Thank you, Mr. Chairman.
    Mr. Bass. Thank you very much. I would like to ask one more 
question. We apparently haven't had votes yet, so we got a 
couple more minutes. If you ladies and gentlemen would be good 
enough to wait around for a second.
    Long-term impact on Lake Pontchartrain and the Gulf of 
Mexico. Do we have any idea what the assessment is at this 
point? Any brief observations as to what our options are, and 
what the impact is going to be? I didn't even know Lake 
Pontchartrain existed a month and a half ago, and now, we 
understand exactly what the problems are and the priorities. It 
is my understanding that prior to the hurricane, it was 
swimmable, there had been a long history of trying to clean it 
up. Is that gone now? Perhaps. Secretary?
    Ms. Gautreaux. Would you like me to address that?
    Mr. Bass. Yes, please.
    Ms. Gautreaux. Okay. We have actually been a partner with 
the local governments in the parishes that surround Lake 
Pontchartrain and others in improving water quality. We were 
very disappointed, although we understood the priority had to 
be to get the water off of the flooded areas in New Orleans, 
for public health and safety reasons.
    To date, what we have seen has actually been very 
encouraging. The water quality samples that have been taken 
have been pretty parallel with big storm water events, and we 
are confident that the fecal bacteria will die off within a 
couple of days. It is salty water in Lake Pontchartrain. It is 
an estuarine lake. Organics will eventually decompose. We may 
see some fish kills associated with the oxygen being eaten up 
during the decomposition process, for lack of a technical 
explanation, and also, that metals will ultimately adhere to 
sediments and be buried. This wouldn't have been our 
preference, but we are very encouraged, as are the local 
citizens organizations. I say citizens--elected officials, a 
group, a cross-section of people of the Lake Pontchartrain 
Basin have been very encouraged about the results to date, that 
we will see a healthier lake in a few months, but we are 
certainly setting up, and they are helping us with a fairly 
comprehensive monitoring strategy in case we do see something 
that needs to be addressed. But so far, we are very encouraged, 
actually surprisingly so at the resilience of the lake, and the 
results of sampling to date.
    Mr. Bass. Thank you.
    Mr. Olson. Could I just add one thing? There are a couple 
of significant issues here that need to be addressed. One is 
the sediments that were just mentioned. We are very concerned 
about the heavy metals and other organics and so on, that are 
going to be adhered to the sediments, some of which washed up 
into the Lower Ninth Ward and elsewhere, and people are going 
to be exposed to this. So some of it that dries up is going to 
turn into dust, and people may inhale it, but at the bottom of 
Lake Pontchartrain, we are also very worried about what is 
going to happen with those sediments.
    The other point, you asked about the Gulf. As you probably 
know, there is already an area in the Gulf that is known as the 
Dead Zone, which grows and shrinks, but at some points is, I 
have heard, larger than your state, which is a pretty 
significant size of an area that is sort of unfishable. A lot 
of that is from the upper Midwest pollution coming down, and 
too many nutrients. The concern is, of course, that may have 
been exacerbated by this flood, and I don't know if you had 
more to say about that.
    Mr. Verchick. The only thing that I would add is that more 
testing has to be done about the heavy metals that are in Lake 
Pontchartrain to say that if they sink to the bottom and get 
buried in the sand, that neutralizes them somehow is not true, 
particularly when you consider that the lake itself is very 
shallow, about 15 feet, 20 feet deep maximum. And so, if you 
have got dredging going on, or other things going on, that will 
affect the bottom, you are going to have all that stuff coming 
back up in the water.
    Mr. Bass. Thank you very much. The Chair recognizes the 
gentlelady from California for a second round for 5 minutes.
    Ms. Solis. Thank you. I missed my opportunity to ask EPA 
regarding testing around Superfund sites and landfills, and I 
would like to get feedback from you all. If you feel that, you 
know, what your opinion is about what EPA has or has not been 
doing in those particular areas, given that we have such a 
large number of Superfund sites in this area.
    Mr. Olson.
    Mr. Olson. Well, we feel that the testing that has been 
done so far has not been adequate, not just with Superfund 
sites. I believe there are four in Orleans Parish, one of which 
was the Agriculture Street Landfill that we have heard about, 
and they did do testing, at least one test, right around there. 
We think you need to do ongoing testing, first of all, and make 
sure you are testing the whole area for a suite of chemicals.
    But what we are worried about is all these other areas that 
nobody is talking about. There are a large number of areas with 
industrial waste, with industrial facilities, tanks that have 
been floated and crumpled, as a result of the flooding, where 
there are no tests whatsoever that have been announced. We are 
very concerned about what that means, and what all these toxic 
sediments being washed up means. So that is where there needs 
to be independent testing, we believe, and more comprehensive 
testing.
    Ms. Solis. One of the concerns I have is if we are going to 
be having a lot of reconstruction going on, obviously, and I am 
very fearful of what I am hearing, that we are not doing enough 
testing. We are going to be bringing people in there, to 
relocate and help us restore--and what kind of appropriate 
safety measures are we taking for this new influx of people, 
who are coming from different parts or regions of the United 
States, to come in there and work, and we are, at the same 
time, lowering standards. We are relaxing some of those 
environmental standards, as well as prevailing wages.
    So I am very concerned, and would love to get your opinion, 
from any one of the panelists.
    Mr. Verchick. One thing to watch, when you have got a lot 
of construction going on, and I noticed this the last time I 
was in New Orleans, is you have got this dried muck now, that 
may have heavy metals in it, it certainly has bacterial things 
and so on. And you have got lots of large machinery moving 
through the city now, Humvees, big trucks, you are going to 
have, of course, more and more of that as construction begins. 
That pushes all that dust up into the air, and it is landing, 
now, in places that look like they had no standing water 
before. I mean, places that never got water, and that looked 
completely normal, under the circumstances, EPA has found 
through its air monitoring, has alarming levels of particulate 
matter in them. And so you know, where my kids used to go to 
school, which didn't get flooding, now has air that children 
are told they shouldn't be breathing. And you have got to keep 
an eye on that, and that is going to be happening many months 
from now, with all of the construction going on.
    Ms. Solis. Any other comments on infrastructure? That, for 
me, is a big issue area. We have had some discussions in our 
subcommittee on the fact that, perhaps, the Congress could have 
done, or could do much more, in terms of helping to develop a 
better infrastructure, and underground storage tank 
protections, and a lot of things, obviously, that are going to 
affect our drinking water supply.
    Mr. Ragone. Yes, we didn't have time to put everything in 
our testimony, but even such things as strategic ground water 
reserves, that you identify well in advance of any need, as a 
place to go when you need water, when surface water is 
contaminated, you have a strategic groundwater reserve in a 
deep, confined aquifer, protected from environmental issues. 
Put a well into that. Secure that well from terrorists, from 
hurricanes, from everything. And then, when you need it, you go 
there, you put it on, you pump that water, just like a 
strategic oil reserve. It is an emergency source of water. It 
could be brackish water. It doesn't have to be the best water. 
You know, oh, it tastes a little salty. As long as the people 
have something to drink, to flush out distribution lines, to 
fight fires, we don't think about that. New York City relies on 
a surface water supply only. What happens there if that goes 
down for some reason? What are they going to drink? If they had 
a backup groundwater system that they could rely on, not nearly 
as much water, not nearly as good quality, they would be safe 
in their place. And that is a big issue.
    Regarding the first point you make, this is a little bit 
out of the national ground water, but it is my old USGS hat. I 
think Congressman Murphy brought up brownfields. There might 
be, in New Orleans, a redefinition of what a Superfund is, in 
terms of its geographical distribution, and what a brownfield 
is, in terms of its geographical distribution. These 
contaminants you talk about floating in the air, coming back 
down in the soils, you could be redefining the boundaries of a 
brownfields based on the redistribution of a contaminant load. 
You could be redefining a Superfund site based on the 
redistribution of a contaminant load, and I think you don't 
want anybody living in a brownfield, you don't want anybody 
living in a Superfund site, and so that is part of the 
considerations of where do you rebuild, and where you don't 
rebuild, and what do you remediate, and what you don't 
remediate. You have to set priorities, and I think the best way 
to set a priority is define your zones of contamination, define 
the risks to people in those zones of contamination, and design 
a remediation plan for the city of New Orleans, with an 
understanding of how to protect people with these zones of 
contamination residing all around them.
    Mr. Bass. The Chair recognizes the gentleman from 
Pennsylvania, Dr. Murphy, for another 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman. I just have one 
question, because I didn't get Secretary Gautreaux's response 
to the question I was asking before, if she thought that the 
New Orleans area, with all these contaminants that we have 
heard about, and bacterial issues, if that area would be 
reinhabitable, and how long that would take, and I would love 
to have your response, please.
    Ms. Gautreaux. It will definitely depend on why the area is 
not being inhabited at the time. People are correct when they 
said we don't have a lot of sampling information in some areas, 
particularly industrial areas. Actually, those were some of the 
last areas we could get access to. We were preparing to go in 
those areas when Rita struck, so I think you will see a lot 
more sampling throughout the city. We may very well find areas 
that need to be remediated, and that needs to be noted, and 
properly remediated. In terms of large areas, I have heard 
references to the new Love Canal. We have not seen that to 
date, but we fully expect to find contaminated areas that need 
to be remediated. That is part of the assessment that is the 
next level of effort right now. So I hope that helps, but to 
date, we have not seen, especially in residential areas, 
indications that people will not be able to return to those 
areas. There may not be structures there, but so far, we have 
not seen large areas that won't be inhabitable.
    Mr. Murphy. So you are saying that--Mayor, it looks like 
you are nodding your head. Do you have similar thoughts, or you 
are--Mayor Rutledge?
    Mr. Rutledge. Yes, I would have to agree with that in 
Mississippi, also. Right now, is it being monitored and 
surveyed? Right now, there is not any place that the people 
can't come back home, but like the lady said, there might not 
be anything to come back home to.
    Mr. Murphy. And so my understanding is, from what you are 
saying, Secretary, is that you will be evaluating that. It is 
too soon to tell, but you will be watching that, and make 
decisions based upon that? Okay. Thank you.
    Ms. Gautreaux. Exactly. We expect to find areas that need 
to be remediated.
    Mr. Murphy. All right. Thank you, Mr. Chairman.
    Ms. Gautreaux. And we will make decisions.
    Mr. Bass. The Chair recognizes the gentleman from Maine for 
5 minutes. It is my feeling--are there going to be any more 
questions after this, or are we done? Okay. Very well. This is 
the last 5 minutes, and then we will adjourn the hearing. The 
gentleman from Maine.
    Mr. Allen. Thank you, Mr. Chairman. I wanted to ask a 
question based on the daily printout from the EPA. There is a 
printout here, which speaks to debris assessment and 
collection, and it says that EPA personnel continue to offer 
technical assistance in the disposal of hazardous wastes and 
other debris left behind by the storm. This is throughout the 
area. As of 9/22, EPA has collected over 37,500 orphaned 
containers throughout the affected region, that are household 
hazardous wastes. I don't know if that is a bottle of bleach, 
or if it is an oil tank, really, and I wondered if anyone 
could--I mean, I don't mean an oil tank. I mean, a barrel of 
oil. And I wondered if anyone on the panel could speak to that.
    Ms. Gautreaux. Well, I can volunteer that EPA has been very 
active, particularly in the parishes north of Lake 
Pontchartrain, where access has been possible. They have been 
very aggressive in terms of collecting orphaned containers. You 
are right, it might be a barrel of pesticide. It could be 
something you would normally find beneath your sink, that 
qualifies as a household hazardous waste. They are preparing to 
do similar sweeps in the parishes that have been more heavily 
impacted by the floodwaters. As they get strategies to move 
into neighborhoods in New Orleans, they are preparing to do the 
same, and in St. Bernard, and Plaquemines Parishes. They have 
also been going to places like Home Depot, some of their public 
information officers, just an example where people would go 
when you are typically rebuilding and repairing, handing out 
literature, so that has actually been a very active effort to 
date, and it will step up as access is increased.
    Mr. Allen. Thank you. Anybody else? Mr. Olson?
    Mr. Olson. Yes, I would just like to add the point, which 
is we have also heard anecdotal reports of widespread small 
spills and small sheens all over the place. It might be from 
underground storage tanks that are leaking. It might be from 
cars. It might be from a variety of things. We are very 
concerned about the long-term effects of that.
    And I just wanted to add one point, which hasn't been 
raised, which is directly responsive to a previous question. 
EPA and the State of Louisiana were both under an obligation, 
under the Safe Drinking Water Act, there hasn't been much 
discussion of this, since 1996, to adopt and implement an 
adequate plan for provision of safe drinking water under 
emergency circumstances, including earthquakes, floods, and 
hurricanes. That was supposed to be in place after the 1996 
law. It will be interesting to see why that never happened, and 
what is going on in other states that might have a similar 
situation in the future.
    Mr. Allen. Mr. Chairman, I yield back.
    Mr. Bass. Thank you very much, Mr. Allen, and I want to 
thank all of our witnesses here today. I want to especially 
thank the two of you who have been very patient. It isn't easy 
to conduct the kind of testimony that we have had, but it has 
been exceedingly informational and helpful to us. We have some 
big challenges ahead of us. That is clear. And I want to thank 
the members who were here today. And we will be submitting some 
questions in writing. So if there is no business to come before 
the subcommittee, the committee stands adjourned.
    [Whereupon, the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    

</pre></body></html>
